<html>
<title> - NATIONAL FIRE PLAN</title>
<body><pre>[Senate Hearing 107-62]
[From the U.S. Government Printing Office]



.                                                S. Hrg. 107-62 (Pt. 2)
                           NATIONAL FIRE PLAN
=======================================================================


                                HEARING

                               before the

                            SUBCOMMITTEE ON
                        PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

TO RECEIVE TESTIMONY ON THE EFFECTIVENESS OF THE NATIONAL FIRE PLAN IN 
  THE 2001 FIRE SEASON, INCLUDING FUEL REDUCTION INITIATIVES, AND TO 
  EXAMINE THE 10-YEAR COMPREHENSIVE STRATEGY FOR REDUCING WILDLAND FIRE 
  RISKS TO COMMUNITIES AND THE ENVIRONMENT THAT WAS RECENTLY AGREED TO BY 
  THE WESTERN GOVERNORS' ASSOCIATION, SECRETARY OF THE INTERIOR GALE 
  NORTON AND SECRETARY OF AGRICULTURE ANN VENEMAN

                               __________

                           SEPTEMBER 25, 2001

                                 PART 2









                       Printed for the use of the
               Committee on Energy and Natural Resources


                        U.S. GOVERNMENT PRINTING OFFICE
77-952                          WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
BOB GRAHAM, Florida                  DON NICKLES, Oklahoma
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
EVAN BAYH, Indiana                   RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         CONRAD BURNS, Montana
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           GORDON SMITH, Oregon

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               Brian P. Malnak, Republican Staff Director
               James P. Beirne, Republican Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                      RON WYDEN, Oregon, Chairman
DANIEL K. AKAKA, Hawaii              LARRY E. CRAIG, Idaho
BYRON L. DORGAN, North Dakota        CONRAD BURNS, Montana
TIM JOHNSON, South Dakota            PETE V. DOMENICI, New Mexico
MARY L. LANDRIEU, Louisiana          DON NICKLES, Oklahoma
EVAN BAYH, Indiana                   GORDON SMITH, Oregon
DIANNE FEINSTEIN, California         CRAIG THOMAS, Wyoming
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           RICHARD C. SHELBY, Alabama

  Jeff Bingaman and Frank H. Murkowski are Ex Officio Members of the 
                              Subcommittee

                         Kira Finkler, Counsel
                Frank Gladics, Professional Staff Member








                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator from New Mexico................    14
Cantwell, Hon. Maria, U.S. Senator from Washington...............    24
Craig, Hon. Larry E., U.S. Senator from Idaho....................     5
DeIaco, Rick, Urban Forester, Ruidoso, NM........................    51
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     2
Hartzell, Tim, Director, Office of Wildland Fire Coordination, 
  Department of the Interior.....................................    15
Hubbard, James E., State Forester of Colorado, on Behalf of the 
  Western Governors' Association.................................    39
Johnson, Hon. Tim, U.S. Senator from South Dakota................     3
Laverty, Lyle, Associate Deputy Chief and National Fire Plan 
  Coordinator, Forest Service, Department of Agriculture.........     6
Lawrence, Nathaniel, Senior Attorney, Natural Resources Defense 
  Council, Olympia, WA...........................................    43
Murkowski, Hon. Frank H., U.S. Senator from Alaska...............     4
Nelson, Tom, Director of Forest Policy, Sierra Pacific 
  Industries, Redding, CA........................................    56
Smith, Hon. Gordon, U.S. Senator from Oregon.....................    34
Woods, Trent, Save Elk City, Elk City, ID........................    65
Wyden, Hon. Ron, U.S. Senator from Oregon........................     1

                                APPENDIX

Responses to additional questions................................    77











                           NATIONAL FIRE PLAN

                              ----------                              


                      TUESDAY, SEPTEMBER 25, 2001

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Ron Wyden 
presiding.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    Senator Wyden. The subcommittee will come to order, and let 
me apologize to our witnesses. Obviously, these extraordinary 
times make it difficult to schedule these hearings, but we very 
much appreciate your patience, and let me begin by making clear 
that my friend and colleague of 20 years in the U.S. Congress, 
both in the House and the Senate, is both a personal friend and 
professional colleague, and we have worked very, very closely 
together on many issues.
    Senator Craig. And our public should not hold that against 
us, right?
    Senator Wyden. I want my colleague to know that, as I begin 
my chairmanship, nothing is going to change in my effort to 
continue to reach out to work with you on all these issues, the 
fire issue, virtually all of the Western timber debates have 
long been obscured by the smoke of partisanship and acrimony, 
and we have lost too much land already. We are not going to 
walk away from this debate, passing up an opportunity to make a 
real difference both from the standpoint of the environmental 
and economic wellbeing of our communities.
    I am going to make a couple of comments, then turn to 
Senator Craig.
    It seems to me that anybody watching the thousands of brave 
firefighters fight the fires that raged over hundreds of 
thousands of acres this summer has to recognize that business 
as usual fire control is no longer good enough. What we are 
going to have to do is find a way to make sure that the warring 
camps in the natural resources debate come together, and that 
is what we did in the county payments bill, and that is what I 
think our challenge here is with respect to fire.
    We are going to actively pursue opportunities to unify 
communities, the timber industry, and environmental leaders to 
develop creative strategies for reducing fire materials in the 
forest, employing materials in our rural communities with 
family wage jobs, and maintaining the environmental integrity 
for ourselves and future generations.
    Suffice it to say in the past the environmental community 
in a number of instances fought forest management practices 
that would have lessened the severity of fires for fear the 
timber companies would settle in and harvest the big trees. 
Some in the timber industry were willing to prepare the forests 
for fires, but wanted the big trees in exchange. Debates 
smoldered and slowed progress, and the West continued to burn, 
and the heart of the problem is, while this contentious 
discussion went forward, our ecosystems got sicker, not 
healthier, and that is what we are going to try and change
    The national fire plan, of course, provides an opportunity 
for us to pursue that agenda. It focuses on better science, and 
was used for most of the 20th century. It has five components: 
fire-fighting, rehabilitation and restoration, hazardous fuel 
reduction, community assistance, and accountability, so we are 
going to look to make sure that the national fire plan is our 
vehicle on a bipartisan basis so that when it is fully 
implemented we can ensure that the money goes to protect the 
resource for the long term and reduce the fire danger on our 
national wildlands.
    As the new chairman of this subcommittee, it is my 
responsibility to keep Congress and the administration focused 
on what will be a difficult multi-year program. Last year, the 
Clinton administration proposed, and Congress concurred, on a 
bipartisan basis that the fire plan should be fully implemented 
with an appropriation of $1.3 billion. A portion of that money 
was directed specifically at the urban-wildland interface to 
protect lives and private property. The work began with that 
appropriation and will be our work for sometime. The Forest 
Service tells me that they will need the same level of funding 
for the next 15 years in order to address the full extent of 
the fire danger on our national wildlands. In our view, it is 
our collective responsibility to make sure that these resources 
are used in a way that benefits the environment and the local 
economies, and with that I would like to recognize my colleague 
and friend, Senator Craig.
    [The prepared statements of Senators Domenici, Johnson, and 
Murkowski follow:]
       Prepared Statement of Hon. Pete V. Domenici, U.S. Senator 
                            From New Mexico
    Good afternoon. I would like to take this opportunity to thank Mr. 
Rick DeIaco from Ruidoso, New Mexico, who I understand is the recently 
hired urban forester for the village of Ruidoso, for appearing before 
the subcommittee today.
    So far this year in Washington, D.C., we have held several hearings 
about how the Fire Plan is coming together. I also held an informal 
hearing in Ruidoso, New Mexico on July 2, 2001. Mr. Laverty was there 
and was very helpful. We learned some things, and have tried to address 
some of the concerns in the FY02 Interior Appropriations bill. 
Additionally, Mr. DeIaco was kind enough to give my staff some 
additional thoughts and I would like to enter his letter in the record.
    I hope that today we can really look at the implementation of the 
National Fire Plan and glean information that will help determine what, 
if any, additional funding and improvements are needed to make sure 
that we secure effective and rapid implementation of the National Fire 
Plan.
    As you all know the implementation of the National Fire Plan is 
extremely important--both in New Mexico, and elsewhere in the West. 
Following last year's fire season--the worst fire season in the last 
fifty years--we know first hand the challenges we face. During that 
season, over 70,000 fires burned more than 7.5 million acres.
    It was during this awful fire season we learned that federal 
firefighting agency budget requests were reduced before they were sent 
to Congress. Consequently, firefighting preparedness was not at maximum 
capacity, and firefighting efforts were extremely impaired. This, in 
turn, left us with an even larger fire recovery need.
    With the cooperation of many of my colleagues in the Senate, 
including Senator Bingaman, Senator Diane Feinstein from California, 
Senator Ron Wyden from Oregon, and Senator Larry Craig from Idaho, we 
were able to act in the Fall of 2000 to provide considerable authority, 
support, and funding for the National Fire Plan. I am proud that the 
Congress saw fit to include my $240.3 million dollars for hazardous 
fuels reduction work in the National Fire Plan. In addition to 
providing increased funding for fire preparedness, we directed and 
funded the federal agencies to: (1) identify communities at risk from 
wildfires; (2) enhance cooperative firefighting efforts; (3) initiate 
hazardous fuels treatments and forest health projects; and (4) 
accelerate rehabilitation and restoration work.
    I have to say that I was extremely pleased with the award of 
approximately $4.7 million last week to New Mexico communities, in 
addition to $3.5 million awarded to Region 3 in June, for National Fire 
Plan grants by the Forest Service. These grants are the first step in 
showing the Congress' and the Forest Service's commitment to provide: 
(1) technical assistance and support to local communities and 
organizations for fire protection projects and assessments; as well as 
(2) economic action and pilot programs that address the use of small 
diameter trees. These grants are necessities in our effort to address 
fire risk in our forests and around our communities.
    In closing, I would like to emphasize that we have a lot of work 
ahead of us in addressing this problem. Our forests did not get into 
this predicament overnight. Likewise, we cannot rectify the situation 
overnight. We have begun marching down a path and we need to know some 
very specific things about the future that path will take: 
Specifically, what are people on the ground presently doing, what more 
needs to be done, and what can me and my colleagues here in Congress do 
to help? Thank you.
                                 ______
                                 
 Prepared Statement of Hon. Tim Johnson, U.S. Senator From South Dakota
    Mr. Chairman: I would like to thank you for holding this hearing on 
an issue that has deeply affected the Black Hills Forest in South 
Dakota and the forests of much of the nation. Preserving the 
environment, aesthetic and industrial integrity of our nation's forests 
has been one of my top priorities during my tenure in Congress. I am a 
strong advocate for a multiple use approach in dealing with public land 
management. Balancing the needs of the environment with responsible use 
of forest resources are a must for sound forest management.
    Over the past two years, the Black Hills in western South Dakota 
have been ravaged by fires. Last summer, the largest fire in my state's 
history was recorded. The Jasper Fire started on August 24, 2000 and 
burned as fast as 100 acres per second, covering a total of 83,000 
acres. It took over two weeks to control the blaze. The fire threatened 
private homes in the communities of Deerfield, Custer and Hill City, 
the Jewel Cave National Monument and the Mount Rushmore National 
Memorial. It also forced the evacuation of many residents in 
northwestern Custer County and southwestern Pennington County. The 
Jasper Fire would have been much worse if it were not for the herculean 
efforts of over 1,000 men and women, which included over 90 different 
South Dakota communities.
    This year, another large fire went through the Black Hills. The Elk 
Mountain Complex fires took nine days to control and destroyed roughly 
29,000 acres. Thankfully this fire was not as large as the Jasper Fire, 
but still very significant.
    Although I understand that fire is a healthy part of a forest's 
life, there is certainly a difference between a prescribed, controlled 
burn and one that threatens private property and local communities. 
Many of these fires are started by circumstances we cannot control. The 
Western United States have been ravaged by drought-like conditions the 
past few years and make preventing a fire almost impossible. However, 
some steps can be taken so that when a fire does start, the local 
communities will be in a better position to fight it. I would like to 
see more funding directed towards training local community fire 
departments in fighting forest fires. Also, I believe it is important 
that the United States Forest Service (USFS) and the Department of 
Interior (DOI) fully utilize the authority Congress gave both agencies 
by offering training and job opportunities for the restoration of 
national forests and public lands. This will be a boon to local 
economies and offer high skill/wage jobs for its residents. The Forest 
Service should continue to coordinate with state foresters and local 
governments and take the necessary steps to ensure that the these plans 
are implemented efficiently.
    Mr. Chairman, I look forward to the testimony and to working with 
my Senate colleagues and the agencies on implementation of the Fire 
Plan.
                                 ______
                                 
Prepared Statement of Hon. Frank H. Murkowski, U.S. Senator From Alaska
    The condition of our federally-owned forest lands and recent fires 
make it evident that a comprehensive and effective plan for addressing 
fire risk is needed. I commend the Forest Service and BLM for 
addressing this issue by developing the National Fire Plan. The Western 
Governors Conference has also acted to develop a 10 year strategy for 
addressing the fire problem. This hearing will discuss the 
effectiveness of the National Fire Plan.
    The fire problem is especially acute on the 39 million acres of 
Forest Service land and the 57 million acres of Department of Interior 
land that have been identified as being at high risk of fire because of 
abnormal fuel loading and other factors.
    We are not exempt from this problem in my home state of Alaska. 
South central Alaska is currently suffering from the most devastating 
softwood insect pandemic in the recorded history of North America. The 
white spruce resources in the boreal forests of that region have been 
decimated by the spruce bark beetle, with many stands suffering more 
than 80 percent mortality and some areas showing 100 percent mortality.
    The problem extends from the Copper River area in the northeast to 
the tip of the Kenai Peninsula south of Anchorage. It crosses ownership 
boundaries, including lands managed by the Forest Service, the Park 
Service, BLM and the Fish & Wildlife Service, as well as lands under 
state and private ownership. Current active infestation on federal 
ownership is about 35,000 acres. The total cumulative acreage damaged 
by the infestation over the past 10 years is 2.9 million acres. 1.4 
million acres of that is on the Kenai Peninsula. Another 85,000 acres 
have accumulated within the Municipality of Anchorage.
    While state and private forest landowners in the region have made 
substantial efforts to remove dead and dying trees and replant the 
affected lands, the federal agencies have taken virtually no action, 
except to participate in discussions and spend many thousands of 
taxpayer's dollars producing reports. They have also provided some 
funds to assist municipalities in the region, but these focus mainly on 
fire fighting rather than prevention.
    This lack of proactive effort is unacceptable and must not be 
allowed to continue. Unfortunately, much of the beetle-killed white 
spruce timber in south central Alaska has now been dead so long it 
retains little commercial value. An opportunity has been lost to 
recover the costs of removal and reforestation, an opportunity that 
was, to a significant degree, captured by the state and private 
landowners in the area.
    That does not mean it is too late to address the wildfire risk in 
Alaska. It just means that the agencies are now going to have to 
address the fuel loading problem without much of a revenue stream to 
offset the costs. I hope that the Administration has effective plans to 
address the multi-agency Alaska issue as part of the National Fire Plan 
recommendations.
    I will not accept that we are going to address the problem with 
prescribed burns. We saw evidence of where that leads last Spring. A 
prescribed burn, started by the Forest Service, raged out of control 
near Kenai Lake, destroying habitat and threatening homes and lives. We 
were very fortunate when favorable winds and heroic efforts by 
firefighters prevented significant private property losses. We can't 
rely on luck or Providence to protect us from our own foolishness in 
the future.
    Finally, I have three specific concerns that I hope will be 
addressed today:
    1. I am concerned about what appears to be an historic pattern of 
measuring success by accounting for the number of acres ``treated,'' 
without a clear indication of prioritizing either the economic and 
ecological value of those acres or the relative value of the 
``treatments'' applied. In implementing the National Fire Plan the 
agencies must do a better job of balancing its efforts though such 
prioritization.
    2. While the wildlands/urban interface is important in terms of 
human life and private property values, it cannot be the sole focus of 
our efforts. I believe we must look to the future and give much more 
weight to protecting areas of high economic and ecological importance 
in the more remote areas of our federal lands than the current Fire 
Plan appears to do. Certainly, we should prioritize public safety. 
However, if we take an unbalanced approach and focus most of our effort 
on short term protections around communities, we will have only 
addressed today's problems and will have compounded the problems of 
tomorrow.
    3. The problem of fire risk to our federal forests calls for large 
and multi-faceted action. We simply must not ignore nor minimize the 
effectiveness of mechanical intervention, including timber harvests, to 
maintain the health of our forest ecosystems. The protection of 
watersheds and habitat and the maintenance of the economic values of 
our forests can and should be accomplished in large measure through 
active forest management across a broad spectrum of public lands, 
especially in those areas such as national forests and BLM managed 
forest lands which are designated by law for multiple use management.

        STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. Well, Mr. Chairman, thank you, and thank you 
for your kind and generous remarks. That friendship is mutual. 
I have enjoyed it and appreciated it over the years, and this 
relationship. It will clearly continue.
    I want to thank the chairman for recognizing that it was 
time to look at the national fire plan, not only to look back 
into this summer, but to look forward into next year, and we 
have witnesses with us today that I think can do that.
    Interestingly enough, Mr. Chairman, this past week I was at 
ground zero at the World Trade Center, and while we are all 
living now, and this Congress is working in the shadow of that 
incident, I was extremely happy to learn that the National 
Interagency Fire Center had three class 1 incident command 
teams working in New York and at the Pentagon, while at the 
same time it was manning at least 15 large project fires in the 
West with both class 1 and class 2 teams.
    In all sincerity, I believe that the National Interagency 
Fire Center, the Departments of Agriculture and Interior 
abilities to fight fire and render assistance, is a testimony 
to all involved, and I think both of us honor them for that. In 
other words, the investment we made last year to fight fires on 
the public lands of America was playing itself out in the smoke 
and the rubble of New York City.
    As many predicted, this fire season is the second year in a 
row of extraordinary fires that have consumed some 3 million 
acres and some 50 homes and structures. As usual, our 
firefighters continue to struggle against long odds, and you 
have mentioned, and have performed admirably under what at best 
was difficult situations. Last fall, the chairman and I joined 
with Congress and appropriated the single largest budget 
increase in the history of the U.S. Forest Service aimed at 
dealing with deteriorating forest health and the extraordinary 
fire risk that we faced on our public lands and that we 
continue to face.
    Today, I am interested in learning from the administration 
how the implementation of the national fire management plan is 
proceeding, and from our panelists about what is and what is 
not working. I would also like to know of the other 
opportunities that the agencies might see that we are missing 
in directing them toward.
    I would like to welcome Trent Woods from Save Elk City to 
the hearing today. Trent, in all fairness, I appreciate you 
traveling from Elk City Idaho. The Friday before last, I tried 
to make it to Seattle and back, a normal 12-hour turn-around. I 
recorded over 36 hours on airplanes and in airports, so I know 
that your task was a bit arduous getting out here from Elk 
City. It is just arduous getting, Mr. Chairman, from Elk City 
to Grangeville.
    [Laughter.]
    Senator Craig. Let alone traveling across the county. He 
was well-conditioned by the time he got to the airport in 
Lewiston, I suspect.
    My point is that it is important we understand the 
challenges faced by hundreds of small communities such as many 
that we have in our States. Much of the Forest Service and the 
Department of the Interior's efforts of this first year have 
been focused on fire suppression and planning. Considerably 
less attention has been directed toward the reduction of 
hazardous fuels, work that we all know must be completed.
    I am concerned that too much of the funding for the 
national fire plan is being spent to hire new agency employees, 
rather than private contractors, which does not fully meet the 
original intent of the initiative, so I hope Mr. Laverty and 
Mr. Hartzell can help us understand this and other shortfalls, 
and what steps their agencies are taking to ensure that we will 
meet the fiscal year 2002 targets, as well as correct the 
fiscal year 2001 shortfalls.
    Finally, I am increasingly troubled by the missed 
opportunities to manage our overstocked forest in a way that 
provide the much-needed small spin materials to help fuel new 
and existing cogeneration facilities. It is interesting that 
only those of us who look at the statistics are talking about 
the energy crisis of today, when this committee that the 
chairman and I sit on were absolutely embroiled last winter in 
California's blackouts and our wakeup call that all of us are 
still wanting to heed.
    The opportunity to develop additional environmentally 
friendly cogeneration plants powered by renewable wood products 
is an opportunity this country can ill afford to miss. I want 
the Federal Land Management Agencies to take advantage of the 
resource, but more importantly the time, the place, and the 
health environment in which our public lands exist. I expect we 
will hear more about this from several of our witnesses today.
    And let me close with this observation, Mr. Chairman. The 
American taxpayer and this Congress have invested a significant 
amount of money to begin taking care of forest health problems 
of our Nation. Given the events of last week and the economic 
impacts we are experiencing, I hope the U.S. Forest Service and 
the Department of the Interior understand the need to begin 
showing progress.
    In addition, it is important to ensure that programs funded 
through this initiative spread economic benefit beyond the 
agencies and to the people and the communities involved.
    Thank you for the hearing. Let us proceed.
    Senator Wyden. I thank my colleague. Let us do just that.
    Mr. Laverty, we will start with you, and then Mr. Hartzell.

STATEMENT OF LYLE LAVERTY, ASSOCIATE DEPUTY CHIEF AND NATIONAL 
     FIRE PLAN COORDINATOR, FOREST SERVICE, DEPARTMENT OF 
                          AGRICULTURE

    Mr. Laverty. Well, Mr. Chairman and Mr. Craig, it really is 
a rich opportunity for Tim and I to be here this afternoon to 
share with you some of the really significant accomplishments 
that have, in fact, taken place as a result of the 
implementation of the national fire plan.
    As a result of perhaps years of aggressive suppression we 
have seen some very significant changes take place in the 
landscape, and in many cases those unintended consequences of 
accumulations of fuels have led us to the circumstance that we 
have found that came to highlight last year and again this 
year. Last year we burned well over 7 million acres. This year 
we have burned in excess of 3 million acres already to date, 
and we still experience extreme conditions in many parts of the 
interior West, Oregon, Idaho, Colorado, California, Arizona, 
Utah. We are still in major fire season and it is not over yet.
    Yet we have had extreme success across the country as a 
result of the investments that the Congress and the American 
taxpayers have been willing to make to reduce these kinds of 
consequences. What I would like to do is share in a few minutes 
with you some of the things that we have been able to 
accomplish and that we are currently working on as it relates 
to successful implementation of the fire plan.
    Tim and I are passionate about accountability. We are 
passionate about accomplishments, and I can tell you we can 
assure you that these investments are, in fact, bringing the 
results that I believe we are collectively working towards.
    Before I start, let me just share with you a little bit 
about the current situation. I mentioned and Senator Craig 
mentioned that we have burned a little over in excess of 300 
million acres already this year--3 million acres, I am sorry, 3 
million acres, with a cost of approximately $600 million. That 
is a substantial investment.
    Many of these fires that we have encountered this summer 
have been in the urban interface with high expense, fires such 
as the Green Knoll in Jackson Hole, Wyoming, where we have been 
in fact protecting communities with substantial investments. In 
California, we have had fires where it is costing us up to 
$1,200 and acre or $1,500 an acre, just because of the 
importance of protecting life and property. These fires I think 
are indicative of the nature of the incredible growth that has 
taken place in the interior West and really across the country.
    We had folks last week up in Martha's Vineyard talking 
about the national fire plan and even in that community folks 
are concerned about urban interface between the threat of 
vegetation.
    Since Tim and I were with you last year, or this past 
spring, we have been working aggressively to implement the 
national fire plan through a seamless interagency approach, and 
before I share with you some of the significant accomplishments 
and some of the key point areas, I'd like to share with you 
some of the things we've done as a result of the interagency 
coordination.
    Tim and I have recently completed a charter for the 
Interagency Leadership Forum, which is a forum designed to 
bring the Secretaries, the Under Secretaries, and Assistant 
Secretaries together to provide active, engaged leadership 
structured to ensure that we have got clear interagency 
coordination on a policy, that we have got clear interagency 
accountability, and that we have got effective implementation 
not only not only of the national fire plan, but of the 
national wildland fire policy.
    We have recently completed with the leadership of the 
Western Governors and State foresters, tribal interests, and 
conservation and commodity groups and a variety of community 
based restoration organizations the 10-year comprehensive 
strategy, which was a collaborative approach for reducing 
wildfire risks to communities and the environment. The two 
Secretaries and the Governors transmitted the copy of that 
report to each of you in mid-August, and I think it is an 
indication of the strategy that reflects how we are working 
together with the States and other organizations in the long 
term collaborative approach on dealing with these kinds of 
issues that need to be solved at the local level.
    We have been aggressively coordinating our research 
efforts. The joint fire sciences program is but one example. 
Our research agenda is now being developed by interagency 
resource specialists, as well as folks from the academic 
community and interest groups.
    We are currently working on developing a set of interagency 
performance measures for all Federal land agencies. These 
measures are going to cut across the organizations that will 
reflect the GPRA efforts so that in our annual performance 
plans we can, in fact, have a consist outcome-measured set of 
performance measures for line officers, and I think this is a 
huge breakthrough in terms of the kinds of coordinations taking 
place.
    Finally, I would share with you that we are conducting a 
series of interagency strategic overviews across the country, 
in every region of the country. These reviews are designed to 
look at how can we improve our effectiveness in the delivery of 
the national fire plan as we move into the next program year. 
We are going to complete these by the end of this next month, 
and as soon as we complete our analysis and summary of these 
findings, we would be glad to come up and share with you what 
we have done.
    Let me just talk for a second about some of the program 
accomplishments. Fire-fighting readiness. As a result of the 
investment, we have been able to make significant investments 
in new fire-fighters. We have hired over 3,300 additional fire-
fighters just on the forest side this year, and as a result of 
that we are hearing testimony after testimony after testimony 
across the country on how we have been able to successfully 
attack these fires and hold them in the initial attack phase. 
The result is that we are able to reduce the effects of 
wildfire on many communities, and the result is that we have 
saved a lot of structures. Even though we have lost structures, 
we have saved a lot of structures.
    We have been able to make some significant investments, I 
think, in terms of hazardous fuels, and I would just like to 
talk about this for a minute. We really have been able to 
reduce fuels. As of yesterday we have treated well in excess of 
1.2 million acres just on national forestlands across the 
country. That is a significant investment in terms of reducing 
hazardous fuels, and we expect to be successful as we move into 
the future.
    If I could just may be capture a couple of points, and I 
will pass it to Tim. In addition to the fire-fighting readiness 
that we have with the fire plan, we have been able to make 
significant investments in human lives, and we have been able 
to make some big changes in the lives of our communities 
because we have been able to put at-risk young people to work.
    I was down in Ohigh, California about 3 weeks ago, and 
heard testimony from a counselor in the high school that talked 
about the changed lives that are taking place as a result of 
hiring some of these kids to put them to work this summer.
    We also, in addition to the incident command teams that are 
at the ground zero, we also have two of the new hot-shot crews 
that we were able to fund as a result of the fire plan that are 
effectively working in the recovery efforts in New York, the 
Medellin crew from Illinois, and the Augusta crew from 
Virginia, so there are a lot of positive results from the 
investment.
    Just in closing, Tim and I are very conscious about 
accountability, and as we look at the future in terms of how we 
can in fact be accountable so that we can with all transparency 
share with you that we have good accountability for the 
projects, that we are making good efforts in terms of 
accomplishing the objectives, I am convinced that we are there, 
and we are delighted to have a chance to share with you today 
what is going on with the fire plan, and we would be happy to 
answer any questions.
    [The prepared statement of Mr. Laverty follows:]
    Prepared Statement of Lyle Laverty, Associate Deputy Chief, and 
     National Fire Plan Coordinator, Forest Service, Department of 
                              Agriculture
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to talk about the effectiveness 
of the National Fire Plan and the recently released 10-Year 
Comprehensive Strategy. I am Lyle Laverty, Associate Deputy Chief, 
State and Private Forestry and National Fire Plan Coordinator of the 
Forest Service. I am here today to bring you up to date on what has 
been accomplished thus far and what we plan to do next in implementing 
the National Fire Plan.
    The severe fire season of 2000 captured the attention of the 
American people and highlighted the need to find ways to protect life 
and property and minimize losses of natural resources. On September 8, 
2000, the Secretary of Agriculture and the Secretary of the Interior 
issued a report entitled ``Managing the Impact of Wildfires oh 
Communities and the Environment.'' The report, referred to as the 
National Fire Plan, contains recommendations to reduce the impacts of 
wildland fires on rural communities, reduce the long-term threat from 
catastrophic fires, and ensure sufficient firefighting resources in the 
future.
    For the past century we have been very successful at preventing and 
suppressing unwanted fire. This work was accomplished with the best 
intentions to protect our growing communities and valuable forest and 
rangeland resources. In some locations an unintended consequence of 
this success, however, was the buildup of unprecedented amounts of 
dense vegetation that now, in times of drought and wind, fuels 
devastating wildfires. These uncharacteristically intense fires 
threaten homes, communities, watersheds, wildlife habitat, and the 
lives of firefighters and the public. Each year, more vegetation grows 
and the problem becomes incrementally worse. There is no short-term 
solution to this problem. Now, more than ever, we must continue to 
prevent and suppress unwanted fires and reduce these unnatural fuel 
conditions. They have the potential to be more destructive to 
communities and the environment than ever before.
    While we continue with our best efforts to protect communities and 
forestlands from the effects of unwanted fire, we must focus our 
attention to treating the hazardous buildup of vegetation that fuels 
these fires. An aggressive fuel treatment program and adjusting land 
and fire management priorities are the long-term solutions to reduce 
the effects of unwanted wildland fire, restore our forests to 
ecologically healthy conditions, and protect our communities on a 
longer-term basis. As we continue to find common ground and work in 
partnership with other federal agencies; states, tribes, local 
communities, and Congress, we leverage our resources and skills, 
increasing our ability to solve this national problem. We are at a 
turning point. The National Fire Plan is the beginning of the solution.
    Mr. Chairman, less than eleven months have passed since the Forest 
Service, Department of the Interior, and our State partners undertook 
the giant task of implementing the National Fire Plan. It is a 
monumental task. In that brief time, we've learned many lessons, and we 
realize we have many areas in which we can improve. We are dedicated to 
expediting collaboration, providing common performance measures and 
budget planning models, and analyzing and managing interagency 
landscape scale projects.
    The rehabilitation and restoration efforts in Montana's Bitterroot 
Valley are a testament to community and agency partnerships. The Forest 
Service is working with the State to mitigate the extent and impact of 
invasive plants on National Forest System lands and private lands that 
may grow in after an area has been burned. Funding for this treatment 
is coming from the National Fire Plan and State and Private Forestry. 
Research and feasibility studies in bio-energy and biomass production 
are underway in Colorado, California, and the Pacific Northwest, as we 
look for alternative ways to improve utilization and reduce hazardous 
fuels. Contracting Officers are working on a national contract to 
provide engines and crews from the private sector to assist us with 
wildland fire suppression and fuel treatment projects. Today, there are 
unprecedented examples of interagency and governmental cooperation 
occurring to meet these goals. The accomplishments so far are from a 
program only eleven months old. The list of accomplishments is long, 
and I am proud of the progress we have made in such a short time.
                     10-year comprehensive strategy
    Before I focus on implementation of the National Fire Plan, I would 
like to briefly discuss the 10-Year Comprehensive Strategy--A 
Collaborative Approach for Reducing Wildland Fire Risks to Communities 
and the Environment. Congress directed the Secretaries of Agriculture 
and the Interior to work with the Governors to develop this strategy in 
the FY 2001 Interior and Related Agencies Appropriations Act. The 
direction requires ``close collaboration among citizens and governments 
at all levels.'' In developing this strategy, we worked with a 
geographically diverse group of people, representing all levels of 
government, tribal interests, conservation and commodity groups, and 
community-based restoration groups. The multi-faceted nature of the 
issues and jurisdictions addressed by this strategy necessitates broad 
communication and collaboration. While the line officers of the land 
management agencies are the principal decisionmakers concerning public 
lands, the collaborative framework, with clear roles and 
responsibilities, will assist in the implementation of this strategy 
across all ownerships and jurisdictions.
    The comprehensive strategy was completed and released to the public 
on August 13, 2001. The Western Governors' Association, the National 
Association of Counties and the National Association of State Foresters 
endorse the Strategy. The key points are:

  <bullet> The Comprehensive Strategy emphasizes measures to reduce the 
        risk to communities and the environment from wildland fires for 
        the long-term.
  <bullet> The Comprehensive Strategy emphasizes a collaborative, 
        community-based approach to address wildland fire issues and 
        the importance of making key decisions at the local level.
  <bullet> The primary goals of the Comprehensive Strategy, which are 
        consistent with those contained in the National Fire Plan, are: 
        to improve prevention and suppression, reduce hazardous fuels, 
        restore fire-adapted ecosystems, and promote community 
        assistance.
  <bullet> A set of core principles, including collaboration, priority 
        setting, and accountability will help guide the major themes of 
        the comprehensive strategy.

    Successful implementation of the National Fire Plan and the 10-Year 
Comprehensive Strategy requires a commitment among the federal and 
state partners to integrate their programs, to the maximum extent 
practicable, to ensure that implementation proceeds in a standard, 
consistent, and cost-effective manner across agencies. By May 1, 2002 a 
detailed implementation plan will be developed in collaboration with 
the Governors to establish detailed and consistent operational ways of 
doing business between Federal and State agencies and tribal entities 
to ensure the Core Principles and Goals are met; financial and other 
resources are available and utilized in an integrated, targeted, and 
cost effective manner; legal and technical requirements are met; and a 
system is established to identify and promptly address implementation 
issues.
    We are working with the Department of the Interior to integrate 
priorities, develop accomplishment timeframes, identify performance 
measures, and report on procedures that outline efforts to work with 
states and communities to reduce the threat and risk in areas that need 
fuels treatment. Although we have made progress in some of these areas, 
Secretary Veneman and Secretary Norton have discussed the need for much 
more thorough integration of program activities between the two 
Departments.
    Because the five land management agencies listed in the National 
Fire Plan have different missions and authorities, planning 
requirements vary. All National Forests in the Forest Service have 
action plans that guide fire suppression actions on initial attack 
fires and larger fires that escape initial attack, and prescribed 
fires. National forests that don't have fire management plans have 
adequate direction for tactical fire suppression initial attack and 
fuel treatment and are in the process of updating their plans. By 
December 2003, we expect that each national forest will have a fire 
management plan that meets guidelines established in the 1995 Federal 
Wildland Fire Management Policy.
                         the national fire plan
    I would like to focus on 5 key points dealing with the National 
Fire Plan:

  <bullet> Firefighting
  <bullet> Rehabilitation and Restoration
  <bullet> Hazardous Fuel Reduction
  <bullet> Community Assistance
  <bullet> Accountability
Firefighting
    The National Fire Plan made funds available to increase initial 
attack capability, increase extended attack support, and provide more 
resources during large fire episodes. These additional firefighting 
resources have facilitated control of more fires during initial attack, 
thereby reducing wildland fire threats to communities at risk. Through 
workforce hiring and employee development efforts, the Forest Service 
has hired approximately 3,300 new firefighters for the 2001 fire 
season. In bringing on these new people to fill vital firefighter 
positions, the Forest Service has provided training to every individual 
involved in the fire programs.
    Additional equipment purchased under the National Fire Plan has 
enhanced the organizational capacity of the fire management 
organization. For example, in Oregon and Washington, Forest Service 
units have added 58 fire engines, 4 bulldozers, and 10 water/foam 
tenders. In the state of California, units have added 251 new pieces of 
equipment, including 216 vehicles.
    The cornerstone of the Forest Service wildland fire program is 
safety and adhering to fire qualification standards for all wildland 
firefighters. This fire training is reinforced with daily, weekly and 
monthly safety meetings and annual fire safety refresher training. In 
addition, safety briefings are given at the beginning of each shift on 
an incident.
    To enhance our readiness and attack capabilities, our scientists 
are conducting research to improve monitoring of fuel conditions, 
enhance fire risk assessments, improve fire weather and behavior 
predictions, and increase the accuracy of long term prediction of fire 
severity, fire weather, and climatic conditions. Twenty-two research 
and development projects related to these improvements have been funded 
using the Joint Fire Sciences and National Fire Plan programs. Managers 
will use the information collected from these research projects to 
implement fire plans.
    While these efforts will help reduce threats to communities at 
risk, large wildland fires will not be eliminated. Long term and 
comprehensive programs in fire prevention, fire suppression, and fuel 
treatment, involving the States, tribes, communities, and other federal 
agencies, will be necessary before the current fire environment is 
changed to one that is less destructive and costly. To this end, we are 
currently working on improvements to wildland fire planning systems, 
focusing fuel treatment in areas where communities are at risk, working 
with other State and federal agencies to plan interagency landscape 
level fuel treatment programs, and expanding fire prevention programs 
like FIREWISE.
    Mr. Chairman, enhanced readiness and attack capabilities have other 
important advantages beyond wildland firefighting. For example, two of 
the Forest Service hotshot crews established under the aegis of the 
National Fire Plan are now assisting with the World Trade Center and 
Pentagon emergencies. The Augusta Hotshots from Virginia and the 
Midewin Hotshots from Illinois are working with Incident Management 
Teams assigned by the Federal Emergency Management Agency to support 
Mobilization Center operations.
Rehabilitation and Restoration
    Rehabilitation and restoration efforts are focused on lands that 
are unlikely to recover naturally from wildland fire damage. These 
efforts are in addition to the emergency stabilization efforts that 
have already taken place, and are funded with Burned Area Emergency 
Rehabilitation (BAER) funds. For FY 2001, 437 rehabilitation and 
restoration projects are underway. This includes watershed restoration 
on 840,000 acres; more than 3,000 miles of road and trail restoration; 
fish and wildlife habitat restoration on 500,000 acres; treatment of 
invasive plants, insects and diseases on 280,000 acres; and planting 
over 650,000 trees. Much of this project work is being contracted to 
utilize local businesses in the restoration work. Additionally, a large 
amount of planning has been accomplished to prepare for future 
projects. For example, an environmental impact statement (EIS) is being 
prepared on the Bitterroot National Forest to cover restoration and 
rehabilitation activities on over 300,000 acres of burned land.
    In FY 2001, nine research projects and two new applications of 
technology were funded through the fire plan in support of 
rehabilitation. The agency is working with State and local agencies to 
set priorities for lands scorched in last year's fires and to reduce 
hazardous fuels.
    In New Mexico, restoration efforts are ongoing on the Cerro Grande 
Fire that occurred in May 2000. The Forest Service worked with the 
Department of Energy, the Santa Clara and San Ildefonso Pueblos, the 
National Park Service, and private citizens to stabilize high risk 
sloped areas after the fire was contained. These treatments were 
successful in protecting the watersheds and reducing post fire damage 
from flooding and hazardous pollution. Implementation of treatments 
began in early June after the fire and was completed prior to the mid-
July storm season. Some additional emergency treatments were identified 
and accomplished in 2001 along with long-term restoration measures 
using funds from the National Fire Plan.
    In addition to National Fire Plan rehabilitation work, emergency 
stabilization teams have surveyed 27 large fires on 209,000 acres of 
National Forest System land; 60,000 acres of which are classified as 
severely burned. So far this year, the Forest Service has allocated $6 
million for emergency stabilization on these burns. Treatments include 
grass seeding on 20,000 acres.
    The Forest Service recently signed a five-year agreement with 
American Forests, a national nonprofit conservation organization, 
entitled ``Add a Dollar to Plant a Tree for Wildfire Releaf.'' This 
cooperative effort and expenditure of approximately $4 million dollars 
will expand our tree planting activities all over the country on 
private and National Forest lands, and will help to provide important 
information to the American people about wildfire restoration.
Hazardous Fuel Reduction
    We are investing to reduce fire risk in communities, municipal 
watersheds, and other areas where conditions favor uncharacteristically 
intense fires. As of September 15th'', treatment projects have been 
completed on more than 1,000,000 acres. About 80% of these acres were 
treated with prescribed fire. The remaining 20% were treated either 
mechanically or by hand labor. Estimates of accomplishments projected 
through the end of the year continue to vary due to unseasonably dry 
conditions in many regions. In Florida, the state with the largest 
program, a third year of drought cancelled most planned prescribed 
burning activities. A lower than normal snow pack in the interior West 
also left much of that part of the country at high fire danger earlier 
in the season than normal. Currently, national program managers 
anticipate that actual hazardous fuels accomplishment will be less than 
the 1.8 million acres target.
    The most important aspect of hazardous fuels reduction is reducing 
the threat to local communities. When it comes to reducing threat, we 
need to protect communities and help the communities to help themselves 
through changing the landscape from high risk to low risk. We will 
accomplish that by working closely with communities concentrating on 
major projects that reduce risk.
    On the Sandia Ranger District of the Cibola National Forest in New 
Mexico, 2\1/2\ miles of wildland-urban interface boundary with 
subdivisions were treated for fuels reduction and the construction of a 
fuelbreak. This fuels reduction project in the Cienega Canyon and 
Armijo Canyon were treated by prescribed fire, and are adjacent to the 
Sandia Park subdivision and Ponderosa Pine Estates. The burning will 
help decrease the accumulation of vegetation to minimize the risk of a 
catastrophic wildfire in the neighboring communities. Other benefits to 
this project include improved forest health and wildlife habitat.
    In certain areas, the Forest Service has used the ``Wyden 
Amendment'' (Watershed Restoration and Enhancement Agreements 
authorized in section 323 of P.L. 105-277) to enter into cooperative 
agreements to use Federal funds on non-Federal land when a project 
benefits the greater watershed. Under this authority, the Agency is 
allowed to protect watersheds that consist of lands under multiple 
ownership, including lands in the wildland-urban interface. In addition 
to the value of work performed, significantly enhanced relationships 
have occurred through these partnerships.
    Our work on the ground this year is based on planning done in 
previous years when there was less emphasis on mechanical treatment and 
increased hand treatment in the wildland-urban interface. Planning 
underway this year and in the future reflects our emphasis on the 
interface and ecosystem restoration. There will be increased costs for 
treatment in the wildland-urban interface.
    The Forest Service, U.S. Fish and Wildlife Service and National 
Marine Fisheries Service are working together at national, regional and 
local levels to accomplish consultation under the Endangered Species 
Act of 1973, thanks to swift Congressional action to clarify the 
Department of Agriculture's authorities.
    Our scientists are conducting research in ranking areas for fuel 
reduction efforts, determining impacts of these treatments on wildlife, 
fish and riparian areas, and developing new uses and systems for 
harvesting forest undergrowth and small diameter trees. Through the 
National Fire Plan, 24 research projects in support of hazardous fuels 
reduction are funded in 2001.
Community Assistance
    We are just completing a successful interagency effort with the 
States and tribes to better define the communities in the wildland 
urban interface across the United States. Using State Fire Assistance 
funds, we have helped states increase firefighting capability, and 
establish a significant new hazard mitigation program. Over 290 
mitigation projects have received grants in 2001, and over 128,000 
homeowners in the Western U.S. will receive benefits from treatments. 
The Cooperative Fire Program has also funded 10 national FIREWISE 
workshops; educating 870 community leaders from 450 communities in 41 
states about methods to increase protection for their communities. In 
New Mexico, every community that requested funding to complete a fire 
protection plan received funding from the Community Assistance Grants 
Program under the National Fire Plan.
    To date, Volunteer Fire Assistance funds in the amount of $13.2 
million dollars are being delivered through grants to rural Volunteer 
Fire Departments providing training and equipment for small fire 
departments that are often the first line of defense in the interface. 
The Economic Action Programs are in the final stages of awarding grants 
for biomass energy systems, small diameter market development, and 
community economic development and fire planning.
    Other examples of Community Assistance funding include:
    1. The Oregon Department of Forestry is using State Fire Assistance 
grant funds to provide rebates to landowners who implement FIREWISE 
concepts on their property and to their homes.
    2. The Idaho Department of Lands (IDL) is working on seven 
hazardous fuel reduction projects across the State with grant funds 
received through the National Fire Plan. To date, IDL has awarded over 
$180,000 in cost-share grants to rural fire departments in Idaho to 
help them acquire equipment and training.
    3. Many Southern states have joined together to use National Fire 
Plan grant dollars to fund an extensive assessment to evaluate the 
areas of the states that have the highest wildfire risk combined with 
the value of homes and improved property. The project will fund GIS 
mapping to display the most at-risk communities. The assessment will 
serve as a tool for growth planning, the determination of fire resource 
allocations, and as an important source of information for community 
leaders and the public.
    4. The Concerned Resource Environmental Workers (C.R.E.W.) received 
a $161,000 National Fire plan grant to construct approximately 25 miles 
of fire breaks throughout the foothills of Ojai, CA, over eighteen 
months. C.R.E.W. will contribute $49,000 to the project as part of the 
grant cost-sharing agreements with the Forest Service. At-risk youth 
and other kids will be the workers on the project to protect the 
community. As many as 45 youths are planned to be employed through this 
project.
Accountability
    Oversight, coordination, program development and monitoring for 
performance are critical for the National Fire Plan. We are conducting 
a series of regional reviews to assess progress. We are committed to 
demonstrating sound accountability for the funds provided by Congress 
in support of the National Fire Plan. We have implemented a new 
financial management system that better tracks federal funding and 
expenditures. We are currently developing new budget planning models 
and performance standards with the Department of the Interior. We 
continue to use existing and new information systems to track program 
performance and by December 31, 2001, we will have an Annual Status 
Report on our accomplishments, as mandated by Congress. The agency is 
using a new system to pilot an automated accomplishment reporting 
system for fuels, rehabilitation and restoration, and community 
assistance functions. Reporting under this system is enabling prompt 
assessment of output accomplishments. If deemed successful, this 
reporting system will be expanded for agency-wide use as early as 
fiscal year 2003. The output measures reported under the National Fire 
Plan are a key aspect of the broader agency performance measure 
accomplishment now being incorporated in the Annual Performance 
Planning process.
    The Forest Service, Department of the Interior, and the National 
Association of State Foresters have jointly established an interagency 
website for the National Fire Plan where people can find out more about 
National Fire Plan Implementation and ways they can participate in 
making their homes safer from wildfire. Additionally the Forest Service 
and the Department of the Interior have cooperated in development of 
the Action and Financial Plans required by Congress. We will continue 
such cooperative efforts in preparation of the fiscal year 2003 program 
that will improve the consistency of information.
                                summary
    Mr. Chairman, we have accomplished a lot in a short time. While we 
continue with our best efforts to protect communities and forestlands 
from the effects of unwanted fire, we will focus our attention on 
treating the hazardous buildup of vegetation that fuels these fires. 
The National Fire Plan is the beginning of the solution. We are hiring 
and training personnel to improve future fire management capabilities. 
We are stabilizing and rehabilitating many of the sites damaged during 
the fires in 2000, and looking at the work to be done in response to 
the 2001 fire season. The reduction of hazardous fuels reflects an 
expanded scale of action and extensive planning is underway for 2002 
and 2003. We have come a long way and we recognize there are many areas 
in which we can improve. In cooperation with the States, the list of 
communities at risk has been revised, and will be an important tool to 
plan future projects. My staff and I will continue to work closely with 
the Department of the Interior team, State Foresters, communities, and 
the Congress to restore and maintain healthy ecosystems and to minimize 
the losses from future wildfires.
    This concludes my statement; I would be happy to answer any 
questions you or Members of the Subcommittee might have.

    Senator Wyden. Good. Thank you very much.
    Mr. Hartzell, if you have some comments we will welcome 
them, but the chairman of the full committee is here, Senator 
Bingaman, and I want to recognize him if he would like to make 
any statement.

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    The Chairman. Well, thank you very much. Congratulations on 
having this hearing. I think this is a very important issue. I 
know it is in my State, and you and Senator Craig have worked 
hard and long on this set of issues, and I am glad to hear of 
some of the successes.
    I do have a concern in my State that we still hear some 
complaints that not a large enough proportion is going to this 
fire threat that communities face, and that is something that I 
hope we can examine. Also, I am concerned about the funding 
level, quite frankly. For example, rehabilitation and 
restoration of land that has been burned, my understanding is 
that the funding levels in the appropriations bills and funding 
levels that were requested by the administration are 
substantially below what they were last year. That concerns me.
    I appreciate these witnesses. I know we also have Mr. 
DeIaco from New Mexico, from Ruidoso. He is the forester from 
the Village of Ruidoso, and I am very pleased that he is here 
with us today. Thank you.
    Senator Wyden. Thank you, Mr. Chairman.
    Mr. Hartzell, would you like to speak at this point.

 STATEMENT OF TIM HARTZELL, DIRECTOR, OFFICE OF WILDLAND FIRE 
            COORDINATION, DEPARTMENT OF THE INTERIOR

    Mr. Hartzell. Thank you, Mr. Chairman, members of the 
subcommittee. I will keep my remarks brief. You have got my 
written testimony and Lyle has adequately set the stage about 
how we have been working together.
    I will make some comments about the five areas of the 
national fire plan. First, I want to talk about fire-fighting 
readiness and the additional capability that Congress provided 
us. With that money, we have hired an additional 1,900 fire-
fighters in the Department of the Interior. Fully 1,500 of 
those fire-fighters are frontline fire-fighters, and that has 
made a difference this year. You know, we cannot take credit 
for all of our success this year. We were fortunate in having 
the cooperation of the weather, but nevertheless, those 
firefighters made a difference. They fought hard, they fought 
persistently, and we clearly made a difference this year out on 
the ground.
    Also, I wanted to let the subcommittee know that we have, 
in fact, placed orders for all of the 110 pieces of new 
equipment, and we did, in fact, contract for all of the 
additional aircraft to help us fight fires this summer.
    Quickly returning to rehabilitation and restoration, we had 
a commitment to provide emergency stabilization or restoration 
on 1.4 million acres of Department of the Interior lands that 
were severly damaged by wildland fires in fiscal year 2000. We 
have accomplished 1.2 million acres of that. The remainder of 
the projects are multiyear projects. They will carry over into 
next year, and they will be completed.
    Before I leave rehab, I would like the subcommittee to know 
that we have a Forest Service-Department of the Interior team 
that has put together a strategy or a plan as to how to meet 
the need to provide additional native plant materials for 
restoration and stabilization activities. We expect that report 
to be delivered to the Congress by the end of December of this 
year.
    Turning quickly to hazard fuels reduction, we had a 
commitment to treat 1.35 million acres of hazard fuels this 
year. We have currently completed 619,000 acres. We expect to 
have 700,000 acres completed at the end of this fiscal year, or 
the end of this month. That is fully 200,000 more acres than we 
treated last year. I would just like to address the shortfall. 
First, we will complete those remaining acres next year, but I 
think it is important for the subcommittee to know that our 
fuels treatment program was heavily dependent on prescribed 
fire, and 600,000 of those 700,000 acres that we could not get 
to fell in areas of severe drought, and we simply could not, in 
a safe manner, execute those plans.
    I also want you to be aware of how proud we are of our work 
with the wild and urban interface collaborative working groups. 
These are groups at the State and local level that we have 
worked with to develop fuels treatment projects in the vicinity 
of communities for next fiscal year, and for fiscal year 2003. 
This has made our fuels treatment program much, much stronger 
than it has been in the past.
    This fiscal year we have roughly 230 fuels treatment 
projects in the wildland-urban interface. As a result of our 
work with these collaborative stakeholder groups, in fiscal 
year 2002 we have identified 545 on-the-ground treatment 
projects, and in addition we have identified nearly 300 
projects that will be in the planning stage this year so that 
we get ahead of the power curve for treatment in 2003. We have 
a much stronger fuels treatment program now around at risk 
communities.
    The national fire plan called attention to providing 
additional support to communities to develop their capacities 
to do fuel treatment, to educate their citizens about fire-
proofing their homes and providing additional opportunities for 
small business. We received $10 million, as you know, in new 
appropriation for rural fire assistance to provide sorely 
needed training and equipment to small, rural fire departments 
throughout the country. We made a pledge that we could probably 
reach out and provide moneys to 850 of these rural fire 
departments. I am pleased to report to the subcommittee that as 
of the end of August we had provided agreements to over 1,400 
rural fire departments, and we are very proud of this.
    In addition, we have increased our level of contracting. We 
have issued 375 contracts for fuels treatment and 
rehabilitation work, totalling more than $18 million. In 
addition, we have provided over 100,638 grants to tribes for 
$13 million worth of fuels and restoration work.
    And finally, we have provided over $17 million in community 
assistance grants to communities and counties to support a 
variety of locally led fuels treatment and fuels education 
programs.
    Lastly, Lyle talked about accountability. We are truly 
passionate about this issue, and I would like to share a few 
things with you. Lyle mentioned the wildland fire leadership 
charter. I am not going to dwell on that, but I want to talk 
about a couple of other things that are going to help assure we 
use this money wisely.
    No. 1, the Department of the Interior is implementing an 
automated national fire plan tracking data base. We are using 
the same software and data structure that the Forest Service 
has utilized, and by the end of the year we hope to have an 
operational system that is compatible with the Forest Service.
    We have also chartered an interdisciplinary group that is 
going to review the various models and assumptions that we 
currently use to calculate normal year readiness resources such 
as personnel and equipment. We are initiating a study to 
determine if our controls are sufficient for costs that are 
incurred in fighting large wildfires, and we have also 
chartered an Interior-Forest Service team to develop consistent 
format, process, and standards for developing fire management 
plans.
    Let me just close by quickly saying that the national fire 
plan is, indeed, a big effort. We are trying to fix a problem 
that has probably been 100 years in the making. There is no 
quick fix. Long-term commitment is going to be required. 
Collaboration and leveraging of funds is absolutely essential 
for our success, and the national fire plan frankly requires 
that we approach business in a different manner. It requires 
much closer cooperation with our tribal, State, and other 
Federal partners, and it places a great deal of emphasis on 
local insight and local solutions to local problems within a 
broader national framework.
    I hope you agree that we have demonstrated our commitment 
to these concepts and to the accomplishments that we promised 
in the national fire plan. We are clearly on the road to 
success. We appreciate your support to date. We look forward to 
your continued partnership.
    [The prepared statement of Mr. Hartzell follows:]
 Prepared Statement of Tim Hartzell, Director, Office of Wildland Fire 
                Coordination, Department of the Interior
    Good afternoon, Mr. Chairman and members of the Committee.
                              introduction
    I appreciate the opportunity to address this committee concerning 
the effectiveness of the National Fire Plan in the 2001 fire season. My 
name is Tim Hartzell and I oversee the Office of Wildland Fire 
Coordination for the Department of the Interior. I am pleased to report 
that the Department of the Interior firefighting agencies have made 
significant progress in implementing the National Fire Plan, and that 
has made a noticeable difference in our ability to fight fires this 
season. We are proud of our accomplishments, but we recognize that we 
have more work to do to lessen the dangers to communities at risk, 
restore ecosystems and the natural role of fire, protect our critical 
natural resources, and most importantly, keep our firefighters and the 
public safe.
    I would like to begin by saying that for our firefighters and the 
public affected by wildland fire, safety always comes first. 
Firefighting is an inherently dangerous occupation, and we cannot 
mitigate every hazard. What we can do is recognize risk, manage it, and 
minimize it, whenever possible. When we fight fires in an area affected 
by endangered species, we are guided by policy that was clarified in 
1995 by the Fish and Wildlife Service--``firefighter safety comes first 
on every fire, every time.'' Secretary Norton fully supports this 
policy. In July, she stated, ``No timber, no structure, no piece of 
equipment is worth taking an unnecessary risk and jeopardizing safety. 
Eventually, they can all be replaced--human lives cannot,'' and in 
August she said, ``no emergency response is to be delayed or obstructed 
because of Endangered Species Act considerations.''
              accomplishments under the national fire plan
    The National Fire Plan directs the Departments of Agriculture and 
the Interior to carry out the following activities:

  <bullet> Continue to make all necessary firefighting resources 
        available
  <bullet> Restore landscapes and rebuild communities
  <bullet> Invest in projects to reduce fire risk
  <bullet> Work directly with communities
  <bullet> Be accountable

    It is premature to give you final statistics on the fire season at 
this time, but we do have accomplishments to date on many key points of 
the National Fire Plan. As outlined by the following summary of 
accomplishments, we have made significant progress on all fronts.
    continue to make all necessary firefighting resources available
    Preparedness. Due to the additional resources provided by Congress 
in FY 2001, we are better prepared to fight fires this year than ever 
before. This funding increased our ability to hire additional 
firefighters and purchase necessary equipment. As a result, we are 
better able to respond to initial attack incidents efficiently, 
effectively and safely. Because of the time lag between ordering and 
delivery of much of the specialized firefighting equipment, it will 
take up to one year to realize the full potential from this funding 
increase.
    Hiring. The Department has made hiring a top priority. In April 
2001, Secretary Norton recorded firefighter recruitment public service 
announcements (PSAs), which were distributed to 5,000 radio stations 
nationwide. This markedly increased interest in our firefighter 
program. As of September 17, 2001, the Department has hired 
approximately 85 percent of a total of 8,103 fire personnel (6,865, 
with additional efforts ongoing). This number is approximately 1,900 
more than last year. Of this increase, approximately 1,400 are 
frontline firefighters.
    One important component of hiring was the conversion of a large 
number of positions from temporary to career status. This provides the 
Department with additional supervisory capabilities on large fires. The 
effort continues to be a work-in-progress and will not be completed 
until next year. When finished, it will significantly increase large 
fire suppression capabilities, and further improve our initial attack 
capabilities.
    National Fire Plan Human Resources Advisory Group. The Department 
has chartered a Resources Advisory Group of senior human resources and 
fire management professionals from each of the four management bureaus. 
The Forest Service has assigned representatives and will be 
coordinating activities with the Department. The Group is tasked with 
promoting collaborative recruitment and retention initiatives to assure 
success in meeting the goals of the National Fire Plan, including 
development of a detailed staffing plan for the 2002 fire season and a 
cohesive strategy for the long-term recruitment, development and 
retention of fire management and restoration personnel.
    Purchase of additional fire equipment and contracting for 
additional aircraft. Virtually all of an additional 110 pieces of 
equipment have either been purchased or ordered. All or most of the 
contracts for an additional 24 aircraft, including helicopters, single 
and multi-engine airtankers, large air transport, air attack and 
smokejumper (jumpships) aircraft have been processed.
    Re-evaluatinig normal year readiness. The Department and the Forest 
Service are reviewing the budget planning models used to calculate the 
level of normal year readiness resources, such as equipment and 
personnel, to conduct fire management operations. This review is being 
led by the Colorado State Forester, assisted by a team of Federal and 
State fire and resource management specialists and university 
scientists. This team will recommend the steps necessary to develop a 
single Federal fire budget model, the adjustments necessary to meet 
2001 Wildland Fire Policy and National Fire Plan direction, and the 
best mechanisms to implement the proposed changes.
    Agreements with Australia and New Zealand for firefighting support. 
The Departments of Agriculture and the Interior have signed agreements 
with three Australian states and with New Zealand to formalize the 
exchange of fire suppression assistance. Both Australia and New Zealand 
assisted the Departments last year during one of the worst fire seasons 
in 50 years. This could provide up to 200 additional supervisory 
firefighters as the fire season warrants.
Some examples of successes:
            Interagency training and experience proves invaluable on 
                    Green Knoll Fire
    Interagency training and experience, and additional resources 
provided by the National Fire Plan proved invaluable to fighting the 
Green Knoll Fire on the Bridger-Teton National Forest in late July, 
2001. With isolated homes and subdivisions threatened, Federal and 
county firefighters organized structural protection in a coordinated 
manner. Previously established agreements between Grand Teton National 
Park and the Bridger-Teton National Forest provided for critical public 
communication, which included community-based meetings, proactive media 
outreach, the Interagency Fire Information Center located in Jackson, 
and what came to be a nationally acclaimed website, www.tetonfires.com.
    The 4,470-acre Green Knoll Fire profoundly demonstrated the need 
for expanding partnerships among agencies charged with wildland fire 
management. As an integral part of the National Fire Plan, these 
partnerships often expand beyond the scope of basic emergency response. 
Although the recent financial boost from the National Fire Plan 
assisted fire personnel by providing necessary funds to meet the 
challenge of a drought-driven fire season, the success story associated 
with this high-profile fire stems from more than just additional funds. 
What worked was teamwork at all levels and clarity of roles and 
responsibilities. Professionalism, preparedness and leadership played a 
key role.
    Prior to the fire season, the Teton partnership provided for a 
three-day training session called ``All Fire Days'' that involved Grand 
Teton National Park, the Bridger-Teton National Forest, the National 
Elk Refuge, and the Jackson/Teton and Lincoln County Fire Departments. 
Firefighters drilled for three consecutive days, switching roles, 
cross-training with each other's equipment, learning new skills and 
getting to know each other. All agencies formed a working relationship 
with the State of Wyoming to complete fuels reduction projects for at-
risk forested communities. Park and forest programs fund a fuels 
management crew that mechanically reduces vegetation near developed 
areas. Additionally, both Federal agencies partner with the Wyoming 
Game and Fish Department and non-profit agencies to plan, fund and 
implement prescribed burns that benefit wildlife habitat and provide 
defensible space in wildland-urban interface communities.
           restore damaged landscapes and rebuild communities
    Burned Area Rehabilitation. The Department of the Interior targeted 
approximately 1.4 million acres that were severely damaged from last 
year's fires. We have completed in excess of 1.1 million acres of this 
rehabilitation work, and additional work is continuing. Much of this 
work involved multi-year projects, with immediate site stabilization 
followed by restoration of native vegetation. Successful restoration, 
especially on public rangelands devastated by the annual weeds and 
wildland-fire cycle, is critical to the long-term health of these 
ecosystems and an eventual return to a more natural fire regime and 
reduction of catastrophic blazes. The Department recently revised its 
Manual on Burned Area Emergency Stabilization and Rehabilitation. To 
implement the manual, a draft handbook was distributed for use during 
the 2001 fire season. After this fire season, it will be revised in 
light of what worked and what did not.
    Native Plant Materials Development Program. To protect areas 
severely damaged by wildfire and unlikely to recover naturally, an 
interagency team of employees from Departments of the Interior and 
Agriculture has been formed to develop a long-term strategy to supply 
native plant materials to meet this need. This team is developing a 
strategy to increase the supply of native seed, with the help of our 
non-Federal partners.
Some examples of successes:
            Emergency Fire Rehabilitation, Mesa Verde National Park
    The Bircher Fire burned 22,409 acres of public land in the fire 
season of 2000, including acres administered by National Park Service, 
Bureau of Land Management, and Ute Mountain Ute Reservation. The Pony 
Fire burned an additional 5300 acres on lands administered by the Ute 
Mountain Ute Reservation and National Park Service. An interagency 
burned area rehabilitation team prepared a rehabilitation plan to 
mitigate impacts on lands managed by all three entities. The plan 
recommended mitigation for endangered species habitat, repair of fence 
lines, repair of water filtration systems, replacement of burned 
structures, and an evaluation of fire damage and watershed threats to 
known cultural resources which date to as early as 500 AD and number 
well over 1500 sites.
    The National Park Service's Burned Area Rehabilitation 
Implementation Team is directing work for the Federal agencies and the 
Tribe. The team is working to document fire damage to cultural sites 
across agency boundaries, as well as providing emergency treatments to 
sites that have imminent damage from exposure or erosion. All of the 
stabilization and rehabilitation work has been contracted out to a 
Native American business which employs Native American field crews. 
Coordination and implementation of burned area rehabilitation (BAR) 
actions such as this across all boundaries is much easier and more 
efficient because all five bureaus (USDA FS, BLM, NPS, FWS, BIA) have 
agreed to common BAR policies and implementation procedures under the 
National Fire Plan.
            BLM Emergency Fire Rehabilitation of the Jackson Fire in 
                    Oregon
    The Jackson fire of July 2000, burned a total of 79,875 acres, 
including 49,516 acres of public lands between Vale, Ontario and 
Farewell Bend, Oregon in the Malheur Resource Area of the Vale District 
of BLM. BLM seeded approximately 22,000 acres in the burn area, 
approximately 12,000 acres with a native seed mix. Included within this 
total area was 300 acres of unfenced private land, a potential-seed 
source of invasive annual and weed species for adjacent public lands. 
This private acreage was seeded to prevent the spread of invasive 
species and weeds on adjacent public lands. Cooperative agreements were 
used to seed these private lands in order to protect public land 
resource values in accordance with the Wyden Amendment of the FY 1999 
Department of Interior and Related Agencies Appropriations Bill, 
(Public Law 105-277).
                 invest in projects to reduce fire risk
    Hazardous fuels treatments. For Fiscal Year 2001, the Department 
planned to treat hazardous fuels on an estimated 1.4 million acres. 
Much of this was to be accomplished through the use of prescribed fire. 
The Department will not achieve this acreage due to drought conditions 
in the Southeast, Pacific Northwest, Northern Great Basin, and Northern 
Rockies. As of September 17, 2001, we have treated 618,428 acres. 
Secretary Norton issued a memorandum to bureau directors in May, 2001 
to ensure that coordinated, efficient and effective fuels treatment 
occurs on all Interior lands. This memo established a fuels management 
team to provide guidance for fuels treatment project selection and to 
coordinate with the Forest Service and State agencies.
    Transfer of funds for environmental consultations. In addition to 
the allocation of project funds to appropriate field units, funds were 
transferred to the U.S. Fish and Wildlife Service (FWS) and National 
Marine Fisheries Service (NMFS) to hire personnel to facilitate 
threatened and endangered species consultations. The FWS and NMFS have 
added staff to accommodate the increased workload, and are working 
cooperatively with the land management bureaus to plan projects for 
FY02 and beyond. This will expedite FY 2002 and 2003 clearances for 
fuels treatment projects designed to reduce risks to communities and 
priority watersheds.

  <bullet> Wildland Urban Interface (WUI) interagency collaborative 
        working groups. The Department has worked with the Forest 
        Service, Tribes, the National Association of State Foresters, 
        the Western Governors' Association, and other State 
        organizations to establish locally led interagency teams that 
        will prioritize hazardous fuels treatment projects in the 
        wildland urban interface. Instructional memoranda have been 
        provided to these groups to help them select projects for 
        treatment. This process will guide implementation of the 
        national fuels reduction program in the WUI for FY 2002 and 
        provide a preliminary project list for FY 2003. As a result of 
        this collaborative stakeholders effort, the Department has 
        proposed approximately 700 on-the-ground WUI projects for FY 
        2002 and is beginning to move towards implementing them. A 
        majority of the proposed projects are located in the west, in 
        States such as Oregon, California, Idaho, Colorado, Washington, 
        Utah, Nevada, New Mexico, Montana, and Wyoming. However, 
        projects will be performed in other States with significant 
        hazardous fuels problems, such as Florida, Georgia, 
        Mississippi, and Tennessee. In addition to on-the-ground 
        projects, we will fund approximately 300 risk assessments and 
        subsequent project plans to enable communities to develop on-
        the-ground WUI projects for FY 2003 and FY 2004.
Some examples of successes:
            BIA fuels reduction project prevents fire from spreading
    The Round Valley Indian Tribe's fuels treatment project near 
Riverside, California, proved to be instrumental in stopping the recent 
Medicine Fire. The fire spread rapidly uphill consuming approximately 
70 acres until State and local firefighters stopped the blaze on the 
Perry Ridge Fuelbreak, recently constructed with funds provided by the 
National Fire Plan. Without the fuelbreak, the fire could have spread 
to over a thousand acres, consuming valuable timber and watershed 
resources, and threatening the Tribe's reservation and other nearby 
communities.
            BLM prescribed fire in Arizona restores watershed health
    In late June 2001, the BLM Phoenix Field Office improved watershed 
health by completing a 6,000 acre prescribed fire on the Agua Fria 
National Monument. The prescribed burn reduced fuels buildup, improved 
the quality of grasses for wildlife, and reduced the number of non-
native plant species. The Phoenix Field Office worked with the Tonto 
and Prescott National Forests, the Arizona State Land Department, Black 
Canyon City Fire Department, and the Arizona Department of 
Transportation to make this prescribed fire a success. During the 
prescribed fire, resource specialists and fire managers had the 
opportunity to interact with the public, explain the purpose of the 
prescribed burn, and provide daily updates. They discussed strategy, 
safety concerns, progress and potential benefits. Long-term monitoring 
of the area will provide resource specialists and fire managers with 
information to help with future prescribed burn planning.
            WUI fuels reduction program in Stehekin, Washington
    The National Park Service conducted a hazardous fuels reduction 
project around the community of Stehekin, Washington, located within 
the North Cascades National Park. Two fires, the Rex Creek Fire Complex 
(43,000 acres) and the Glory Mountain Fire (948 acres) burned this year 
within a few miles from Stehekin. The hazardous fuels reduction work 
made it easier to protect the community and focus personnel and 
equipment on stopping the wildfires. In one day alone, the Rex Creek 
Fire advanced nearly 9 miles. This extreme fire behavior captured the 
attention of community members, and strengthened their resolve to help 
the National Park Service move forward with its continued defensible 
space and forest fuel reduction programs.
            Spruce thinning project to protect Tanacross, Alaska from 
                    wildfire
    Thinning of spruce stands to reduce the threat from wildfire has 
begun around the village of Tanacross, 190 miles southeast of 
Fairbanks. The project is a cooperative effort by BLM, the Village of 
Tanacross, the Tanana Chiefs Conference, Alaska Division of Forestry, 
and U.S. Fish and Wildlife Service. The idea for the hazardous fuels 
project came from the village, which contacted the Tanana Chiefs 
Conference (TCC), and TCC arranged for the project with BLM. The 
project will leave a defensible space for fire suppression forces to 
protect the village if a wildfire occurs.
            WUI Projects Funded in Marin County, California
    Approximately $350,000 in Federal funds has been allocated for 
fourteen fire prevention and hazardous fuels reduction projects being 
performed this year in communities surrounding Point Reyes National 
Seashore and Golden Gate National Recreation Area in Marin County, 
California. Local fire agency project managers, working through Fire 
Safe Marin, a non-profit organization, and the National Park Service, 
are completing the hazardous fuels reduction projects and are hiring 
local contractors and youth conservation crews. Examples of projects 
are the City of Sausalito-Shaded Fuel Break, a seven mile interface 
between the City of Sausalito and Golden Gate NRA; the reduction of 
hazardous fuels between Inverness and Point Reyes National Seashore; 
and the hazardous fuel reduction project in Homestead Valley near 
Golden Gate NRA. The long-term goal of the community partnership is to 
develop a systematic and strategic approach to fuels reduction and fire 
prevention that is supported broadly by the public.
                  work directly with local communities
    Contracting with local businesses and organizations. In January 
2001, the Department of the Interior and the Forest Service developed 
policy guidance to implement a streamlined approach to awarding 
contracts to local businesses and organizations for hazardous fuels 
treatment projects and landscape restoration. This policy is being 
implemented on an interagency basis in each of the 11 Geographic Areas 
currently used for firefighting coordination across the country. In 
each Geographic Area, one of the Federal agencies has taken the lead 
for contracting. In some cases, the geographic area has been subdivided 
and agency leadership designated to facilitate work. The policy 
requires an organized approach for community outreach and coordination 
to locate and develop firms with which we can contract and assist 
communities developing local fuels reduction and restoration 
capability. As of September 2001, the Department has awarded 358 
contracts worth $18.6 million for National Fire Plan activities, 
including hazardous fuels treatments and rehabilitation and restoration 
work.
    Improving local fire protection capabilities through financial and 
technical assistance to State local, and volunteer firefighting 
efforts.
    Rural Fire Assistance. In 2001, Congress established a new $10 
million Rural Fire Assistance program. The Department developed policy 
to guide implementation of this pilot program. The program is providing 
rural fire departments with needed assistance in training, equipment 
purchase, and prevention activities to increase firefighter safety, 
enhance fire protection capabilities, enhance protection in the 
wildland urban interface, and increase the coordination among local, 
State, Tribal, and Federal firefighting resources. The Department 
estimated that approximately 820 of the 3,223 rural/volunteer fire 
departments adjacent to Interior lands and within the wildland urban 
interface would receive funds and benefit from the pilot program this 
fiscal year. As of August 30, 2001, 1,386 awards have been given to 
rural and volunteer fire departments, totaling approximately $7.5 
million. We expect to finish obligating all funds by the end of the 
fiscal year.
    Expanding outreach and education to homeowners and communities 
about fire prevention through use of programs such as FIREWISE.
    The FIREWISE program, developed by the National Wildfire 
Coordination Group in 1986, provides information to homeowners, county 
officials, building contractors, firefighters and others about 
practices that can lessen the risk of wildfires to communities. Through 
the National Fire Plan, $5,000,000 is targeted in FY 2001-03 for 
development and delivery of a series of national FIREWISE workshops. 
Participants at the State-level workshops might include representatives 
from the construction industry, homeowners associations, insurance 
industries, local governments, and rural fire departments. The 
workshops are presented as a ``Training-of-Trainers'' experience, with 
the expectation that participants will return to their host 
organizations or communities and, in turn, conduct similar workshops at 
the local level. The Secretaries of Agriculture and the Interior will 
soon record interagency public service announcements to increase 
awareness of the FIREWISE program.
Some examples of successes
            Hagerman Fire Department helps protect Fish and Wildlife 
                    Hatchery
    On September 7, 2001, a wildland fire burned around the Hagerman 
National Fish Hatchery, near Twin Falls, Idaho. Four houses were 
directly threatened by the rapidly spreading, winddriven fire. Fire 
engines from the Hagerman, Bliss, Bulh, and Wendell Rural Fire 
Departments (RFD) assisted with fire suppression efforts. The Hagerman 
and Bliss RFDs provided structure protection for the hatchery 
residences. This response was enhanced by equipment purchased this year 
as a result of a Rural Fire Assistance award given to the Hagerman RFD 
by the Fish and Wildlife Service.
            Interagency distribution of Rural Fire Assistance and 
                    Volunteer Fire Assistance funds
    The Oregon/Washington BLM Branch of Fire and Aviation Management, 
and the Forest Service Pacific Northwest Region, Directorate of Fire 
and Aviation Management, have been officially integrated at the State 
Office and Regional Office level since 1995. The National Fire Plan is 
implemented seamlessly between the two agencies. The interagency office 
works with all of its State, local and Federal partners in all aspects 
of fire management. BLM and the Forest Service were able to use this 
close working relationship to combine Rural Fire Assistance awards, and 
awards from the Forest Service's Volunteer Fire Assistance program. 
This provided RFDs with a ``one-stop shopping'' experience and allowed 
all involved agencies to conserve resources in reaching out to the 
RFDs. In some cases, a very modest award made all the difference to a 
struggling RFD. One small RFD had two old wildland fire engines with 
tires so worn, they were not sure they could safely make it to a fire. 
They asked simply for enough money for 10 new tires. Another small RFD 
needed a new tank for its wildland fire engine--their existing tank was 
so rusted it could no longer hold a weld, and could not be repaired. 
The agencies' grant money allowed the RFD to install a new tank on 
their old truck.
            The Hulls Gulch Environmental Education/Wildland-Urban 
                    Interface Project, Boise, Idaho
    After the severe fire season of 2000, the McCord site, a 20-acre 
property acquired by the City of Boise, was used to develop a public 
model home that emphasized wildland fuels management, fire ecology, and 
firesafe building and property protection in a wildland fire 
environment. BLM's Idaho State Office, the City of Boise, Ada County, 
Ridge to Rivers Council, Boise Parks and Recreation and the Treasure 
Valley Fire Prevention Co-op are working together on this project to 
provide funds, expertise, and labor. When completed, the facility will 
provide indoor and outdoor classroom and meeting space to educate 
audiences ranging from school children to neighborhood associations and 
other community groups. The project provides an excellent chance to 
create interagency, community, and business partnerships. The location 
of this project is important--in August 1996, more than 15,000 acres 
across the Boise Front burned. Hundreds of homes in the wildland-urban 
interface were threatened including an inholding surrounded by Boise 
City's Hulls Gulch Preserve. The project is expected to be completed 
sometime in 2003.
            Increasing employment and contracting opportunities in 
                    Idaho
    The Department, the Forest Service, and the State of Idaho are 
working together to increase opportunities for local contracting and 
recruiting in support of the National Fire Plan, particularly for 
unemployed natural resource workers, including ranchers, farmers, 
loggers, and forest product workers. A joint memorandum has been signed 
among all parties to formalize this arrangement.
            Increasing employment and contracting opportunities in 
                    Oregon
    The BLM Klamath Falls Office, OR, has started a 3,000 acre wildland 
urban interface fuels reduction project that includes tree thinning, 
brush removal, and slash piling in and around Bly Mountain. The project 
is providing temporary jobs for up to 80 displaced farm workers in the 
drought-devastated Klamath Basin. The BLM has hired four contractors 
who have begun recruiting workers in the local area. The Oregon 
Department of Forestry and local elected officials are assisting the 
BLM in planning, support, and community relations.
                             be accountable
    Interagency coordination. The Departments of Agriculture and the 
Interior are in the process of formalizing a charter to establish an 
Interagency Wildland Fire Leadership Forum, which will provide 
executive oversight and ensure policy coordination, accountability, and 
effective implementation of the National Wildland Fire Policy, the 
National Fire Plan, and the 10-Year Comprehensive Strategy. These 
efforts will be accomplished through developing common interagency 
performance measures, common data elements and common reporting 
systems. The Forum will ensure coordinated and consistent direction, 
oversight and monitoring of performance.
    Monitoring of implementation. The Department is monitoring fire, 
management programs. The pilot Rural Fire Assistance program will be 
evaluated at the end of this fiscal year to determine operational 
issues, administration and consistent collaboration with stakeholders. 
Both the Forest Service and the Department will assess the extent to 
which wildland fire agencies have collaborated to implement the 
contracting and agreement authorities in Title IV of the FY 2001 
Department of the Interior and Related Agencies Appropriations Act in a 
seamless fashion. The Council on Environmental Quality has made several 
site visits to determine how the environmental review process occurs 
(NEPA/ESA consultation) on hazardous fuels treatment projects. The 
lessons learned from all of these evaluations will be widely shared 
within the agencies. In addition, we have taken other steps to be more 
accountable:
Some examples successes:
            10-Year Comprehensive Strategy
    Developed by the Department and the Forest Service in partnership 
with the Western Governors' Association (WGA), this strategy is a 
template for how the Departments of Agriculture and the Interior will 
collaborate at the National, State, and local level to implement the 
National Fire Plan. The Secretaries of Agriculture and the Interior 
formalized the 10-Year Comprehensive Strategy on August 13, 2001 at the 
WGA annual meeting in Coeur d'Alene, Idaho. There are four goals of the 
10-Year Strategy: to improve prevention and suppression; reduce 
hazardous fuels; restore fire adapted ecosystems; and promote community 
assistance. Each of the goals include a set of guiding principles for 
successful implementation and a set of action items. The Strategy 
recognizes that key decisions in developing fuels management and 
ecosystem restoration projects should be made at the local level. The 
Strategy identifies a set of core principles that provide common 
direction for meeting the goals of the Strategy. These core principles 
are collaboration at all levels, immediate protection of communities 
and high priority watersheds with long term emphasis on maintaining and 
restoring ecosystems on a landscape scale, and establishing uniform 
measures, standards, and reporting processes.
    An implementation plan will be developed by May, 2002 to provide 
consistent and standard direction to implement the common purposes 
articulated in the Strategy and the National Fire Plan. The 
implementation plan will include consistent national performance goals 
and measures, priorities, tracking and reporting processes and 
operational ways of doing business.
    Development of a National Fire Plan Data Reporting System. A 
contract was awarded for development of an automated database to 
collect data in order to track progress in meeting the goals set out in 
the National Fire Plan, related documents, and associated performance 
measures. The target is to have a pilot system operational and capable 
of reporting by the end of this calendar year. We have coordinated this 
effort with the Forest Service, and are using the same software and 
data structure that the Forest Service uses in their data reporting 
system. The two systems will be compatible, and the intent is that we 
will be able to produce joint reports on National Fire Plan 
accomplishments.
            National Academy of Public Administration (NAPA) Report
    The Department has commissioned a report by NAPA, which will 
concentrate on six areas from the 2001 Review and Update of the 1995 
Federal Wildland Fire Management Policy:

  <bullet> Management accountability
  <bullet> Interagency coordination
  <bullet> Intergovernmental coordination
  <bullet> Improving risk management
  <bullet> Workforce management
  <bullet> Institutionalizing lessons learned

    NAPA expects to complete the report by mid-December, 2001. Results 
of this study, along with internal reviews, will be used to review 
oversight and coordination mechanisms of the National Fire Plan and to 
assure that an effective strategy is in place to institutionalize the 
2001 Federal Wildland Fire Policy.
            Joint Department and Forest Service Cohesive Strategy
    The Department is working with the Forest Service to develop one 
cohesive strategy to provide both agencies with a framework for 
reducing the risk and consequences of unwanted wildland fire by 
protecting, maintaining, and restoring land health and desired fire 
cycles.
    Interagency National Fire Plan website. The Department the Forest 
Service, with feedback from the National Association of State 
Foresters, developed a joint National Fire Plan interagency website 
(www.fireplan.gov). The goals for the website are to:

  <bullet> Provide an interagency information clearing house
  <bullet> Provide one place for the public to get information on a 
        variety of topics
  <bullet> Provide mechanisms for public involvement in implementing 
        the National Fire Plan
  <bullet> Demonstrate that Federal and State wildland fire agencies 
        are taking a cohesive and carefully planned approach to 
        implementing the 2001 appropriation
                               conclusion
    I appreciate the opportunity to testify at this hearing. We believe 
that we have made good progress in reversing the trend of deteriorating 
health for our forest and rangeland ecosystems. We view the National 
Fire Plan as an investment that will help protect communities and 
natural resources, and most importantly, the lives of firefighters and 
the public.
    The Department has made real gains in working with all of its 
partners to implement the National Fire Plan, but it has required a 
shift in the way we have traditionally conducted business, and a shift 
in the way we implement nearly every fire management program. Just as 
we need time to acquire all the new, specialized fire equipment, we 
will need time to continue to make fire management seamless across the 
Federal, Tribal, State and local agencies, so that we may better 
protect lives and resources, and restore ecosystems to a functioning 
condition. We are encouraged by the signs that the National Fire Plan 
has made a tangible improvement in the fire management program this 
year, and look forward to your continued support as we continue to 
implement the National Fire Plan.
    Thank you, again. I will be happy to answer any questions from the 
committee.

    Senator Wyden. Gentlemen, thank you, and Senator Cantwell 
has joined us. She has been out on the ground in rural 
Washington listening to folks, and we are very pleased that she 
is with us, and Senator, if you would like to make any opening 
comments before we go to questions, you are certainly welcome.

        STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR 
                        FROM WASHINGTON

    Senator Cantwell. Well, thank you, Mr. Chairman. I think I 
will submit a longer statement for the record, but thank you 
for giving me this opportunity. I obviously have read quickly 
some of the testimony that has been made thus far, both as it 
relates to interagency training and experiences that were done 
at the Green Knoll fire, and, obviously, the fuels reduction 
program in Stahican, Washington, so thank you for including 
that in the information.
    Obviously, I was very pleased to see the efforts this 
summer come together on the focus of the national fire plan and 
how we need to give more attention to it. Obviously, we have 
been devastated in Central Washington with the deaths of 
several young firefighters, and we are awaiting tomorrow the 
actual results of what has been an internal report on the 30-
mile fire, so I am hoping that with the results of that 
investigation in hand we can come back and address the 
specifics of what improvements need to be made in the system.
    I am assuming that information is not being released today, 
and is not something that is available to us, but, nonetheless, 
we need to address this issue in the context of the national 
fire plan, and I appreciate the opportunity to ask questions as 
we get back to that process, Mr. Chairman.
    [The prepared statement of Senator Cantwell follows:]
Prepared Statement of Hon. Maria Cantwell, U.S. Senator From Washington
    Thank you, Chairman Wyden, for holding this oversight hearing on 
the National Fire Plan. The issue of how to ensure that our 
firefighters have sufficient resources to fight catastrophic wildfires, 
as well as efforts to reduce the risk and rehabilitate areas damaged by 
these fires are of particular importance to those of us from the West, 
where we have seen tremendous devastation over the past two summers.
    The National Fire Plan was cobbled together in response to the 
prevalent wildfires of 2000, when almost 7 million acres of Western 
lands went up in flames. Despite severe drought conditions throughout 
the West this summer, fewer acres--about 3 million--have burned. For 
those of us from Washington state, however, the toll has--in human 
terms--been far more devastating. Four young Central Washington 
firefighters lost their lives July 10, fighting a blaze in the 
Wenatchee National Forest. I would again like to extend my deepest 
sympathies to the families of those four brave young men and women, who 
gave their lives to protect their neighbors in the Thirty Mile Fire.
    It is thus with heavy hearts that we from Washington await the 
Forest Service's release tomorrow of the results of its Thirty Mile 
Fire investigation, as well as another report on the incident from the 
Occupational Safety and Health Administration (OSHA), due later this 
fall. I believe the lessons that can be learned from this tragedy 
deserve the Subcommittee's attention, and I look forward to working 
with you, Chairman Wyden, on a separate hearing on the Thirty Mile 
Fire, the Forest Service's report and recommendations.
    Without the results of this investigation in hand, we cannot today 
address the specific circumstances that led those four young men and 
women to lose their lives in Okanogan County, Washington. However, I am 
committed to working with the Forest Service, Department of Interior 
and this Committee to ensure that when we send our young firefighters 
into harm's way, they are equipped with all of the resources and 
training necessary to make their jobs as safe as possible. It is 
unfortunate indeed that the Thirty Mile Fire is not the only incident 
of its kind to have occurred in the last decade. I understand that 
certain similarities may exist between this tragedy, and the Storm King 
Fire that took the lives of 14 in Colorado in 1994. I believe it is the 
job of this Committee to assess how the federal agencies' practices 
have changed in response to that fire, how policy changes designed to 
protect firefighters and communities are being implemented under the 
National Fire Plan, and what further safeguards or resources may be 
needed.
    In addition to making certain our firefighters are well equipped in 
the face of raging wildfires, how the Forest Service implements its 
policies for the reduction of hazardous fuels in high-risk, fire prone 
areas is another topic of paramount importance for this Subcommittee. I 
look forward to learning precisely how the Forest Service prioritizes 
areas it will address in implementing its hazardous fuel reduction 
strategy--whether through predictive modeling techniques or otherwise--
and how the agency is complying with Congressional direction that it 
target Wildlife/Urban Interface Zones for treatment. This is 
particularly true given that Washington state had, as of August 8, more 
than 185 at risk communities--including towns as diverse as Olympia, 
Pasco, Port Angeles, and Walla Walla. I am curious as to what kind of 
progress Interior and the Forest Service have made on their respective 
goals of treating 300,000 and 500,000 acres of land within these zones 
nation-wide during 2001.
    As for how to go about this hazardous fuel reduction, I believe 
that the techniques the Forest Service employs in choosing which 
treatment methods it will use to prevent fires--whether prescribed 
burning, thinning, or a combination of both--is crucial in determining 
the effort's success. One of the most important factors in determining 
these measures' effectiveness appears to be the type of forest under 
treatment. What works for the West's dry, Ponderosa Pines, which occur 
at low elevations, may in fact be either ineffective or harmful for our 
wetter forests that exist at higher elevations. I am convinced that it 
is through a combination of treatment methods--tailored to specific 
forest types--that we are likely to be most successful at preventing 
catastrophic wildfires. I thus believe it's critical that federal 
agencies have at their disposal diagnostic tools to classify these land 
types, sound policies for selecting treatment methods and techniques 
for assessing these measures' effectiveness.
    Again, thank you Chairman Wyden for holding this hearing on a topic 
of such critical importance to Washington state communities, some of 
which have sustained tremendous losses--in both financial and human 
terms--from the wildfires that have swept my state for the past two 
summers. I look forward to working with you and other members of this 
Committee on crafting fire policies that will protect our citizens, 
communities, firefighters and public lands, and I look forward to the 
testimony of our witnesses here today.

    Senator Wyden. We will work very closely with you, Senator 
Cantwell, and especially as we get that report. Given that 
tragedy, it is especially important that we move quickly, and 
we will work with you to do it.
    Gentlemen, let me begin by asking some questions about the 
budget. Both of your agencies have repeatedly stated that last 
year's funding levels for the national fire plan need to be 
sustained for at least 15 years. Nevertheless, the President's 
budget request significantly reduces funding for several 
components of the national fire plan.
    For example, one area that has concerned me is the 
President's request would essentially eliminate rehabilitation 
and restoration funding for burned-over areas. It obviously 
takes years to replant and care for native vegetation following 
fires, and funding for immediate stabilization is needed 
following more recent fires. Isn't some money needed for 
rehabilitation and restoration funding?
    Mr. Laverty.
    Mr. Laverty. Mr. Chairman, the answer is certainly yes, and 
as the budget was put together I believe that part of the 
thought that went into that was that those funds that were 
available in 2001 were for the treatment of the 2000 burned 
acres, so there was probably some discussion or some thought 
process, I guess, if I could understand it, that felt that that 
had been taken care of and we were now moving into an area that 
we did not have any burned acres, so as we look at the work 
that still needs to be done, I think the House has recognized 
that there is some level of funding in that, the refunding and 
restoration that we do, in fact, need for 2002 to complete some 
of the burned area work for 2000.
    Senator Wyden. Last year, Congress appropriated $34 million 
for the Forest Service community and private land fire 
assistance program. The President's budget request zeroed this 
out for next year. These funds, of course, are targeted to 
communities to help them rebuild from past fires and obviously 
to prevent new ones.
    Last year, the communities were so interested in the 
program that they submitted requests for assistance that were 
wildly in excess of available funding. My question is, why 
would you all zero out a program of community assistance that 
is so very popular with folks on the ground at the local level?
    Mr. Laverty. I believe the thought or the logic behind that 
was that $34 million of those funds were to provide for the 
restoration of those severely burned areas of the communities 
that were impacted by the fires of 2000, and again, looking 
back, that those were for those acres and those impacts, so 
that is the only explanation I can provide for you.
    Senator Wyden. Well, listen, you all are getting your 
footing. I have spoken about it, Senator Bingaman has spoken 
about it. Suffice it to say, I have heard Senator Craig say 
things on these budget issues that reflect my concerns as well. 
We want to work with you on a bipartisan basis.
    The Congress gets a request from the President of the 
United States, and we have got to follow it up, but we need you 
all to more vigorously make the case in order to get these 
funds. You have got three westerners here who have really 
watched the ravages this summer, and we need you all out there 
making the case, rather than looking at these budgets that are 
zeroing out or underfunding dramatically some of the most 
important programs for the West.
    Tell me, if you would, how many jobs have been created in 
your judgment by the national fire plan thus far?
    Mr. Laverty. Tim and I have mentioned that we have done 
some hiring and recruiting just on the agency side. We have 
close to 4,000 or 5,000 firefighters that we have picked up. At 
this point in time, we cannot tell you how many people we have 
actually employed as a result of some of the contracting.
    Tim talked about some of the 300-plus contracts that 
Interior has let go. On the Forest Service side we have well 
over 500 contracts that result in about $54 million of work 
that is going out there. Our contracting folks right now are 
working on the assessment of trying to determine so we can 
actually report to you how many people have been employed as a 
result of those contracts, and I think we are going to have 
that information probably within the next several weeks or so.
    Senator Wyden. Okay, if you could get that to the 
subcommittee that would be very important.
    As part of that, we are particularly concerned about 
creating rural jobs. As you know, the Congress last year 
responded to the concerns that we are hearing all over the 
rural West, that you appropriate money, that funds go for these 
various programs, and somehow they do not get out there to 
local businesses, they do not relate to local employers and 
contracts.
    How, thus far, have you been using that change in the law 
to create more economic opportunities for folks in the rural 
West?
    Mr. Laverty. I think as we look at the list of contracts 
that we have awarded just on the Forest Service side, many of 
these contracts are awarded in these communities that would 
reflect that rural environment. I was just looking at Oregon 
and Washington, and every one of these are rural-based 
communities where these contracts have been awarded. Just in 
the Pacific Northwest, in those two States, there is well over 
$7 million, almost $7.5 million of contracting. It is Josephine 
County, Union County, well all of these basically rural 
counties where these funds have been actually targeted and 
awarded.
    Senator Wyden. Why don't you, in getting us the answer with 
respect to how many jobs have been created by the national fire 
plan, do a specific breakout for us with respect to how many 
jobs have been created in rural areas so that we can explain to 
our constituents--Senator Craig and Senator Cantwell--and when 
we fought for that local preference it really did translate to 
something that was important in rural counties.
    I am going to ask you some more questions in a few minutes, 
but I want to recognize my colleagues, and let us begin with 
Senator Craig.
    Senator Craig. Mr. Chairman, thank you. Tim, you talked 
about the number of acres you treated in BLM. You achieved a 
little more than 50 percent of your stated goal. You suggest 
that the inability to meet all of your goal was in part a 
weather-related drought situation. A couple of questions around 
the 700,000, or the 1.3 million acres of treatment, or proposed 
treatment. How many of these acres treated for fuel reduction 
were considered high risk forested lands?
    Mr. Hartzell. I do not have that answer for you, and I 
would have to get that.
    Senator Craig. Okay. I wanted that in the context of, let 
us say, overgrown juniper, which may not be high risk, but from 
the standpoint of land management is one big weed in some 
instances.
    Mr. Hartzell. Senator, you raise an interesting question. 
That is a vegetative community in the West that we need to 
treat. It is a high fire risk, though, as you know.
    Senator Craig. Oh, yes.
    Mr. Hartzell. Juniper used to formerly be clustered on the 
rocky ridges. It has moved down slope. It has taken over the 
productive range sites and removed forage for livestock. When 
you get a fire in these dense juniper stands it tends to be 
extremely severe, eliminates the sage brush, and we get a mono 
type of annual grass. So that is a very high risk area that we 
are concerned about targeting.
    Senator Craig. Well, in the context of those acres, and if 
you look at them in relation to what were considered high risk, 
while again you suggested it was primarily an environmental 
situation from the standpoint of weather and drought 
conditions, I would also like to examine how many of the 1.3 
might have been held up by regulation, by process, by appeal, 
by litigation. If we could examine the total of that, I think 
it would give us a better picture of understanding what you are 
able to do or may not be able to do based on those conditions.
    Mr. Hartzell. We have heard very little from our field 
offices in terms of the number of projects that have been held 
up by process. Undoubtedly, this is the case. It is always 
going to be the case in certain areas. It does not seem to be a 
limiting factor. I would say that the biggest challenge that we 
face is that three-fourths of our proposed treatments were or 
prescribed fire-only treatments. I think we understand the 
vagaries of weather and burning conditions and how that can 
influence your productivity.
    We need to have a more balanced program. We need to have a 
program that relies on a variety of treatments, particularly in 
these areas that are fire-prone, and prone to catastrophic 
fire. We simply need to be able to get into the forest. We need 
to be able to thin the underbrush. We need to be thinning 
timber stands so that we can reintroduce fire, or when wildfire 
comes in we do not destroy these sites.
    Senator Wyden. Lyle, let me follow a similar line of 
questioning with you. In the last 2 years, approximately 10 
million acres of land were lost to wildfire, billions of board 
feet of timber lost, and I guess we recognize the phenomenal 
loss of the valuable public resource. How much of that was 
salvaged, or plans to be salvaged, meets that criteria?
    Mr. Laverty. Senator, I do not have the numbers here. I can 
get it for you. We were talking about that just before we came 
up, trying to pull that information together. We did not have 
that here. We can get that for you.
    I do know that there are attempts at a number of the areas 
around the country to salvage where it is appropriate, based on 
those bare plans, some volume. I know in the Bitterroot they 
are working hard to move volume out of there. John Twiss on the 
Black Hills is working hard to salvage some of that volume that 
was burned last year.
    So across the country I know that we have efforts underway 
to capture where it is appropriate that kind of volume that can 
be salvaged. We will get you that specific information.
    Senator Craig. Because of the fuel loading that we know has 
gone on, and both the chairman and I have visited about that, 
this committee has looked at that as a relationship to forest 
health for a good number of years, many of these fires burn so 
intently that there is no opportunity for reburn, if you will, 
but in some instances there is, where there is not an effort to 
salvage and/or reshape that landscape in a way that brings back 
a more productive stand. Is there not a risk of reburning some 
of these areas?
    Mr. Laverty. I believe in some cases there actually is a 
risk, and one of the things that we are actually doing with 
some of the funds from the fire plan this year is investing in 
some research that can help us answer some of these questions 
from a science basis on what is the effect of science versus 
not-salvage, of removing some of that volume. We have looked at 
many of the areas up on the Bitterroot. We know that if we do 
not take some of that volume out, that is going to end up on 
the ground, and the net time the fire comes through we are 
going to have an added fuel base.
    We need to have good answers in terms of how science can 
help us do that, and we have got a good approach, I think, to 
help bring a good science base for those decisions.
    Senator Craig. In examining those acreage as it relates to 
how we manage burned areas, are you factoring in also a reality 
of weeds? You and I and the Forest Service, BLM and others have 
been focusing in on that. We have a new legislation passed last 
year that moved through this committee. We have a new 
initiative out there now to put some dollars and cents to it so 
that you can all become partners with States and local weed 
districts in managing these lands. I mean, we really have in 
the West 10 million acres of potentially high risk weed patch 
if we do not manage it well. How does that fit into the context 
of this current analysis?
    Mr. Laverty. The investment that the Congress has made in 
the national fire plan provided some incredible resource to 
deal with invasive procedures, I think almost $12 million just 
on the forest Service side just to deal with that. Those funds 
are going very, very long distance in terms of working with 
States, counties, and weed boards on how we can, in fact, be 
aggressive in dealing with this war on weeds in the West, and I 
am convinced that with these kinds of investments, not just a 
1-year, but working on long-term monitoring and aggressive 
action, that we can, in fact, make a difference, and again I 
hear testimonies from people across the country on how these 
investments with counties, county commissioners are talking 
about how this has made a difference, so these investments are 
working well.
    Mr. Hartzell. Senator, if I could, just to follow up on 
that issue, I mentioned that we have 1.4 million acres of 
severely damaged lands that we plan to treat. We figure that we 
probably have a weed problem on at least 600,000 of that 1.4 
million. What we are encouraged by is that the national fire 
plan increase for the rehab program for this year will enable 
us to pretreat those weeds, and then after we go in and try to 
restore native plants, follow up with a post weed treatment, so 
we are very encouraged.
    Senator Wyden. Gentlemen, let me ask you a question, and I 
appreciate my colleague letting me do it, because I think my 
colleague is asking about a point that needs to be clarified. 
This fighting the weeds is an extraordinarily important natural 
resources initiative in the West, and I want to make sure I 
understand it. Are you using fire plan money and county payment 
bill money?
    As you know, we are very proud around here of the county 
payments bill. You all called it the most important Forest 
Service initiative for 30 years. We are plenty proud of it, but 
I want to make sure I understand where this money is coming 
from. Is this county payments money, or national fire plan 
money, or possibly after October 1 this year it is going to be 
both, but why don't you explain to us where this money is 
coming from.
    Mr. Laverty. Mr. Chairman, the funds that I mentioned, the 
$12 million, those were national fire plan fund moneys that 
were targeted for invasive species, so any additional fund that 
the counties would elect to put into that really is----
    Senator Wyden. But thus far this is just fire plan money?
    Mr. Laverty. Fire plan funds, yes, sir.
    Senator Wyden. I thank my colleague.
    Senator Craig. Good question. Thank you.
    Lyle, you referred to cost per acre in fire suppression 
this year going as high as $1,000, $1,200 an acre on the 
average from 2000--well, on the average from 1993 through 2000. 
We looked at about $101 to $102 an acre, but the year 2000--let 
us see. Last year, I guess this year it has jumped to $337 an 
acre in the past fiscal year. Given the fact that your agency 
has a $200 million shortfall that will need to be covered for 
the fiscal 2001 fire season, can you tell us in part--you have 
talked about the urban interface and we have all recognized 
that, and the fire plan speaks to that.
    Certainly, from 1993 to 2001 a phenomenal number of 
America's trophy homes have been built in that urban interface. 
Is that the dominant cause of that increase, on the average, or 
are there other factors involved?
    Mr. Laverty. I believe there is a number of other factors.
    Senator Craig. Because that is a tripling of cost on the 
whole.
    Mr. Laverty. That is a tripling of cost, and part of--I 
have spent some time this morning trying to get a good answer 
for you in terms of what is going on. There are a number of 
factors. One of them is the fact that as we look at last year's 
cost, cost per acre, that was spread out over about 7, almost 8 
million acres. This year, the cost has spread over about 3 
million acres. We have added some additional aircraft as a 
result of the investment in the fire plan this year which has 
really increased significantly the suppression cost.
    Senator Craig. And they are expensed out in 1 year?
    Mr. Laverty. Yes. These are actual operations, suppression 
of cost, yes. These are the suppression of costs, so those 
factors, and as we talked about increase fuel for these 
aircraft the folks are telling me that is another factor that 
is increasing these costs.
    We are going to look hard--and I shared with Frank earlier 
that we are going to give you good analysis of that breakdown. 
It is a significant problem for us, because as you pointed out 
last year we had $425 million that the Congress provided in 
2001 for those contingency. $275 million of that went to 
restore the cost suppression deficit from the 2000 fire season, 
so that is one of the factors that is leading us now to coming 
back again to looking at how do we offset that loss.
    Senator Craig. One last question, Mr. Chairman, and prior 
to that question I will only make this passing comment. As 
these costs per acre go up to suppress fire it looks like 
forest health and fuel reduction and the opportunity to make 
some small amount of revenue off of that might be a rather more 
cost-effective way of approaching this, along with an 
environmentally positive approach, and out of it we might find 
some resource and some job base. I think we have to look at all 
of those.
    Lyle, a question of you. Tim, a question of you. Would you 
tell us, the committee, what are the three things that impede 
you now, or your agency's ability to treat the number of acres 
that are at risk in catastrophic fire? If you had a magic wand 
today, and I would say in the context of good forest practices, 
and environmentally sound forest practices, what would that 
magic wand produce for you? What would be the three items that 
it would produce that would ease your ability to gain access to 
those endangered acres?
    Mr. Laverty. Senator, I guess the first one, if I could be 
magic, I would create some additional resource specialists to 
get the projects planned. That is one of the ramp-ups that we 
are working on right now, is to get those people in place to do 
the planning so we can be effective in terms of bringing it on.
    The other part of it is having to train skills to actually 
do the prescribed burning and the treatments from the ground. 
We are going for almost a doubling of the program, so we are on 
a very aggressive ramp-up to get people in place, and I think 
probably the other part is for us to continue to look at how 
can we refine some of our planning methods and methodologies. 
We need to be able to be more streamlined in terms of using 
information, and I think as we continue to bring those pieces 
together, I think you are going to see our effectiveness 
increase significantly as it relates to treating fuels.
    Mr. Hartzell. My number 1 would be increased contracting 
capacity, both internally and externally. Internally we are 
ramping up, we are hiring people, we are approaching 
contracting in a more efficient manner, we are sharing 
contracting skills, we are allowing a bureau to take the 
leadership for contracting, and are giving the authority to 
order against that contract to other bureaus.
    So that is one issue, but it is going to take a while to 
increase that capacity, but the flip side of that is, there 
does not appear to be the contracting capabilities in many 
small communities throughout the West in particular. If I could 
wave a wand, I would have small businesses all over the West 
come to us and say, we are capable of removing material. We are 
capable of helping you reduce the fuels hazard and make the 
forest healthier.
    I think another barrier very clearly is the ability to use 
the biomass. We have got to figure out ways to connect forest 
health, the national fire plan, the national energy policy, in 
a way where we can in a rational manner use the material that 
we need to take off the hillside. We have simply got to figure 
out a way to do that.
    And lastly, we are just committed to figuring out more and 
more ways to work together in a more seamless, efficient 
manner.
    Senator Craig. Thank you. Thank you, Mr. Chairman.
    Senator Wyden. Before I recognize Senator Cantwell, I just 
want to tell you, Mr. Laverty, I think the answer you gave to 
Senator Craig's question when you could have had a wish list is 
very much along the lines of the philosophy that I think has 
got to be modern forestry in this century. That was not an 
answer that is going to divide people and polarize people. You 
basically said, look, I am going to need some resources in 
order to create healthy ecosystems. It is not a whole lot 
fancier than that, and we are going to have to work on the nuts 
and bolts to get it done, but if we can get those kinds of 
answers, you are going to give us a chance to change the debate 
about forestry for the long term, and that is very welcome.
    I am also pleased that my friend and colleague, Senator 
Smith is here. With my colleague's indulgence, I am going to 
recognize Senator Cantwell now, because she has been waiting, 
and then we will have Senator Smith for any opening statement 
and any questions if you would like.
    Senator Cantwell. Thank you, Mr. Chairman, and again, thank 
you for conducting this hearing, and it is good to see so many 
of my colleagues from the Northwest. It makes me ponder whether 
we should bring up some Northwest legislation through the 
National Parks Subcommittee, maybe BPA borrowing authority.
    Mr. Chairman, I would like if I could to ask Mr. Hartzell 
to dwell a little bit more on the hazardous fuels treatment 
section. In your testimony you talked about the 1.4 million 
acres and the fact that that was not achieved, and of concern 
to Washington State residents is this wildlife and urban 
interface zones, which cities like Pascoe, Walla Walla, Port 
Angeles, even Olympia face the threats of those, so what have 
we learned about prioritizing the various methods for treating 
hazardous fuels.
    Does this data base of acreage actually include 
prioritization based on various techniques, and do we have an 
estimate of how much of these acres that we have not been able 
to achieve are in these wildlife urban zone interfaces?
    Mr. Hartzell. I do not have the acreage with me. I know 
that we had roughly 300,000 acres of treatments proposed this 
fiscal year in the wildland urban interface, and we have 
treated roughly half of that, so we have met half of our 
commitment.
    Senator Cantwell. So you think 300,000 of the 1.4 you 
think?
    Mr. Hartzell. Of the 1.4, slightly in excess of 300,000 was 
within the wildland urban interface, that is correct, and we 
have treated roughly 150,000 of that 300,000, and what we are 
seeing as a result of our work with these collaborative local 
and State groups is a shift in emphasis of fuels treatment in 
the wildland urban interface to more of a mechanical treatment, 
either chain saws, or a combination of chain saws and 
mechanized equipment.
    I think that reflects a couple of issues. It reflects a 
conservative and appropriate approach around communities where 
fuel hazards are great, where the forest is thick and there is 
the potential for severe fire, to use mechanical means to do 
the treatment. It is a less risky, safer approach around these 
communities, and I think you will see our approach to treating 
fuels around communities reflect a greater reliance on 
mechanical means starting next fiscal year and in the immediate 
outyears.
    Senator Cantwell. So you are saying the 150,000 acres 
already designated, you think they will be done by mechanical?
    Mr. Hartzell. I think they still probably reflect a fairly 
high reliance on prescribed fire, and a combination of 
mechanical means. I think it is important that the subcommittee 
understand the dilemma we faced this fiscal year. We got the 
big national fire plan funding increase, and on the Interior 
side we had very few projects ready to go. So essentially the 
projects this fiscal year that we are funding we took off the 
shelf. I think you will see a different mix of types of 
treatments next fiscal year as we have had time to think about 
the appropriate approach and plan the best fuels treatment 
strategy.
    Senator Cantwell. What does this acreage represent? I mean, 
you think this represents a complete inventory of the wildlife 
urban interface, that we have to go back, we think this will 
triple--what is your assessment?
    Mr. Hartzell. No. The acreage that we will be treating in 
fiscal year 2002 is going to be substantially larger than we 
treated this year, and what that reflects is the collective 
wisdom of the State and local groups to document and determine 
where they had the greatest priorities and the greatest 
problems within their States.
    This year's program essentially reflects a fuels treatment 
scheme that, while it had some outside stakeholder input, by 
and large reflected the program that was designed by the 
Federal agencies. Starting next year you are going to see a 
program that was designed from the bottom up, local solutions, 
State solutions, States and locals identifying where the 
greatest threat is, where the greatest problem is to 
communities, in collaboration with us.
    That is why I say, you are going to see a program that in 
my opinion is probably a truer reflection of where the problems 
are and where the emphasis should be, and reflects a more 
balanced approach to treatment, rather than just dependence on 
prescribed fire.
    Senator Cantwell. That is why I am bringing this up, 
because obviously I think it is great news the level of 
coordination and consensus-building that is happening from the 
bottom up. Having the people at the other end, where the 
request is for dollars, I am curious as to what you think that 
that means as far as potential amount of acreage and what kind 
of dollar increase are we looking at, given the 2000 level?
    Mr. Hartzell. Well, we know a couple of things from our 
work with the States. Number 1, we asked the States to identify 
communities at risk. As a result of that effort, there were 
over 22,200 communities across this country that were 
identified by the States, at risk from some fuels or wildfire 
threat.
    Over 9,000 of those communities were in the vicinity of 
Federal lands administered by Department of Interior agencies 
and the Forest Service, and we know that only about 20 percent 
of those 9,000 communities have as of yet received any kind of 
fuels treatment to reduce the hazard or are receiving fuels 
treatment. So we know from that inventory that the problem is 
much greater and the demand is much greater than we have been 
able to meet.
    Senator Cantwell. So no prediction on what that level of 
money would be? Putting this into context, I mean, we have 
these communities, and we have been impacted both the 
communities, their economies, and the tragic loss of life, and 
what we are trying to explain to our colleagues, the consensus-
building that is happened here, and yet the fiscal side that 
will have to go hand-in-hand with this. Maybe my colleagues 
here do not need to hear that, or understand, although Senator 
Craig has articulated one concept to help finance an aspect of 
that, but I think not leaving the public with the assumption 
that there has been a lot of consensus-building, a lot of goals 
set, but here again the resources were not there and so these 
goals were not met. We want a fire plan that will actually mean 
something to the West.
    Mr. Hartzell. Two comments. One, we had far more projects 
than we had funding for. Our level of funding in the wildland 
urban interface in fiscal year 2002 was essentially level. But, 
we had more projects than we could treat, and because of this 
it is really important that we work in a collaborative fashion, 
because we have to prioritize. We have to simply pick and 
choose.
    Senator Cantwell. Thank you, and Mr. Chairman, I will look 
forward to working with you on that prioritization, and I will 
yield my time back.
    Senator Wyden. Those are good points. Senator Smith and I 
made these forestry initiatives a big part of our bipartisan 
agenda for Oregon, and we welcome you here today.
    Senator Smith. Thank you, Mr. Chairman. I would ask that my 
statement be included in the record.
    Senator Wyden. Without objection, so ordered.
    [The prepared statement of Senator Smith follows:]
   Prepared Statement of Hon. Gordon Smith, U.S. Senator From Oregon
    Thank you, Mr. Chairman, for holding today's hearing on the 
National Fire Plan. I am thankful that this Committee is continuing its 
vigilant oversight on the issues of wildfire control and forest health. 
I also want to thank all those who are here today to share their 
perspectives.
    Controlling wildfires is based on widespread public values that 
resound in our laws. We protect our forests because we value 
recreation, wildlife habitat, water supplies, air quality, and the 
natural resources upon which our country depends. The Multiple Use and 
Sustained Yield Act, the National Forest Management Act, the Federal 
Land Policy and Management Act, the Endangered Species Act (ESA), the 
National Environmental Policy Act (NEPA) and the Clean Water Act all 
reflect these values in one form or another. Unfortunately, nature's 
impulses do not always coincide with society's values.
    In 2000, more acres burned in this country than in any year for 
over a century. The 2001 fire season has also seen the loss of ten 
lives, including three employees of an Oregon-based company. Likewise, 
more funding was used to combat wildfires last year than in 1999, 1998 
and 1997 combined.
    As part of providing this additional funding, Congress directed the 
Interior and Agriculture Departments, in cooperation with States and 
local communities, to develop a plan to reduce the threat of 
catastrophic wildlfires, to improve our response to severe wildland 
fires, reduce their impacts on rural communities, and assure sufficient 
firefighting capacity in the future. I believe that Congress remains 
committed to our National Fire Plan, and to long-term restoration of 
our forests.
    On a personal note, I want to commend the Administration for its 
responsiveness to our forests' needs and to concerns regarding the 
implementation of the National Fire Plan. Yesterday, I met with 
Chairman Connaughton regarding a request I made that the CEQ oversee 
the coordination of inter-departmental issues related to the Fire Plan, 
such as NEPA compliance and the potential for energy generation from 
forest biomass. Chairman Connaughton assured me that restoring forest 
health is a priority for the Bush Administration, and I look forward to 
seeing many of the bureaucratic barriers to implementation of the Fire 
Plan eliminated.
    I also recognize that the Administration and Congress are not the 
only actors in achieving forest health goals. More than ever, the 
national forests need industry to achieve ecological goals. Likewise, 
economically distressed communities need a firm commitment from the 
federal government to the dual goals of rural and ecological 
sustainability. While the timber industry holds the technology and 
manpower to thin and treat our forests, the government holds the gate-
keys.
    Even with open gates, however, the cost of fuels treatment will 
require a new form of cooperation between the federal government, local 
communities, and the industry. County governments, under the county 
payments bill enacted last year, must use a portion of their funds for 
forest restoration projects.
    In addition, many forest products companies have already retooled 
their mills to process smaller diameter logs, purchased specialized 
equipment to selectively harvest smaller trees--from the ground and 
air--and surveyed the prospects of constructing biomass and co-
generation facilities. In a time when mills continue to close in my 
state, and timber offered on public lands is virtually non-existent, 
these actions have been taken in the hope that, at the very least, the 
government values living and sustainable forests and healthy riparian 
areas more than charred wood, burnt homes and scorched earth.
    Again Mr. Chairman, I appreciate the opportunity to review these 
issues of importance to our state and to the nation. I hope today will 
advance and strengthen a federal forest policy that provides for both 
healthy forests and healthy rural communities.

    Senator Smith. I will not read it, so as to not break up 
the flow of this hearing, but I think this hearing is so 
important, not just to our public assets but also to our 
private assets as well that border one another, and I think it 
is important to recognize what a win-win situation exists to 
help economically distressed rural communities, as well as to 
improve the environment. I cannot think of any good that comes 
to riparian areas from public lands or private lands consumed 
by forest fire, and so this is where we ought to come together 
and find all kinds of solutions that help people, and our 
wildlife as well.
    Mr. Chairman, I wonder if I could ask a couple of 
questions, one of which relates to the construction of biomass 
a cogeneration facilities that wish to use burned and salvaged 
materials. Have you had any meetings with the Bonneville Power 
Administration on such a thing?
    Mr. Laverty. I am not aware nationally that we have met 
with Bonneville Power. We did meet just 2 weeks ago Monday with 
the folks from Oak Ridge, with the interests that have the 
responsibility on the Department of Energy side for the renewal 
resource, and we really have some opportunities right now to 
move ahead with the elements in the philosophy of the national 
fire plan that capture some of this material.
    We are just in the process right now of using our forest 
inventory analysis information to bring together a West-wide 
assessment, actually a Nation-wide assessment to help us define 
what is, in fact, the standing inventory, what does it look 
like, so we can relate to the biomass industry.
    Here is the situation that exists on Federal lands as well 
as private lands, that this is the structure, this is the 
composition, and then begin to work, okay, what is then 
feasible to begin to move ahead.
    As part of the funding of the national fire plan, we did 
fund a number of projects that were related to biomass, 
bioenergy pilots. We got one in California, we have got one, I 
think, down in Arizona, New Mexico, and then one in South 
Dakota, so there are a number of things that are underway, but 
the important part of it is to bring that information so that 
people can make good, reasoned decisions about what is 
available and what can we, over time, sustain as it relates to 
biomass, bioenergy, more importantly getting that material off 
the ground.
    For us, all the Federal agencies, the State agencies as 
well, none of us want to see that material just burned up, so 
if we can put that into a positive energy stream, that is going 
to solve a lot of our problems for us, so this is a very rich 
opportunity.
    Senator Smith. Absolutely. Have you done any surveys of--I 
am thinking of the energy shortage we have had, and the concern 
of wildfire in relation to transmission lines. Are we okay 
there?
    Mr. Laverty. Yes, we are. That is really one of the screens 
that come up very quickly for an incident command team, which 
is, what is the relation to that power grid. One of the costs--
in fact, I saw a summary of one of the fires earlier this 
summer, is that there was a lot of investment dealing with 
power grid protection, so those are high on the screen.
    Senator Smith. I was in eastern Oregon about a month ago, 
when these fires were all raging, not necessarily in the forest 
but in grassland, and I was told that private vehicles were 
kept off out of fear for some endangered plants, but those 
plants were all consumed by fire because the private vehicles 
were not allowed to help to put it out, and I wonder who makes 
that decision. Is it different from place to place, State to 
State, and is that the right kind of reaction?
    I mean, if you have got a private landowner bordering 
public lands that are on fire, should we say no to their help 
in the name of an endangered plant, and then watch that plant 
be consumed by fire?
    Mr. Laverty. I would have to look into that situation, but 
it does not make any sense that we would not accept help.
    Mr. Hartzell. Yes, Senator, I have not heard anything from, 
say, the BLM offices in eastern Oregon about that situation. I 
will certainly look into it.
    Senator Smith. Okay. I would appreciate it. I was given 
chapter and verse just outside of Ontario, Oregon, between 
Ontario and Burns, where this apparently occurred in some 
number.
    Thanks, Mr. Chairman.
    Senator Wyden. I thank my colleague. Good questions. Just a 
couple of others, Mr. Laverty, a couple of policy issues that I 
am interested in that our Governor, Governor Kitzhaber has some 
interests with respect to these demonstration projects that he 
wanted me to follow up with you on.
    You mentioned that you were interested in streamlining some 
of the information processes, and that is obviously going to be 
important. Are there ways that you can use the Internet 
differently down the road as we look at forestry in this 
century that are going to help you streamline those processes?
    Mr. Laverty. Mr. Chairman, I would say the answer is 
probably yes, because I think the Internet provides us 
opportunities to receive information from folks that can help 
us out. We are not the only purveyors of information as it 
relates to resources, and once we start that information flow I 
really believe that there are opportunities that we can acquire 
information in a much more timely fashion than we ever have 
before. The Internet becomes a vehicle to do that.
    Senator Wyden. All right. Let me give you a project, 
because my other hat here in the U.S. Senate is, I chair the 
Technology Subcommittee on the Commerce Committee, and why 
don't we start with respect to the fire area, with respect to 
the fire plan generally, but I would like to ask you to ask 
your people to look at how information technology, IT, the 
Internet can be used to better fight forest fires to squeeze 
more efficiency out of those dollars.
    I noted when you answered earlier that you had an interest 
in streamlining the information processes and increasing 
information-sharing efficiency, I think was how you 
characterized it, and could you get back to me on how 
particularly you might use the Internet more creatively in 
terms of fighting fire and be put on notice that I may ask you 
the same questions as it relates to the Forest Service across 
the board, because I think there are some opportunities out 
there that we ought to mine.
    Mr. Laverty. I would be delighted to do that. Mr. Chairman, 
we are conducting one of the overviews next week in the Pacific 
Northwest. One of the team members in that overview is the 
Forest Service liaison from IBM, and the whole purpose of 
having Bill on the team is to help us figure out how can we, 
with the systems that we have available to us, improve our 
efficiency in terms of information.
    Bill was out on a fire up on the Colville earlier this 
summer, and was looking at it from a fire-fighting standpoint, 
how can technology be even more efficient in helping us deal 
with fighting fires, and Bill has got some great ideas about 
Palms or hand-held items in fire crews' hands so they can 
actually see real-time where is the most intense part of the 
fire perimeter, so there are a lot of things going on. I would 
be delighted to share that with you, and we will have a chance 
to test that out.
    Senator Wyden. How long do you think it would take to get 
me a report done on particularly new technologies, and how they 
are used in terms of fighting fires?
    Mr. Laverty. If you give me 2 weeks I will have you a first 
draft from our review in Oregon.
    Senator Wyden. That would be good. I was very excited when 
I had my tour. Like Senator Smith, we were all out and about 
this summer, and particularly looking at what happened in the 9 
a.m. updates on fires that were online, and the fire center web 
page gave out a lot of valuable information, but I think we can 
do a lot more, and whether it is Palm Pilots or wireless 
devices, this is an area I am very interested in.
    Senator Smith, by the way, is on the Commerce Committee, 
too, so we would have a chance to help you both here and on the 
commerce committee as well.
    Let me ask you a question about the Blue Mountain 
demonstration project, which as you know has been important to 
Governor Kitzhaber and folks on the east side and in Oregon.
    During the last meeting, the advisory panel established 
benchmarks and defined levels of success for the Blue Mountain 
demonstration project, and this was in preparation for the 
final report, and the most striking feature remains the 
inability, again, to do some of the forest health treatments, 
including commercial thinning, and reduction of hazardous fuels 
that are important, and this project just has not done it for 
the local sawmills and the long term interests of the 
community.
    We are still losing family wage jobs, and I think what 
people want to know with respect to that project is, how do we 
get beyond the meetings and the committees and the additional 
planning, and the planning for more planning, and notices to 
send out notices, and really get into what has been an awful 
lot of gridlock in these Blue Mountains in the northeast part 
of the State just have these dense stands of dead-standing 
trees and insect infestation, and what is it going to take to 
get this done, and to get a long-term agreement, and to work 
with the Governor and the environmental folks and industry and 
communities to make this happen?
    Mr. Laverty. One of the places we are going to visit next 
week is Baker City, and the intent is to talk about the Blue 
Mountain project and what is going on, and what do we need to 
do corporately to bring results on the ground. I will get back 
to you after that review, and we will give you a report on what 
we believe we can do on our side to make that come about.
    Senator Wyden. I would like that, because I can tell you 
the whole Oregon congressional delegation wants to get this one 
out of the pipes. It just seems like this has been a planner's 
full employment program. It just kind of goes on and on and on, 
and I do not see--Senator Smith touched on it. I do not see how 
it makes any sense from an environmental standpoint, and how it 
makes any sense from an economic standpoint.
    Let me ask you about one other project, and I think this 
will be another area I would like you to get back to me on. The 
Warner Creek fire was a terrible event in our part of the 
world, and the area just sits there essentially unlogged, 
unrestored, I gather even unstudied, and with the money going 
for the national fire plan's preparedness and the like, we have 
been trying to get the Forest Service support so that we can 
begin to get this data to put in place a plan for the area.
    The folks on the ground would, again, like to use this as a 
local model of collaboration. These are the people who are 
putting together the exciting proposals for the county payment 
money and the like, but they have just said point blank the 
Forest Service pre-year watch has not been interested in being 
collaborative, and I would like to know what you know about 
this and how we can turn this one around, too.
    Mr. Laverty. I know just enough to be dangerous, so I will 
follow up and I will get back to you on that.
    Senator Wyden. Warner Creek and Blue Mountain are important 
projects for our part of the world, and they really to me 
illustrate the lengths to which people are interested in going 
in order to be collaborative. These are not people who are 
talking about salvage riders and all kinds of other no-cut 
options and the like.
    These are people who are committed to coming up with 
policies that will give us sustainable forestry and healthy 
ecosystems, and I really want to see those two get off the 
ground, and I think you do not know me all that well, but you 
do not want to have me asking you about those projects again 
and again----
    Mr. Laverty. You will not have to do that.
    Senator Wyden [continuing]. When you come up here to the 
U.S. Senate, and I want to get them done.
    Senator Smith, do you have any other questions? All right. 
Gentlemen, we will excuse you. Thank you, and very helpful 
testimony. We look forward to working closely with you.
    Our next panel, Jim Hubbard, State Forester of Colorado, 
speaking for the Western Governors Association, Nathanial 
Lawrence of the Natural Resources Defense Council, Rick DeIaco 
from Ruidoso, New Mexico, Tom Nelson, with Sierra Pacific 
Industries in Redding, California, and Trent Woods from Elk 
City, Idaho.
    Gentlemen, we will make your prepared remarks a part of the 
hearing record. I know that there is almost a biological 
compulsion to read what is in front of you, and I would just 
ask in the interest of time, we will make your complete 
statement a part of the hearing record in its entirety, and if 
you could take the time, since we have got five of you, to just 
capsulize the key kinds of points, and I promise that your 
prepared remarks will be there for posterity, and for all time 
in the hearing record.
    Mr. Hubbard.

 STATEMENT OF JAMES E. HUBBARD, STATE FORESTER OF COLORADO, ON 
          BEHALF OF THE WESTERN GOVERNORS' ASSOCIATION

    Mr. Hubbard. Thank you, Mr. Chairman, Senator Smith. I am 
Jim Hubbard. I am the State Forester of Colorado, representing 
the Western Governors' Association today. I have been working 
closely with the Western Governors on this issue since the 
inception of the national fire plan.
    The Governors consider this one of their top priorities, 
and have kept it as such for sometime now, even prior to the 
national fire plan. Some of their commitments, whether they are 
talking about wildland fire in terms of community protection or 
in terms of ecosystem restoration, are to be involved with the 
formulation of the national fire plan to make sure it is a 
collaborative approach. Then they moved on to make sure it had 
a long-term strategy to guide it, and they are continuing to 
implement, to produce an implementation plan that will 
establish the accountability and commit financial resources and 
support the commitment that Congress has made.
    To that end, they sent a letter to the appropriator, to 
Senator Byrd, with all 18 Governors signing on. That is not 
something they normally do. They are serious about continuing 
long-term on the ground work on this issue.
    Our problem has not gone away. In the year 2000 we burned 
over 8 million acres, and we are continuing above the 10-year 
average. We do not anticipate in the West that this will change 
until the natural system changes, and the implementation of the 
national fire plan as a collaborative effort could be that 
change agent.
    Last month, the Governors signed with the Secretaries of 
Interior and Agriculture a 10-year comprehensive strategy to 
reduce wildfire risk and restore ecosystems. This was developed 
by a broad range of stakeholders, environmental interests, 
industry interests, tribal, local, State, Federal Government. 
The strategy establishes four goals. You have a copy of the 
entire document, but the goals are to improve prevention and 
suppression, to reduce hazardous fuels, to restore fire-
adaptive ecosystems, and promote community assistance. The key 
is collaboration. The Governors agreed with the Secretaries 
that they wanted full State involvement, that this has to be 
all lands and it has to be for a long time.
    Now we are talking about how we reduce risk and restore 
systems together. That is something new to us, and we want to 
do it, and we do not believe it will succeed without community 
involvement.
    We are setting priorities together, and we beg your 
indulgence. In 2001 we used what was already cleared through 
the environmental process, NEPA, ready, off-the-shelf 
documents. That did not address the priorities that we were 
after, but that was ready to go, and we wanted to show some 
progress.
    In 2002, we will do better, but in 2003 is when you will 
see the results of the collaborative process. It takes 18 to 24 
months to get through the environmental clearance process, and 
that planning starts now, and that is proceeding together.
    So a lot has happened in the first year. We have done a lot 
in coordinating preparedness, in implementing what is already 
available to us through the environmental clearance process, 
and we are collaborating a great deal on what is yet to come in 
fuels treatment particularly.
    Along with the strategy, you do not see specific 
implementation actions. I will not go into the reasons for 
that, but the Western Governors committed with the Secretaries 
to produce that document, and implementation plan by May 1 of 
2002. That will include performance measures. That will include 
a priority-setting process.
    The Governors are committed to a full partnership, and 
working towards that, and believe that the stage is set for 
long-term solutions. We will reduce risk, and we will put 
systems back in balance. The agencies are committed to this, 
whether that be Federal land management agencies, or State 
agencies. The Governors are certainly committed to this, the 
administration is, and Congress has provided support. We 
believe we are on the path to success.
    [The prepared statement of Mr. Hubbard follows:]
Prepared Statement of James E. Hubbard, State Forester of Colorado, on 
              Behalf of the Western Governors' Association
    Mr. Chairman and Members of the Subcommittee, my name is Jim 
Hubbard, and I am the State Forester of Colorado. I am here today on 
behalf of the Western Governors' Association (WGA), which is an 
independent, non-partisan organization of Governors from 18 Western 
states and three U.S.-Flag Islands in the Pacific. Let me begin by 
stating that wildland fire and ecosystem restoration issues are of 
extreme importance to the Western Governors. Were it not for the short 
notice available to WGA regarding this hearing, a Western Governor 
would be before you today. It was my pleasure, however, to accept the 
invitation from WGA to appear on the Governors' behalf, especially 
since I have been actively advising them on wildland fire issues since 
last summer.
    Congressional deliberation on fiscal year 2002 appropriations 
regarding wildland fire and ecosystem restoration is of initial, 
critical urgency to Western Governors. I would like to submit, for the 
record, a recent letter from 18 Western Governors to Senate and House 
Interior Appropriations conferees. Western Governors are seeking 
continued substantial funding for wildland fire management issues, 
along the lines of that received in fiscal year 2001. The attachment to 
that letter specifically details, among other items, the Governors' 
views on funding for restoration and rehabilitation work, community and 
private land assistance, volunteer fire assistance and the treatment of 
emergency appropriations. Western Governors also believe that 
sufficient funding needs to be devoted to the regulatory agencies, such 
as the Fish and Wildlife Service and the National Marine Fisheries 
Service, so their environmental compliance work does not become a 
barrier to allowing on-the-ground fire and restoration projects to 
proceed.
    Western Governors recognize that recent tragic events require an 
urgent shift in our national priorities, but they ask that we not lose 
sight of important domestic needs. Over time, with continued 
substantial up-front investment, we can significantly reduce the damage 
caused by wildfires, improve the health of our lands and protect lives 
and property. It has taken more than 100 years to reach the current 
situation of extreme fuel loads on our federal, tribal, state and 
private lands, and it will take a multi-year investment of time, money 
and on-the-ground work to address it. If we are to reduce the threat 
and consequences of wildland fire to communities and their resource 
base, we need to continue the effort launched last year.
    Stewardship over and sustainability of natural resources and 
communities is a long-held goal of Western Governors. As the nation 
witnessed during the 2000 fire season, severe wildfire poses a 
significant threat to both of these priorities. More than eight million 
acres were lost. We are again seeing the impact of severe wildfires 
this season. At least three million acres have burned so far. Almost a 
year ago, at the Governors' request, among others, the Congress called 
on the Departments of Agriculture and Interior, in partnership with the 
Governors, to develop a long-term strategy to address the wildland fire 
threat and need for ecosystem restoration. As stated by-Congress in the 
FY 2001 Interior and Related Agencies Appropriations Act (P.L. 106-
291), the Secretaries are to:

  <bullet> work with the Governors on a long-term strategy to deal with 
        the wildland fire and hazardous fuels situation, as well as the 
        needs for habitat restoration and rehabilitation in the nation; 
        and,
  <bullet> engage Governors in a collaborative structure to 
        cooperatively develop a coordinated, National ten-year 
        comprehensive strategy with the States as full partners in the 
        planning, decision-making, and implementation of the plan. Key 
        decisions should be made at local levels.

    Last month, Western Governors and the Secretaries of the Interior 
and Agriculture endorsed and transmitted to the Congress ``A 
Collaborative Approach for Reducing Wildland Fire Risks to Communities 
and the Environment: 10-Year Comprehensive Strategy.'' I would like to 
submit that document for the record along with a joint letter of 
endorsement from Western Governors and the Secretaries. Additional 
letters of endorsement are also included from The Intertribal Timber 
Council, the National Association of Counties and the National 
Association of State Foresters.
    The Strategy was developed in a collaborative manner by those 
endorses, as well as a range of stakeholder representatives. These 
individuals represent the spectrum of natural resources policy 
interests from environmental groups to industry. Their contribution to 
and support for the Strategy speak volumes to its value and to the 
process by which it was developed. The Strategy was designed to 
accomplish four goals across federal and adjacent state, tribal and 
private lands:
          1. Improve Prevention and Suppression;
          2. Reduce Hazardous Fuels;
          3. Restore Fire Adapted Ecosystems; and,
          4. Promote Community Assistance.
    The Strategy sets forth a number of guiding principles to achieve 
these goals including collaboration, priority setting and 
accountability. The Strategy also establishes a collaborative structure 
to accomplish these goals, with states and local governments as full 
partners in its implementation.
    Western Governors are pleased with progress made to date and the 
level of collaboration among the states and the Department of the 
Interior and the Forest Service. However, we cannot hope to accomplish 
our ultimate goals unless Congress provides a substantial annual level 
of funding and the necessary direction that the Departments use that 
funding in full partnership with state and local governments. Only 
through a true partnership can we tackle this threat, which knows no 
boundaries and is beyond the capability and resources of any single 
level of government.
    Let me take just a moment to describe how Congressional resources 
have been made available to date and how the Governors believe this 
needs to evolve to meet the envisioned outcomes of the Strategy. In 
fiscal year 2001, most of the funds were appropriated as an emergency 
supplemental appropriation. This meant that all the projects to 
undertake fuels reduction and restoration work already had to ``be on 
the shelf.'' In other words, they had to have already gone through 
environmental compliance and National Environmental Policy Act (NEPA) 
processes. So when you examine what was done this year with those 
funds, it may not be the most strategic work possible to address our 
long-term fire hazard problems, nor will it reflect the gains that we 
expect will come from working with multiple partners on joint projects 
both in the wildland-urban interface and across the landscape.
    What has become clear over recent years is that the federal land 
management agencies alone cannot do all that needs to be done. They 
need communities, states, tribes, and landowners to be working with 
them as they design projects to reduce the risk of wildfire to both 
communities as well as the ecosystem. If the funds are put into the 
budget, rather than releasing them only under the declaration of an 
emergency, the collaboration envisioned by Congress and the Governors 
can take place. And it will be meaningful, because it will actually be 
tied to the planning and implementation of projects in such a way that 
the environmental compliance and NEPA work can be done in a timely 
fashion. These processes may take one to two years, so we will need to 
make this investment from our budgets for a few years before we start 
seeing strategic, fire risk-reduction projects that are planned to 
maximize the effectiveness of all of our resources and funding sources.
    You may note that specific implementation actions are not included 
in the Strategy. Although the states intended to address 
implementation, we were unable to do so because of the need to first 
integrate the wildfire management programs of the Department of the 
Interior and the Forest Service. That will require great effort. The 
Departments have pledged to work with the Western Governors on an 
implementation plan to complement the Strategy and to complete it by 
May 1, 2002. The plan will address the needed integration among the 
Departments, as well as those of state, tribal and local programs. 
Performance measures, consistent priorities and timeliness for 
accomplishing the goals of the Strategy will also be established in 
ways that meet all applicable legal requirements for federal and state 
actions.
    Western Governors intend for the implementation plan to be 
collaborative, to set priorities, and to provide accountability to all 
participants, as well as the Congress. WGA believes that accomplishment 
tracking and. reporting processes should incorporate common performance 
goals and measures in order for the agencies to improve the link from 
activities and budget to performance and results. In addition, if this 
effort is to be a true partnership, investment decisions made by the 
federal government must be done in collaboration with states, tribes 
and local governments. Finally, just as was done to develop the 
Strategy itself, Western Governors will employ a collaborative process 
among a range of stakeholder groups to seek their input and support for 
the implementation plan.
    Western Governors urge you to support the Strategy and the 
forthcoming implementation plan. We also hope to work with the 
Administration on additional fire-related items. One is the development 
of procedures within existing laws to expedite compliance with the NEPA 
and interagency consultation required under Endangered Species Act. The 
other is the development of federal agency contracting procedures that 
will focus on restoration, forest health and rangeland activities 
recommended by local land managers.
    Western Governors believe that a full partnership between the 
states and the federal government, and substantial on-budget funding to 
implement the Strategy recently agreed to, are necessary to 
successfully address the massive scope of the threat and consequences 
of severe wildfire to communities and ecosystems. We appreciate the 
recognition by the Congress of the need for state leadership and for 
the resources you have provided so far to address this problem. We will 
need your continued support if our nation is to ensure the health of 
its ecosystems and the sustainability of its invaluable natural 
resources and the communities in their midst.
    This concludes my testimony on behalf of the WGA. Thank you for 
your consideration. I would be happy to answer any questions that you 
may have.

    Senator Wyden. Thank you very much.
    Mr. Lawrence, welcome.

   STATEMENT OF NATHANIEL LAWRENCE, SENIOR ATTORNEY, NATURAL 
             RESOURCES DEFENSE COUNCIL, OLYMPIA, WA

    Mr. Lawrence. Mr. Chairman, Mr. Smith, thank you for an 
invitation to appear today. Given the shortness of time, I am 
just going to focus my remarks on one aspect of the national 
forest plan, and that is the use of thinning in an effort to 
reduce fire risk.
    To summarize, we know a lot less about effective fire risk 
reduction than is often thought. What we do not know about fire 
risk reduction and thinning suggests that the forest should be 
regarded as three distinct zones, one of them very close to 
homes and communities, which would be our top priority, is a 
place where we know aggressive thinning can do a lot to reduce 
the risk to structures.
    The second, the general, heavily managed and altered 
forest, is a place to experiment with thinning and find out 
what we do not currently know, which is where and how we can 
use it in a way that will make things better in the forest, 
rather than worse, and the third is the back country, the 
relatively intact roadless areas, old growth and riparian zones 
which are relatively unaltered. They are therefore much less at 
risk, or heightened risk from fire, they are further away from 
communities, and they have much more to lose in terms of 
natural values if we go in and try experimental thinning and it 
goes wrong.
    I said just a moment ago that thinning was experimental, 
and what I mean about this, if there is one point I leave you 
with today, I want it to be this. There is virtually no peer-
reviewed, empirically based research that shows a reduction in 
fire intensity subsequent to thinning. There are lots of 
anecdotal cases where there have been forests thinned and fire 
came through, and it burned down lower, and there are lots of 
anecdotal cases the other way, where fire came through a thin 
forest and it blue up.
    There is some research--it is certainly not definitive, but 
there is a body of research which suggests, which tracks the 
increase of fire intensity after thinning. Now, this does not 
mean that we should not be thinning to try to reduce fire 
risks. What it means is, we do not know how to do it in a way 
that lets people predict that it will be effective, that the 
money used will be effective, and that the results will get the 
results that we very much need.
    It is an experiment. It is a complicated and dangerous 
experiment, one we need to undertake. We need to think about 
where we are undertaking it so we get the right results and we 
do not put resources at risk in doing that.
    [The prepared statement of Mr. Lawrence follows:]
  Prepared Statement of Nathaniel Lawrence, Senior Attorney, Natural 
                 Resources Defense Council, Olympia, WA
    Mr. Chairman and Members of the Subcommittee: Thank you for your 
invitation to appear today. The National Fire Plan and its constituent 
documents, the so-called Cohesive Strategy and 10-Year Comprehensive 
Strategy, have a vital set of tasks to accomplish. Done right, they 
would safeguard rural and urban-interface communities, and help return 
vigor and resilience to forest, rangeland, and aquatic ecosystems. Done 
wrong, they will at best perpetuate current threats to those 
communities and degradation of those ecosystems, wasting taxpayer 
dollars at a time we have none to spare and failing the American 
public. As it stands now, the National Fire Plan does not ensure that 
underlying problems will be effectively dealt with or that funding will 
be well used. Congress cannot afford to ignore these problems, but it 
should not allow implementation of the National Fire Plan until assured 
that the needed priorities and standards are in place and will be 
followed.
    Of the issues raised by the National Fire Plan, I want to focus on 
the use of thinning to reduce future fire risks in and around federal 
forests. To summarize, we know far less about fire risk reduction than 
many believe. What we do know points to three distinct forest zones, 
each calling for a different treatment approach and priority. The first 
is the immediate vicinity of homes and communities, where damage from 
fire can be greatly reduced and where our top priorities lie. The 
second is the heavily managed and altered forest. This is a zone where 
it makes sense to experiment carefully with thinning, monitoring and 
evaluating its actual impact on fire intensity and increasing our 
investment only if and when we have learned the impact of what we are 
doing and only after dealing with the first priority, the community 
zone. The third is the less altered forest, largely unlogged, unroaded 
backcountry, along with old growth and intact riparian areas. These 
forests are much less in need of remediation, more prone to harm from 
active management, and more remote from communities. Thinning here, if 
it is ever done, should be rare, light, and years away.
    Unfortunately, the National Fire Plan is not designed to assure 
that these zones are dealt with in order of priority. Instead, it is a 
virtual black box, devoid of meaningful standards, constraints, or 
commitments about the kind and location of fire risk reduction in which 
the implementing agencies will engage. This approach is in the same 
vein as other trends at the U.S. Forest Service, in particular, which 
are away from standards and accountability and towards increased 
discretion to do as the agency chooses, notwithstanding public opinion, 
scientific evidence, and congressional direction. The recently adopted 
10-Year Comprehensive Strategy \1\ is oriented toward a number of the 
needed priorities and standards, but does not supply them or assure 
they will be developed.
---------------------------------------------------------------------------
    \1\ A Collaborative Approach for Reducing Wildland Fire Risks to 
Communities and the Environment: 10-Year Comprehensive Strategy. August 
2001. Publisher, place, and authorship unspecified.
---------------------------------------------------------------------------
    what we do not know: how to ensure thinning reduces forest fire 
                               intensity
    Above, I spoke of thinning to reduce fire risk as an 
``experiment.'' This is an essential point. The National Fire Plan 
treats thinning as an established cure for intense fire, something so 
routine that no criteria or sidebars for its use are needed. In point 
of fact, however, virtually no peer-reviewed, empirical studies show 
that thinning actually leads to a systematic reduction of forest fire 
intensity.\2\ The Cohesive Strategy acknowledges this, somewhat 
obliquely, when it notes that ``[a]t landscape scales, the 
effectiveness of treatments in improving watershed conditions has not 
been well documented.'' \3\
---------------------------------------------------------------------------
    \2\ Models and assessments that predict what future fire intensity 
might be abound, but they do not report the actual, near or long-range 
results of thinning as conducted under real world conditions. Similarly 
common are studies that look at occurrence and acreage of fire without 
considering intensity. However, thinning does not aim to reduce burning 
overall, indeed lack of low-intensity burning is seen as part of the 
problem. Rather, the postulated function of thinning is to make fires 
less intense. Thus, studies that ignore intensity do not provide useful 
information about the effectiveness of thinning. One masters degree 
thesis appears to provide a lone exception to this dearth of relevant 
research. Pollet, J., and Omi, P.N. 1999. Effect of thinning and 
prescribed burning on wildfire severity in ponderosa pine forests. 
Paper presented at the JFSC Fire Conference, ``Crossing the Millennium: 
Integrating Spatial Technologies and Ecological Principles for a New 
Age in Fire Management.'' Boise, Idaho.
    \3\ U.S. Forest Service. 2000b. Protecting People and Sustaining 
Resources in Fire-Adapted Ecosystems: A Cohesive Strategy. Oct. 13, 
2000.
---------------------------------------------------------------------------
    Actually, a series of studies though not definitive shows post-
thinning increases in fire intensity or spread.\4\ Anecdotal cases 
exist of both increased and decreased fire intensity after thinning. 
But in general we don't have the necessary scientific basis for 
predicting confidently that a given thinning project, as it ends up 
being implemented on the ground, will reduce fire intensity.
---------------------------------------------------------------------------
    \4\ See, e.g. Fahnestock, G.R. 1968. Fire hazard from precommercial 
thinning of ponderosa pine. U.S. Forest Service Research Paper PNW-57. 
Portland, Oregon; Weatherspoon, C.P. and C.N. Skinner. 1995. An 
assessment of factors associated with damage to tree crowns from the 
1987 wildfire in northern California. Forest Science. 41:430-451; Huff, 
M.H., R.D. Ottmar, E. Alvarado, R.E. Vihnanek, J.F. Lehmkuhl, P.F. 
Hessburg, and R.L. Everett. 1995. Historical and current landscapes in 
eastern Oregon and Washington. Part II: linking vegetation 
characteristics to potential fire behavior and related smoke 
production. U.S. Forest Service Pacific Northwest Forest and Range 
Experiment Station, GTR-355. Portland, Oregon; U.S. Forest Service. 
1995. Initial review of silvicultural treatments and fire effects on 
Tyee fire. Appendix A, Environmental Assessment for the Bear-Potato 
Analysis Area of the Tyee Fire, Chelan and Entiat Ranger Districts, 
Wenatchee National Forest, Wenatchee, WA. 5 pages.
---------------------------------------------------------------------------
    How can it be that thinning could increase fire risks? First, 
thinning lets in sunlight and wind, both of which dry out the forest 
interior and increase flammability. Second, the most flammable material 
brush, limbs, twigs, needles, and saplings is difficult to remove and 
often left behind. Third, opening up forests promotes brushy, flammable 
undergrowth. Fourth, logging equipment compacts soil so that water runs 
off instead of filtering in to keep soils moist and trees healthy. 
Fifth, thinning introduces diseases and pests, wounds the trees left 
behind, and generally disrupts natural processes, including some that 
regulate forest health, all the more so if new roads are used.\5\
---------------------------------------------------------------------------
    \5\ Some of these phenomena are discussed in the fire effects 
section of the Final Environmental Impact Statement for the Roadless 
Areas Conservation Rule (FEIS). The Forest Service's fire specialist 
review of the scientific literature for the FEIS discusses a number of 
the underlying studies. See FEIS, Fuel Management and Fire Suppression 
Specialist's Report (available online at http://www.roadless.fs.fed.us/
documents/feis/specrep/xfire--spec--rpt.pdf) at 22 (``The Congressional 
Research Service . . . noted: `timber harvesting does remove fuel, but 
it is unclear whether this fuel removal is significant;' '' ``Covington 
(1996) . . . notes that, `scientific data to support such management 
actions [either a hand's off approach or the use of timber harvesting] 
are inadequate' '' (brackets in the source)); id. at 22-23 (``Kolb and 
others (1994) . . . conclude that . . . management activities to 
improve forest health [such as fuel management] are difficult to apply 
in the field'' (brackets in the source)); id. at 21 (``Fahnstock's 
(1968) study of precommercial thinning found that timber stands thinned 
to a 12 feet by 12 feet spacing commonly produced fuels that `rate high 
in rate of spread and resistance to control for at least 5 years after 
cutting, so that it would burn with relatively high intensity;' '' 
``When precommercial thinning was used in lodgepole pine stands, 
Alexander and Yancik (1977) reported that a fire's rate of spread 
increased 3.5 times and that the fire's intensity increased 3 times''); 
id. at 23 (``Countryman (1955) found that `opening up' a forest through 
logging changed the `fire climate so that fires start more easily, 
spread faster, and burn hotter' ''). Others are discussed, along with 
adverse impacts to wildlife, in two annotated bibliographies of 
scientific research available from the Natural Resources Defense 
Council. Ercelawn, A. 1999. End of the Road--The Adverse Ecological 
Impacts of Roads and Logging: A Compilation of Independently Reviewed 
Research. 130 pp. Natural Resources Defense Council. New York. 
Ercelawn, A. 2000. Wildlife Species and Their Habitat: The Adverse 
Impacts of Logging--A Supplement to End of the Road. 41 pp. Natural 
Resources Defense Council. New York.
---------------------------------------------------------------------------
    This does not mean that thinning will never help reduce fire risks. 
Rather, it means that we don't know whether and under what conditions 
thinning will make things better, rather than worse. It is therefore 
only an experiment, a complicated, tricky, and dangerous experiment.
    There is one kind of thinning we do know is productive. If drastic 
thinning is used within 150 feet of structures that have fire resistant 
roofs and siding, and saplings are kept cleared out, the buildings 
don't get hot enough in a fire to combust.\6\ When trees are very 
widely spaced, fires physically cannot jump from treetop to treetop,\7\ 
and they don't develop the heat to ignite properly constructed or 
retrofitted homes. It is important to note that you do not really have 
a forest left after this kind of thinning, but you do have safe 
communities.
---------------------------------------------------------------------------
    \6\ Cohen, Jack. 1999. Reducing the Wildland Fire Threat to Homes: 
Where and How Much? In proceedings of the Symposium on Fire Economics, 
Planning, and Policy: bottom lines; 1999 April 5-9. San Diego, CA; 
Gonzales-Caban, Armando; Omi, Philip N., technical coordinators. U.S. 
Forest Service Pacific Southwest Research Station Gen. Tech. Rep. PSW-
GTR-173. Albany, CA.
    \7\ Agee, J.K. 1996. The influence of forest structure on fire 
behavior. Presented at the 17th Annual Forest Vegetation Management 
Conference, Redding CA, January 16-18, 1996.
---------------------------------------------------------------------------
  what we do know: increased fire risk affects only some forests and 
          comes from management practices that continue today
    What else do we know about fire risk? We know that increased fire 
risk is traceable to human intervention. Where forests are abnormally 
dense and thus more flammable, several kinds of forest management share 
the blame. The usually mentioned culprit is fire suppression. But also 
implicated are logging (especially removal of medium to large, fire 
resistant trees) and grazing \8\ (because cows and sheep crop forest 
grasses that otherwise would shade out tree seedlings and carry low 
intensity, brush-clearing fires).\9\
---------------------------------------------------------------------------
    \8\ See The Comprehensive Strategy, supra note 3.
    \9\ Belsky, A.J. and D. Blumenthal. 1997. Effects of Livestock 
Grazing on stand Dynamics and Soils in Upland Forests of the Interior 
West. Conservation Biology 11:315-327.
---------------------------------------------------------------------------
    We know that many forest types are not at greatly heightened risk, 
because in their natural, healthy state they burn only infrequently, so 
that intense fires are normal and unavoidable. We know that it is 
problematic to extrapolate just how dense or sparse forests actually 
were in pre-settlement times.\10\ Even the dry pine forests said to be 
at greatest risk were sometimes much denser before management than 
people tend to think. The Forest Service's long-time poster child for 
supposedly pre-management open stand conditions in the dry West is this 
1909 photograph from the Bitterroot National Forest. See Illustration 1 
\11\ (see also Attachment A \11\ to this testimony, showing the 
photograph presented as an illustration of desirable, baseline 
conditions in a widely distributed 1998 Forest Service poster and in 
the first, i.e. May 31, 2000, edition of the agency's Coherent Strategy 
document).\12\ The photo actually is of a just-logged stand.\13\ A pre-
logging photo from the same area and year shows much closer spaced 
trees.\14\ See Illustration 2.
---------------------------------------------------------------------------
    \10\ Stephenson, N.L. 1999. Reference conditions for Giant Sequoia 
forest restoration: structure, process, and precision. Ecological 
Applications. 9: 1253-1265; Landres, P.B., Morgan, P., and Swanson, 
F.J. 1999. Overview of the use of natural variability concepts in 
managing ecological systems. Ecological Applications 9: 1179-1188.
    \11\ The illustration and attachments have been retained in 
subcommittee files.
    \12\ After the erroneous description of this photograph, with its 
(in retrospect) obvious slash piles among the thinned trees was pointed 
out to then-Chief Dombeck, along with an actual pre-logging photograph 
of much denser conditions (see Illustration 2), the picture and 
description were dropped from the final edition of the Cohesive 
Strategy, released on October 13, 2000. The erroneous use of the 
photograph supposedly to illustrate baseline conditions was perpetuated 
when the General Accounting Office included it in Western National 
Forests: A Cohesive Strategy is Needed to Address Catastrophic Wildfire 
Threats. U.S. GAO. 1999. Report no. GAO/RCED-99-65 (Attachment B to 
this testimony). The mischaracterization was detailed in Ponderosa 
Poster Child: U.S. Forest Service Misrepresenting the Historic 
Condition of Western Forests and the Effects of Fire Suppression and 
Logging, by Keith J. Hammer, a report commissioned by Friends of the 
Wild Swan and Swan View Coalition.
    \13\ Gruell, G.E. 1983. Fire and Vegetative Trends in the Northern 
Rockies: Interpretations from 1871-1982 Photographs. U.S. Forest 
Service, Intermountain Forest and Range Experiment Station GTR INT-158. 
Ogden, UT.
    \14\ Arno, S.F., J.H. Scott, and M.G. Hartwell. 1995. Age-class 
Structure of Old Growth Ponderosa Pine/Douglas-fir stand and its 
relationship to fire history. U.S. Forest Service, Intermountain 
Research Station GTR INT-RP-481. Ogden, UT.
---------------------------------------------------------------------------
    We know that where increased tree density does make forests 
abnormally flammable, it is small trees that are responsible. These are 
the trees that started growing after fire suppression caused a normal 
fire event not to occur, or overstory logging and/or grazing opened up 
the forest floor so seedlings flourished. Large and medium-sized trees 
typically pre-date these events, so removing them would not return the 
stand to more normal conditions.
    We know that our forests are not currently burning as much as they 
once did. True enough, in recent years the acreage burned annually by 
wildfire in the West has trended upwards. However, it is on average 
still much lower than it was in pre-settlement times.\15\ Not widely 
publicized is the fact that much of the acreage reported as burning 
these days is not forest at all but rangeland and sagebrush, and that 
where forests do burn, they do so with variable intensities, as they 
did in the past. We do not really know much about how current wildfire 
intensity compares with the pre-settlement conditions that thinning is 
supposed to mimic, in part because current reporting emphasizes total 
acreage but does not systematically assess fire intensity.
---------------------------------------------------------------------------
    \15\ The Cohesive Strategy, supra note 2, notes that in ``the upper 
Columbia River Basin alone--a small portion of the interior West--
scientific assessments indicate that prior to European settlement, more 
than six million acres per year burned. Today, fewer than one-half 
million acres burn per year in this same area.''
---------------------------------------------------------------------------
    And finally, we know that the management problems that caused 
small, flammable understories to develop where they did not earlier 
exist continue to this day, notwithstanding awareness of their adverse 
consequences. The Forest Service has known for more than seventy years 
that fire suppression caused subsequent fires to burn more and more 
intensely.\16\ Nonetheless, the National Fire Plan focuses just as 
uncritically as ever on massive, broadscale fire supression, almost in 
the same breath with promising to address the ill effects of ``decades 
of fire exclusion.'' \17\ And much of the thinning done assertedly to 
reduce fire risk includes medium and large trees. Nothing in the 
National Fire Plan prevents this. The 10 Year Comprehensive Strategy 
evinces an understanding that small diameter timber is the necessary 
object of restorative thinning efforts. However, it is increasingly the 
trend at the Forest Service to try to blur the distinction between 
commercial logging, which is driven by economic considerations to 
include larger, more valuable trees, and so-called restoration 
thinning, where precisely the opposite is needed.\18\
---------------------------------------------------------------------------
    \16\ Benedict, M.A. [Supervisor of the Sierra National Forest]. 
1930. Twenty-one years of Fire Protection in the National Forests of 
California. Journal of Forestry 28: 707-710.
    \17\ Compare http://www.na.fs.fed.us/nfp/ff/ff--overview--text.htm 
with http://www.na.fs.fed.us/nfp/hazfuel/reports/brief--nfp--keypoint--
hazfuel--032301.htm. Some fire suppression is, of course, essential. 
Missing from the National Fire Plan, however, is any awareness that 
ultimately all forests in the lower 48 states burn and that for those 
that naturally burn frequently, putting out small fires aggressively, 
rather than allowing some burning, stores up bigger problems for later 
on. The 10-Year Comprehensive Strategy, supra note 1, does show some 
awareness that restoration of fire is an integral part of the challenge 
faced in our Nation's forests.
    \18\ See, e.g. Testimony of Chief Bosworth, May 8, 2001, on the 
U.S. Forest Service FY 2002 Budget, before the Subcommittee on Forests 
and Public Land Management, pointing to ``past inability of the Agency 
to view forest product production as an integral aspect of protecting 
and improving forest health,'' and asserting that ``timber harvesting 
can restore forest ecosystem health, reduce invasive species, and 
reduce the risks of catastrophic fires.''
---------------------------------------------------------------------------
what our fire risk reduction priorities should be, based on what we do 
                            and do not know
    When you reflect on what we do and do not know, the prudent 
approach to forest fire risk reduction stares you in the face. First, 
very close to buildings and communities, we have an urgent need and a 
clear course of action. Second, further away, in the previously 
managed, general forest, we have far less idea what to do, but ample 
room and time for experimentation because fire is still well below pre-
settlement levels. Third and finally, in the unlogged, undeveloped 
backcountry, we have the least damaged conditions, the least urgency, 
the least idea what to do, and the most to lose from active management.
    Zone one is overwhelmingly the top priority, the zone where we must 
focus attention, resources, and work. It is where people and homes are 
at risk. And it is where we know what will work. There we need highly 
aggressive thinning, combined with up-grading of exterior building 
materials and regular clearing of saplings. I want to stress that this 
kind of treatment does not leave much of a forest behind, just widely 
scattered trees at most. But this is a zone where consideration of 
human safety, for residents and firefighters alike, is paramount. And 
as noted above, research shows that it is very narrow, extending only 
about 150 feet from structures. Because of the widespread penetration 
of human communities into forested landscapes, this is still a lot of 
acreage that will take years to treat effectively, but it is not the 
general forest. By any defensible calculation, this is where the 
National Forest Plan should ensure the large majority of our near term 
resources are focused.
    Our longer range priority has to be learning the conditions, if 
any, under which less drastic thinning--thinning that retains forest 
character--will reliably reduce subsequent fire intensity better than 
do other techniques. And the place for this is zone two, the already 
roaded and logged landscape. This is where management has had far and 
away the greatest impact, and the forest is most altered. Thus it is 
where some sort of remediation is likely needed and natural values are 
least jeopardized, because they are least present. And the way to do 
it, so we maximize the chances of learning without making things worse, 
is to take out only small trees, and only in those specific slopes and 
conditions where science indicates frequent fire used to predominate 
and now does not.\19\ The National Park Service is doing some of this 
already, undertaking small scale, targeted thinning of small trees and 
brush with strict size limits.\20\ This was the original intent for the 
National Fire Plan.\21\ However, as noted above, the plan now contains 
no standards to ensure these objectives are met while simultaneously 
the Forest Service is moving back towards the use of commercial logging 
on a restoration rationale.
---------------------------------------------------------------------------
    \19\ Alarmingly, the 10-Year Comprehensive Strategy, supra note 1, 
does not distinguish between, one the one hand, forest locales and 
types that naturally had and could maintain low intensity burns and, on 
the other, forests that normally burn less frequently, where efforts to 
reduce fire intensity would disrupt and damage forest health. The 
Strategy's first listed action for hazardous fuel reduction, is simply 
``[r]educe the total number of acres at risk to severe wildland fire,'' 
a goal that if implemented indiscriminately across forest types and 
locations would entail enormous waste and harm.
    \20\ See, e.g., National Park Service. 2001. Environmental 
Assessment, Hazard Fuel Reduction and Site Restoration, Sequoia & Kings 
Canyon National Parks, East Fork Kaweah Developed Areas, Oriole Lake 
and Silver City. Environmental Compliance Document #2001-19. Three 
Rivers, CA. This project uses hard and fast criteria that preserve all 
trees over 40 feet high and all down logs over 8 inches in diameter.
    \21\ Babbitt, B. and D. Glickman. 2000. A Report to the President 
in Response to the Wildfires of 2000 (speaking of ``an aggressive 
program to thin forest stands to reduce small diameter trees, 
underbrush and accumulated fuels''). A Cohesive Strategy, supra note 2, 
page 17 (mechanical treatment will target ``already roaded and managed 
portions of the landscape'' where we ``need to reduce the 
disproportionately large number of small, non-merchantable trees, 
brush, and shrubs that dominate short interval fire-adapted 
ecosystems'').
---------------------------------------------------------------------------
    Finally, there is zone three, unroaded areas and intact old growth 
and riparian stands. Here we have the most to lose, ecologically, from 
experimental management, because these are the places with the most 
residual natural values. Because they are among the least altered 
segments of the landscape they are least in need of intervention. And 
because they are typically not adjacent to communities, they are not a 
priority from the standpoint of human safety. And the more sensitive 
these lands are, for example municipal watersheds and habitat for 
threatened and endangered species, the more important it is that we go 
slow and tread softly. If, because of truly exceptional circumstances, 
intervention is mandatory, we should look first to ending domestic 
grazing, removing very small woody material by hand, and reintroducing 
fire under controlled conditions. As far as the National Forest Plan 
currently stands, however, limited federal agency funds and authorities 
may focus on commercial logging of these areas ostensibly for 
restorative purposes.
                               conclusion
    Congress has provided billions of dollars in order to accomplish 
the goals of the National Fire Plan. This spending could result in 
great success--in ecological, economic, and human safety terms--or 
resounding failure and waste. In order to accomplish the Plan's goals, 
federal agencies must use federal dollars and authorizations where 
there is a solid understanding of the potential results and avoid 
activities that have uncertain outcomes. And federal agencies must be 
held accountable for following Congressional direction. Based on the 
research that is available, the needed course is simple--resources must 
be prioritized so that most dollars and efforts are focused on the 
urban-wildland interface, only some are focused on thinning small trees 
in the disrupted and managed forest, and, for now at least, virtually 
none in the backcountry. The National Fire Plan as it stands makes no 
effort to examine or establish these kinds of priorities, let along 
ensure they will be accomplished. The 10-Year Comprehensive Strategy 
advances the dialogue about these issues in some measure, but does not 
include or adequately lay the groundwork for the needed standards, 
commitments, and accountability.
    Thank you for the opportunity to testify today. I would be happy to 
answer any questions you might have.

    Senator Smith. Mr. Chairman, do you mind if I ask him a 
question on this? This is a very important point, Mr. Lawrence, 
and I wonder if the three categories of stands that you are 
talking about, for want of a better word--would you describe it 
as wild, roadless, never harvested? I do not know what 
percentage that is of the total, but I wonder if it is not 
fairly easy to see what are the conditions that has kept it 
safe, and if we might not try and replicate what we find, how 
nature has done it in these areas that have been grossly 
overplanted and are grossly overgrown, and is that not a 
reasonable way to get an answer fairly quickly so that it is 
not such a grand experiment?
    Mr. Lawrence. It is reasonable and important to try 
thinning in places that we know have heightened fire risk 
because of dense understories, but we do not know how to do it 
in a way that will work, and there are several reasons for 
that. When you take out small trees, when you open up a forest 
understory, you let in sunlight and wind which dry out the 
interior and make it more flammable.
    Most of the time when you thin you leave behind the small 
branches, the twigs, the brush and the needles, which are the 
most flammable part of the forest fuels complement, very 
difficult to take out, and you leave those behind, so you are 
leaving the most flammable stuff behind.
    If you use heavy logging equipment, you can pack the soil, 
which means the water runs off instead of infiltrating, keeping 
conditions moist and helping to nourish trees. Also, the 
equipment nicks trees and brings in pests and diseases and so 
forth that affect overall forest health. There is a whole 
variety of things that cut the other way when you try to mimic 
natural distribution of trees with chain saws, and again, I am 
not saying that we should not do this. What I am saying is, 
this is a much more complicated thing than is generally 
imagined, and what we need to avoid, what the national fire 
plan needs to avoid is simply assuming that if you take out 
trees you will make things better, and that you can do that 
everywhere and you will not have to worry about fire at the 
same time that we are running around putting out all the little 
fires.
    And again, the job in my mind, and I think that the facts 
speak to this pretty clearly, is to figure out where we are 
going to do that experimentation, and what kind of 
experimentation it is. What we do know about fire risk 
reduction and the changes in Western forests in particular, I 
think, points to the kind of zoning of the forest that I am 
talking about, the areas right around houses, the altered 
landscape that has been heavily managed, and the relatively 
unmanaged landscape.
    We know, for example, that if you thin very, very 
intensively, so that you really do not have a functional forest 
left, right around the immediate vicinity of homes, and you get 
those homes fireproof roofs and fire-resistant siding, then 
they do not catch fire in a fire. The research is pretty clear 
on this. This is a very small zone around houses. It is 150 
feet or so around houses. If that is where you do really 
intensive thinning, you really protect homes.
    We also know that the problem in forests is from small 
trees. They are the trees that have come in after logging 
began, after fire suppression began, also grazing, which is 
implicated in increased fire risk, so we know if we are going 
to do this it is the small trees we need to focus on. We know 
the medium-size and big trees are fire-resistant, part of the 
natural ecosystem.
    We know there are a lot of forests that were naturally 
dense, and that they will burn intensely regardless of what we 
do. It is important not to waste our resources trying to reduce 
fire intensity in a forest where that is just not going to 
work, except right around houses, of course, because if you own 
a house, you do not care whether that forest burns intensely 
and not naturally. You care about whether the house is left 
when a forest fire does come through, so that is where you thin 
intensively.
    We also know that the management activities that cause 
problems with fire risk increases continue to this day. We know 
that we are still doing fire suppression as though it was not 
causing a problem. We have to do fire suppression, of course, 
but we need to think about the way it is causing problems as 
well as solving problems.
    We know that logging, taking out big trees, continues in 
places that are at risk from increased fire. The Forest Service 
increasingly in recent months has been trying to blur the 
distinction between restoration thinning and commercial 
logging, and that way leads to real problems because the 
incentives for commercial logging are the exact opposite for 
those of restoration thinning. One of them needs big trees to 
be profitable. The other needs to leave big trees and medium-
sized trees in order to be effective, so we have gotten not to 
make the mistake of confusing those two.
    We need to spend some money on thinning, because we cannot 
expect it to pay for itself, but given the billions we spend 
every year in fire and fire suppression, it is money well-
spent.
    My time is long since up.
    Senator Wyden. Just on this thinning issue, which as you 
know is not exactly noncontroversial in our part of the world, 
is there in your view, Mr. Lawrence, a place where the three 
types of forest exist side-by-side so that in effect there 
would be sort of a model forest where you could zero in on this 
analysis that you are calling for?
    Mr. Lawrence. I think it depends a little bit on what you 
mean by side-by-side.
    Senator Wyden. In close proximity.
    Mr. Lawrence. I have driven around a lot of the eastern 
part of your State of Oregon looking at national forestlands, 
and I can tell you there is no dearth of heavily altered forest 
that has been high-graded starting back in railroad logging 
days, and probably entered three times to have the big trees 
taken out, that is full of little, brushy, dog-hair thickets. 
You do not have to go far from communities to find those places 
because that is where the logging started, is close to 
communities. That is where the communities grew up, close to 
the logging.
    It would not be hard to find a place that is relatively 
close to, let us say, a roadless area, or as large as they 
still are in eastern Oregon, which tends not to be too large, 
and put together a demonstration project looking at the three 
different areas and trying to treat them in three distinct 
ways, using thinning differently in the first two zones and not 
at all in the third, but looking to the third as a kind of a 
control.
    Senator Wyden. I will have some more questions for you in a 
minute, but suffice it to say, there are places in Oregon 
already that we think might serve as a model forest, not just 
as it relates to these three areas for consideration of 
thinning, but essentially areas where people are practicing 
multiple use in a way that is sensitive to all of the shared 
values that people have, and it is an area of interest of mine, 
and we will be talking to you.
    Mr. Lawrence. Oregon has lots of opportunities for this. I 
just want to emphasize that as it is currently constituted, a 
national forest plan does not look to these kinds of 
priorities, and it does not contemplate the kinds of standards 
and criteria that create real accountability for treating those 
areas the way the science indicates they ought to be treated.
    Senator Smith. Mr. Chairman, pardon me. One more, Mr. 
Lawrence. I know in this back country zone, the wild area, I 
think in your testimony you advocate reintroducing fire to do 
some of that. Would that not be as experimental, as untested as 
just getting some of the timber out, maybe even a little that 
has commercial value?
    Mr. Lawrence. The reason to look to fire is that it is 
going to come regardless, in the lower 48. This is not true, 
maybe, on the Tongass, but in the lower 48 we know one thing, 
sooner or later the forests will burn. We have known that for a 
long time, and the Forest Service has known for 70 years that 
fire suppression caused subsequent fires to be more intense, so 
it is going to come anyway, and it is a relatively low 
investment, low intrusive way of looking at restoring, but I 
think that this whole back country zone in general is a place 
that we need to wait until later to do any kind of significant, 
substantial restoration.
    Senator Wyden. Our next witness, Rick DeIaco, welcome. 
Please proceed.

           STATEMENT OF RICK DEIACO, URBAN FORESTER, 
                          RUIDOSO, NM

    Mr. DeIaco. Thank you, Mr. Chairman. On behalf of the 
village of Ruidoso, and the collaborative working group, I am 
honored to be here. We appreciate this opportunity. I am going 
to give you kind of a local point of view. I represent a local 
community. I am a forester there, and I have got three points 
here.
    We have had a really good, collaborative effort working 
with the State, with the forests, with State forestry, with the 
Forest Service. We have a group, and the impetus for all this 
came from the national forest fire plan to get things done, so 
what I want to offer today is a template, if you will, for 
communities to work through this process.
    We have a had a lot of testimony here as far as the big 
picture, what needs to be done on the public lands, et cetera. 
When you get next to what we would refer to as the interface, 
which we all know what the interface is, but I might add, 
different--you know, we think of the interface as where 
wildland fuels burn up against urban fuels. I mean, that is 
kind of a traditional definition. I might offer another one, 
just where public land comes together with private land. The 
reason is, is because that is the way the funding works.
    Now, what we have done in southern New Mexico, around the 
Ruidoso area, we have kind of taken the geographic area, we 
have come up and put together basically five action plans. The 
first one is, make a geographic area, define that urban 
interface, so we drew a circle around a map and said, okay, 
these are the areas. Now let us look at all the land-holding 
agencies, which include the Forest Service, State, BLM, 
Mescalara tribe we have there, the Village of Ruidoso, some 
other municipalities that you have, and what is your piece of 
the puzzle, how do we get this thing done.
    So after creating a geographic area, then we decided four 
other action items. How do we work together, because when you 
get the Forest Service and the State and the local people all 
together, sometimes we need to be able to communicate better, 
so we established something--we use the unified command 
structure as far as trying to work together.
    Then we looked at what projects we have on the shelf that 
are ready to go, they are either NEPA ready, or which projects 
do we have that we want to get funded, or are seeking funding 
for.
    The third action item, or actually the fourth action item 
is, how do we speak to the public in one voice, so when Mrs. 
Jones goes over to the Forest Service and asks a question, or 
Mrs. Jones goes to the village of Ruidoso and asks a question, 
she gets kind of the same answer, so we formed a committee to 
do that.
    The fifth thing was, how do we get our requirements, 
cutting requirements together so that we are consistent, and 
basically we broke that into either defensible or wildland, and 
wildland, depending on what your civil cultural treatment 
objectives are, basically you want to thin in the neighborhood 
of a 60 to 90 basal area, and around the defensible space 
around homes to go to about 40 basal area, which is much, much 
thinner.
    That is the first point. The second point I would like to 
make here today is the need for the committee to look at 
different means of private funding. When we look at that urban 
interface, the way we look at it from our perspective is that--
and there has been talk about what types of thinning, and I 
agree with my colleague as far as the zone, and the zone around 
the interface is most important. It is a perfect spot to try to 
do some experiments in there, because obviously when the fire 
comes across--and a good example was the Los Alamos fire last 
year in northern New Mexico, where the wildfire swept across 
the wildland and after doing forensic studies on some of the 
fires, the burnt structures, it was shown that it was not 
necessarily the crown fire that burned all these fires, it was 
lack of defensible space and the spotting.
    So what we are trying to suggest is that we create that 
zone where the public land side of the interface does the kind 
of thinning that they need to do, but it is incumbent upon the 
municipalities to somehow make it so that the general public 
has a way to go. In other words, has a method--people in New 
Mexico and probably throughout the West do not like to be told 
that there is all of a sudden going to be an ordinance that 
says you have to thin trees. They like to see it, and so the 
gist of this is that we have an opportunity here on the public 
side to show by example, and then we can go to Mrs. Jones and 
say, look, you need to do this in your backyard, because look 
what we have done out here.
    So some of the demonstration projects, especially through, 
for instance, the collaborative forest restoration program, and 
some of the title IV money that we had to spend, utilized 
through the Wyden authority around Ruidoso, is being used as 
demonstration projects, so we make a big media blitz. We bring 
out the hot dogs and the popcorn and the media and say, hey, 
this is what you ought to do with your backyard, and it works. 
We have probably got 30 percent of the folks in our town that 
are voluntarily now cleaning up their area, cleaning up around 
their backyard.
    Senator Wyden. They are all eating hot dogs and saying, who 
is Ron Wyden?
    [Laughter.]
    Senator Wyden. Go ahead. Excuse me. Go ahead. Please 
finish.
    Mr. Lawrence. We gave them a hot dog and a pair of 
clippers. That is how it works.
    So that is an important issue for us, and that is how we 
are trying to get our communities to work, because the whole 
idea in our mind, again from a local level, this national fire 
plan is about saving property and saving lives, and where do 
those lives and most of the property occur? It is on the inside 
of the interface.
    So I appreciate this, and I will end it there.
    [The prepared statement of Mr. DeIaco follows:]
     Prepared Statement of Rick DeIaco, Urban Forester, Ruidoso, NM
    Mr. Chairman, on behalf of the Village of Ruidoso and the 
collaborative working group in the area, I am truly honored to be here. 
We appreciate the opportunity to address this committee and thank you 
for your leadership and assistance with regard to the National Fire 
Plan. If I may, I will talk about our working group and it's 
collaborative accomplishments; describe some specific needs; and offer 
some planning input for the future.
    Many people around the country and around the world think of New 
Mexico as a land of enchantment and a treasure chest of natural 
resources and cultural diversity. Ruidoso is a mountain community with 
8,500 permanent residents located in south central New Mexico at 7,000 
feet of elevation. From Memorial Day to Labor Day, the population 
swells to more than 25,000, staying in their second homes or local 
lodging. I am proud to live in a place where families come to relax and 
recreate and happily add to the economic development of our community. 
Recreation and tourism are economic staples in this and many of the 
mountain communities in New Mexico and throughout the West.
    We are however, rapidly coming to grips with the challenges that 
threaten the forests of this grand treasure chest. With regard to the 
wildland urban interface, the problem is simple. There are too many 
trees and an increasing amount of people living in close proximity to 
those trees. Is this a problem for the forest? One might consider that 
Mother Nature is already correcting the problem and reducing the number 
of trees through increased incidents of insect infestations, pathogens 
like dwarf mistletoe, and wildfires burning hotter and covering more 
acres per event. Without human intervention and a century of time, 
natural succession will most likely have restored reasonable balance to 
our forests and watersheds. But at what cost?
    The problem, from a community point of view, is for the increasing 
amount of people living in close proximity to those trees, the 
communities the people rely on, the economic security that sustains our 
lifestyles, for those who would provide necessary stewardship of our 
environment, and the elected officials providing leadership. We must 
continue to be smart stewards and forward looking legislators and 
realize it will take 10 to 20 years to restore our forests and get 
ahead of Mother Nature. There are three points I would like to share 
with this committee as we discuss the effectiveness of the National 
Fire Plan and its importance going forward:
1. The collaborative accomplishments of the Federal, State and Local 
        land managers in the Ruidoso area
    An element I am most proud of in terms of collaborative 
accomplishments is a measured increase in public awareness. It's 
relatively easy for land managers to agree on problem identification 
and necessary solutions. Convincing the general public these solutions 
are sound and an example of forest restoration takes solidarity of 
vision.
    The Ruidoso Wildland Urban Interface Group (RWUIG) was created in 
November of 2000 at the request of the USDA Forest Service, Lincoln 
National Forest and the New Mexico Energy, Minerals and Natural 
Resources Department in response to the initiatives of the National 
Fire Plan. This working group meets every month and is hosted by the 
Village of Ruidoso at the Ruidoso Convention Center. The mission of the 
group is to enhance public safety and economic development of the 
community by addressing the challenges of urban interface wildfire 
hazards and general forest restoration.
    This coalition of agencies and entities has established a 
geographical designation called the Ruidoso Wildland Urban Interface 
(see map).* Members include the Lincoln National Forest, New Mexico 
State Forestry, BLM, BIA, Mescalero Apache Trite, Lincoln County, 
Village of Ruidoso, Village of Ruidoso Downs, State Land Office, South 
Central Mountain RC&D, River Association, and local contractors and 
companies (see membership). The group has established four action 
items:
---------------------------------------------------------------------------
    * All attachments have been retained in subcommittee files.
---------------------------------------------------------------------------
          a. Land holding agencies and entities interact and coordinate 
        decision-making through the Unified Command Structure.
          b. Priority projects have been identified and are either 
        ongoing, approved and in line for implementation, or waiting 
        for funding. The idea is that in 3-5 years, when all of these 
        projects are completed, consistent and meaningful treatment 
        will have been accomplished.
          c. A common voice was established by the creation of a 
        committee of individuals from the different agencies and 
        entities that share new information and ideas and project 
        public information with a common theme.
          d. Treatment standards were reviewed and similar treatment 
        prescriptions were agreed upon in general terms. Treatments 
        were divided into ``defensible needs'' (densities around homes 
        target 40 sq. ft. of Basal Area) and ``wildland needs'' 
        (densities target 60-90 sq. ft. of Basal Area depending on 
        vegetation type). The group discussed and agreed that the 
        ``defensible space'' around a structure is best described in a 
        publication by the National Arbor Day Foundation, Nebraska 
        City, NE referred to as Tree City USA Bulletin #41 (see 
        attached). The first zone, 30 feet minimum on flat ground, 
        around a home doesn't need to be clear-cut and can include 
        leisure and activity areas where density is greatly reduced and 
        specie choice and landscape materials must be considered. The 
        Village of Ruidoso offers a forest health, lot assessment 
        service for its residents. The bulletin is a standard handout 
        item at each lot visit. The idea is that the Village along with 
        other agencies are consistent and are providing sound technical 
        advice that reduces wildfire hazard, promotes forest health as 
        well maintaining fun and leisure space.
    This working group is the professional core for planning and 
administration; resource acquisition and grant writing; technical 
assistance; implementation; and public awareness for project proposals 
submitted to the National Fire Plan. Specific projects approved and in 
progress are included in the National Fire Plan Report (see report) 
prepared by the Lincoln National Forest, Southwest Region.
    The key to the success of the RWUIG is the establishment of the 
action items and the commitment of the professionals involved to work 
together.
2. The practical definition of the ``wildland urban interface'' and the 
        importance of continued funding to assist private landowners.
    It is logical and appropriate to consider wildfire preparedness and 
workforce development as a priority given the immediate devastation 
wildfire can bring to a community. Prevention through public awareness 
and fuels reduction is a slower, longer term and equally important 
objective. Generally speaking, a wildland urban interface (WUI) is 
comprised of public land bordering on private land. Neither the trees 
nor the burning fire recognize legal boundaries. Therefore, creating a 
prevention plan for an entire WUI must recognize two scenarios: first, 
fire entering the community from the wildland (public lands) and 
second, fires originating inside the interface (private lands).
    The Los Alamos fire event (Cerro Grande fire) taught us that much 
of the devastation to homes and property inside the interface could be 
contributed to lack of ``defensible space'' around homes. The crowning 
fire that swept across the wildland did considerable damage inside the 
WUI because it ``spotted'' into people's yards and onto their roofs. 
This is apparent when looking at destroyed neighborhoods with green 
trees around burnt homes. An effective prevention plan answers two 
questions:
          1. How to maximize the distance between a ``spotting'' crown 
        fire and structures within the interface.
          2. How to minimize the effect of a ``spot'' fire produced by 
        a crowning fire or a fire that originates within the interface.
    The answer to the first question is to create a buffer of reduced 
tree density which will transform a ``running crown fire'' back to a 
``ground fire'' where suppression efforts can be more effective. Ground 
fires do not ``spot'' like fires burning in the treetops. The answer to 
the second question is to encourage private property owners to create 
meaningful ``defensible space''. This requires education, technical 
support, and financial assistance. It is clear the cost of fuels 
reduction inside the interface is higher than similar treatment in the 
wildland. Removing trees in close proximity to houses, streets, power 
lines, etc. is more costly due to the fact the contractor has more 
liability and careful removal takes more time. A reasonable figure is 
$1000/acre for treatment.
    In FY 01 the Western Wildland Urban Interface Grant (WWUIG) program 
made available $17 million for western states. New Mexico received $1.7 
million to be utilized for cost sharing, private land fuels reduction. 
The Capitan District of NM State Forestry has available $600,000 for 
three communities: $150,000 for Cloudcroft, $150,000 for the Timberon/
Mayhill area, and $300,000 for Ruidoso and Lincoln County.
    In Ruidoso the announcement of the program has produced requests 
for treatment on 3,617 acres. That translates into $3,617,000 of 
request. Education through an aggressive public awareness campaign with 
regard to ``defensible space'' and recent fires has resulted in Ruidoso 
property owners thinning trees and raking pine needles. More than 
30,000 cubic yards of forest debris have been cleared by property 
owners and removed by Ruidoso's pick-up service this year. This debris 
(needle and branch material) is transported to a mulch and compost 
facility for utilization. Within the Ruidoso urban interface there is 
more than 10,000 acres of forested private land. Demand greatly exceeds 
the funding for this program. The WWUIG program is the best (possibly 
the only) conduit to get Federal assistance on the ground for private 
fuels reduction. It is my opinion that this program represents a key to 
saving lives and reducing property damage in any WUI fuels reduction 
program.
3. The relevance of proposed amendments to USDA Forest Service land 
        management plans, with regard to the urban interface, in the 
        Southwest Region
    The USDA Forest Service, Southwest Region is proposing to amend 
land and resource management plans that could greatly increase the 
effect of treatment and accelerate the implementation of fuels 
reduction projects around a WUI. The amendment (see more at 
www.fs.fed.us/r3/wui/index.html) reflects a management emphasis in the 
WUI and modifies certain standards and guidelines to complement that 
management emphasis. In a nutshell, this amendment prioritizes resident 
populations at imminent risk to wildfire in a WUI above some existing 
restrictions imposed by Threatened and Endangered Species (T&ES) 
standards and guidelines. Here's how this could work:

  <bullet> An approximate \1/2\ mile wide strip of Federal land around 
        the WUI would be thinned to 40 to 60 sq.ft. of basal area (this 
        replicates general conditions occurring approximately 200 years 
        ago). If a running crown fire enters this reduced tree density 
        zone, it would be transformed to a ground fire where resources 
        could address it. This treatment will accomplish fire and 
        public safety objectives and is the first step towards forest 
        restoration.
  <bullet> Treatment prescriptions in some areas would dictate removal 
        of material greater than 9" (i.e. the use of the logging 
        industry). Merchantable material removed will reduce industry's 
        reliance on Federal assistance and help to wean the local 
        industry from Federal grant programs.
  <bullet> The Lincoln National Forest is an excellent landscape for 
        demonstration projects and could prove to be a template for 
        successful management strategies. On the Lincoln NF there are 
        numerous Mexican Spotted Owl (MSO) protected activity centers 
        (PACs) and some would be affected. There is speculation that 
        the effectiveness of some of the existing guidelines, in terms 
        of what's best for the MSO recovery, is in doubt. Consultations 
        with US Fish and Wildlife indicate that by opening up the 
        forest (proposed treatment within the owl's foraging area), the 
        populations of MSO prey (small mammals) could increase. This 
        proposed treatment could have the effect of promoting MSO 
        forage and thus increasing the owl population. As a supplement 
        to this proposal, I would strongly recommend dollars be 
        appropriated for extensive monitoring of the known PACs for a 
        minimum of two years following treatment. This gives us the 
        opportunity to gather some fresh data with regard to the effect 
        of treatment.

    This proposed amendment, along with the additional monitoring, 
represents a good opportunity for forest restoration. A best scenario 
indicates this type of treatment prescription could accomplish the 
objectives of increased public safety and recovery of the MSO. From a 
municipal point of view, this is a good example of ``thinking out of 
the box''. The proposed amendment implies that the treatment be 
dictated by ``the science'' to achieve meaningful forest restoration. 
This proposal, if successfully monitored, represents a rare opportunity 
to begin to bridge the gap between the necessary treatment to achieve 
restoration and the legitimate concerns of the environmental community. 
Thank you.

    Senator Wyden. Excellent testimony. I thank you.
    Mr. Nelson.

  STATEMENT OF TOM NELSON, DIRECTOR OF FOREST POLICY, SIERRA 
                PACIFIC INDUSTRIES, REDDING, CA

    Mr. Nelson. Good afternoon, Mr. Chairman. My name is Tom 
Nelson, and I am the director of forest policy for Sierra 
Pacific Industries in Redding, California. My testimony today 
also reflects the views of the American Forests and Paper 
Association, the American Forest Resource Council, the 
California Forestry Association, and the Intermountain Forest 
Association.
    I have some photos that have been included in your packet, 
and there are some larger ones that we are going to set up 
here, with your permission.
    A substantial portion of the national fire plan centers 
upon the effectiveness of fire suppression efforts. I will not 
address this issue, other than to state that fire suppression 
treats the symptoms and not the cause of catastrophic 
wildfires. Instead, my testimony focuses on four issues 
associated with the national fire plan and suggestions for 
addressing them. These issues are:
    One, active forest management, including timber harvesting, 
must be an integral part of fuel reduction efforts.
    Two, there are numerous risks to private forest landowners.
    Three, there are hurdles that must be overcome to implement 
the national fire plan, and
    Four, there is an opportunity to utilize fuels reduction 
material in the production of electrical energy.
    My written testimony goes into much more detail on each of 
these issues than time allows for my presentation today, but I 
would like to emphasize several key points. First, we simply 
cannot continue on the path we have been taking. The disastrous 
effects of wildfires are mounting with each successive year. 
With just two-thirds of the 2001 fire season completed, there 
have been almost 62,000 fires burning over 3 million acres, 
destroying dozens of structures, seriously threatening the 
communities of Jackson, Wyoming, and Weaverville, California, 
and resulting in the deaths of 10 firefighters, costing the 
taxpayers nearly $600 million. That was this year.
    Last year, more than 7.4 million acres burned. This is 
equivalent to a 3-mile-wide swath from Washington, D.C. to Los 
Angeles and back, destroying 861 structures, killing eight 
firefighters, and costing the Federal Government $1.3 billion 
in suppression costs.
    Over the last decade, numerous reports have identified the 
problem we are discussing here today. There is no escape from 
the conclusion of all of these efforts. Our forests are in 
trouble. But most of the reports that indicate a need to change 
avoid entirely, or softly describe, the most important tool 
that can help reduce the threats to our forests--timber 
harvesting.
    We are talking about common sense thinning to reduce the 
overly dense forest conditions that lead to catastrophic 
wildfires, and to show you an example of this, I brought a 
number of photographs taken this summer in the aftermath of one 
of these fires. This is from the stream fire in the Lasser 
National Forest in California. Those are the photos in your 
packet.
    What I would like to point out here, there are two photos 
that show the interior of this fire, and there are no green 
trees there, and there were a number of features that were 
lost. First of all, the aesthetic value was lost. This area is 
immediately adjacent to Antelope Lake, which is a very highly 
used recreational area near Susanville, California.
    Secondly, there were four California spotted owl protected 
activity centers that were burned to a crisp inside here. In 
addition to that, there were two bald eagle areas that had 
active nest sites that were completely destroyed inside this 
fire.
    The second photos I want to show you are on the perimeters 
of this fire. These are areas that were thinned, and the reason 
I am showing you this is that this thinned area was actually a 
commercial timber sale from the mid-nineties. The design of 
this sale was to reduce the fuel-loading and reduce the fire 
risk. That is the point at which they fought this fire and 
contained this fire.
    The Forest Service folks that we talked to in the area said 
that had it not been for this area, it would have been a 35-to-
40,000, maybe 50,000 acre fire that could have gone into the 
city of Janesville in California. Instead, this fire was 3,500 
acres, so it may be anecdotal, but this stuff really works.
    As previously mentioned, millions of acres of national 
forest are at risk for catastrophic fires. Many look just like 
the area around Antelope Lake prior to these photos. Failure to 
treat these unnatural fuel levels dooms forest ecosystems and 
watersheds to catastrophic wildfires that are so devastating it 
will take centuries for them to recover.
    I would like to briefly mention the tremendous risk to 
private landowners that accompany this situation on our Federal 
lands. Sierra Pacific Industries owns and manages over 1.5 
million of some of the most fire-prone forests in the United 
States. I have also attached in your packet a map showing 
ownership patterns in California, specifically the private 
lands owned by our company and the neighboring Federal lands.
    You will note that these two ownerships are intermingled, 
which is very common throughout the Western United States. All 
of my company's management plans have one thing in common. How 
can we protect our forests from catastrophic wildfire? Our 
experiences and observations over the last 20-plus years have 
led to one inescapable conclusion, we must thin our forests to 
significantly reduce the fuel accumulations.
    We recognize we cannot fire-proof our forests, but we can 
reduce the effects of wildfires by reducing the amount of fuel-
loading within our forests, and we routinely do this in an 
economically efficient manner. The exact same conditions and 
response can, and should be implemented on the Federal lands 
that surround or border us.
    There are a number of hurdles to overcome if we are to 
implement the national fire plan. Right now, the national fire 
plan's fuel reduction efforts are no different than other land 
management projects considered by the Forest Service and 
Department of the Interior. They must first go through a 
lengthy and cumbersome environmental analysis process as 
required by NEPA. Given the complexity of the ecosystems 
involved, there is no argument that a professional science-
based analysis must take place to assure that the proposed 
fuels treatment project will meet the needed objectives and not 
adversely affect the environment.
    What we have seen over the decades is that a NEPA process 
is driven more by bureaucracy than the ultimate objectives and 
decisions on the ground. There are other hurdles that I will 
not go into at this time.
    When timber harvesting is used as a part of the solution, 
the opportunity to utilize this excess vegetation to 
manufacture wood and paper products, or even generate 
electricity, means that a portion, if not all of the public's 
cost can be captured. My company currently operates six biomass 
powerplants which produce about 100 megawatts of electricity 
per hour from wood waste, and I will go into that in more 
detail if you have questions about it.
    Mr. Chairman, a very serious problem facing our Nation's 
forests has been identified and needs our immediate attention. 
It affects 72 million acres of Federal forest and places at 
risk millions of private acres and tens of thousands of rural 
communities. We do not need to authorize another study or pilot 
project. Our forests, wildlife, and communities cannot afford 
any more delay. We have the science, the professionally trained 
resource managers, and a workforce ready for the task. What we 
need is leadership to act. We hope that both the administration 
and Congress will provide that leadership in a bipartisan 
fashion.
    Thank you.
    [The prepared statement of Mr. Nelson follows:]
  Prepared Statement of Tom Nelson, Director of Forest Policy, Sierra 
                    Pacific Industries, Redding, CA
                               testimony
    Good afternoon Mr. Chairman. My name is Tom Nelson and I am the 
Director of Forest Policy for Sierra Pacific Industries in Redding, 
California. My testimony today also reflects the views of the American 
Forest & Paper Association, American Forest Resource Council, 
California Forestry Association and Intermountain Forest Association. 
These organizations represent a vast majority of our country's 
forestland owners, wood product manufacturers, and pulp and paper 
products producers, who are committed to sustainable forestry for all 
forestlands, public and private. This is an industry that has sales of 
over $195 billion annually and employs 1.6 million people, more than 
one percent of the U.S. workforce.
    A substantial portion of the National Fire Plan centers upon the 
role, preparedness and effectiveness of federal fire suppression 
efforts including cooperation with state and local fire fighting 
entities. I will not address these issues other than to state that fire 
suppression treats the symptoms and not the cause of catastrophic 
wildfires. No matter how much effort is placed in fire suppression, you 
are only treating the symptoms of the problem, not its cause. 
Substantial efforts must be made to address the underlying cause of the 
problems facing our wildlands and the associated urban interface. My 
testimony focuses on four issues associated with the National Fire Plan 
and suggestions for addressing them. The issues are: active forest 
management, including timber harvesting, must be an integral part of 
fuel reduction efforts; there are enormous risks to private forest 
landowners; there are hurdles that must be overcome to implement the 
National Fire Plan; and there is an opportunity to utilize fuels 
reduction material in the production of electrical energy.
    The focus of my testimony is on sound management practices that 
help promote the long-term sustainability of our nation's public and 
private forestlands. It is imperative that efforts focus on protecting 
forests, wildlife and communities. In order to accomplish these 
important objectives, timber harvesting must be tool available to, and 
used by, the Forest Service and Department of Interior.
Issue #1: Active Forest Management, Including Timber Harvesting, Must 
        Be An Integral Part Of Fuel Reduction Efforts
    Over the last decade, numerous efforts have identified the problem 
we are discussing here today. This committee has heard from witnesses 
today and at previous hearings about the magnitude of this problem and 
what little has been actually accomplished to address it.
    The disastrous effects of wildfires are mounting with each 
successive year. With just two-thirds of the 2001 fire season 
completed, there have been almost 62,000 fires, burning over 3 million 
acres, destroying dozens of structures, seriously threatening the 
communities of Jackson, Wyoming and Weaverville, California, resulting 
in the deaths of ten firefighters and costing the taxpayers nearly $600 
million. Last year, more than 7.4 million acres burned--equivalent to a 
three-mile-wide swath from Washington, D.C. to Los Angeles, California 
and back--destroying 861 structures, killing eight firefighters and 
costing the federal government $1.3 billion in suppression costs. The 
situation has a long legacy of clear warnings and little action 
following the smoke of the last catastrophic wildfires as expressed in 
the following events:

  <bullet> The National Fire Protection Association reported that 
        wildland-urban interface catastrophic wildfires from 1985 to 
        1994 destroyed 9,925 homes.
  <bullet> The National Research Council and the Federal Emergency 
        Management Agency recognized catastrophic wildfires such as 
        those in California in 1993 and in Florida in 1998 as among the 
        defining natural disasters of the 1990s.
  <bullet> The General Accounting Office (GAO) published a report in 
        1999, to the United States House of Representatives, entitled 
        ``Western Forests: A Cohesive Strategy is Needed to Address 
        Catastrophic Wildfire Threats.'' The GAO reported that ``the 
        most extensive and serious problem related to the health of 
        national forests in the interior west is the over accumulation 
        of vegetation, which has caused an increasing number of large, 
        intense, uncontrollable and catastrophically destructive 
        wildfires. According to the U.S. Forest Service, 39 million 
        acres on national forests in the interior West are at high risk 
        of catastrophic wildfire.''
  <bullet> Escaped prescribed burning by the Bureau of Land Management 
        created the Lowden Fire that destroyed 23 homes in Lewiston, 
        California in 1999.
  <bullet> The Forest Service report, entitled ``Protecting People and 
        Sustaining Resources in Fire-Adapted Ecosystems: A Cohesive 
        Strategy,'' was published in 2000. The Forest Service reported 
        ``the current condition of many of the western region's forests 
        renders them susceptible to insect attack, disease outbreak and 
        severe wildfires. This situation is becoming more widely 
        recognized as the most serious threat to these forests'' long-
        term health, resilience and productivity.''
  <bullet> Escaped prescribed burning by the Department of Interior 
        created the Cerro Grande Fire that consumed 48,000 acres and 
        destroyed 400 homes with losses exceeding $1 billion in Los 
        Alamos, New Mexico in 2000.
  <bullet> The Congress appropriated an unprecedented $2.9 billion in 
        funding for the Departments of Agriculture and Interior's land 
        management agencies to prepare for firefighting efforts and 
        take proactive steps to reduce fire risk on all federal lands 
        in 2000.
  <bullet> The GAO testimony entitled ``The National Fire Plan: Federal 
        Agencies Are Not Organized to Effectively and Efficiently 
        Implement the Plan'' was delivered to the House Resources'' 
        Subcommittee on Forests and Forest Health in 2001. The GAO 
        reported that ``conditions on 211 million acres, or almost one-
        third of all federal lands, continue to deteriorate and that 
        the list of at-risk communities ballooned to over 22,000.''
  <bullet> The Western Governors Association (WGA) released its 
        ``Collaborative Ten-Year Strategy for Restoring Health to Fire-
        Adapted Ecosystems'' in 2001. The plan would emphasize 
        preventing catastrophic blazes instead of just fighting them.

    There is no escape from the conclusion of all these efforts--our 
forests are in trouble. Most of the reports that indicate a need to 
change avoid entirely, or softly describe, the most important tool that 
can help reduce the threats to our forests--timber harvesting. We are 
talking about common sense thinning to reduce the overly dense forest 
conditions that lead to catastrophic wildfires and destroy important 
ecosystems.
    The practice of thinning to reduce the potential for stand 
replacing crown fires works. Everyday, our foresters see more and more 
examples of the efficiency of thinning to effectively reduce the 
effects of catastrophic wildfires and substantially aid in the success 
of firefighting operations. In California near our land, the Goat Fire, 
Stream Fire, and many others are recent examples of the role thinning 
of forests plays in fire control successes. Harvesting of trees played 
a major role in containing and reducing the effects of each of these 
wildfires.
    The condition of the forests determines the risk of catastrophic 
wildfire and ignoring overcrowded forests along with the large 
component of dead and dying trees is clearly a prescription for 
disaster. As described above, millions of acres of national forests are 
at risk for catastrophic fires. As the GAO reports, ``timber harvesting 
may make useful contributions to reducing accumulated fuels in many 
circumstances.'' \1\ Further, a Forest Service research report states, 
``well-thinned, relatively open areas scattered across the landscape, 
interspersed with denser, less intensively managed areas, would provide 
a wide array of wildlife habitat, and would be a forest less prone to 
large-scale catastrophic wildfire.'' \2\ In addition, as noted in the 
``Sierra Nevada Ecosystem Project Report,'' ``when slash is adequately 
treated and treatments are maintained, logging can serve as a tool to 
help reduce fire hazard.'' \3\ Failure to treat these un-natural fuel 
levels dooms forest ecosystems and watersheds to catastrophic wildfires 
that are so devastating that it will take centuries for them to 
recover.
---------------------------------------------------------------------------
    \1\ Ann Bartuska, Letter to John Talberth, November 6, 2000.
    \2\ Dahms and Geils, 1997.
    \3\ Ann Bartuska, Letter to John Talberth, November 6, 2000.
---------------------------------------------------------------------------
    In some cases, depending on local conditions, hazardous fuel 
reduction through prescribed burning or other means may be more 
effective than timber harvesting. However, in most areas of the West, 
the most effective and cost-efficient method to reduce fuels includes 
timber harvesting, and this tool should remain available to the Forest 
Service and Department of the Interior for reducing hazardous fuels. 
Furthermore, when timber harvesting is used as part of the solution, 
the opportunity to utilize this excess vegetation to manufacture wood 
and paper products or even generate electricity means that a portion, 
if not all, of the public's cost can be captured. This would allow for 
treating more acres within the budget limitations, providing economic 
opportunities for rural forest communities, while utilizing material 
that would otherwise simply go up in smoke. SPI and the associations 
supporting my testimony respectfully suggests that language should be 
included in the National Fire Plan and in relevant related documents 
specifically stating that timber harvesting is a tool available to the 
Forest Service and Department of the Interior to maintain and improve 
forest health.
Issue #2: There Are Enormous Risks To Private Forest Landowners
    SPI manages over 1.5 million acres of some of the most fire prone 
forests in the United States. All of our management plans have one 
thing in common--how can we protect our forests from catastrophic 
wildfire losses. Our experiences and observations over the last 20 plus 
years have led to one inescapable conclusion--we must thin our forests 
to significantly reduce the fuel accumulations. We rely on existing 
authorities of the California Forest Practices Act, the underlying 
science of fire management, our experiences, and the professional 
judgment of our foresters when we develop site specific harvesting 
plans to protect our forests. We are confident that our efforts in 
thinning and fuel reductions are effective in reducing the threats and, 
most importantly, they are developed in an economically efficient 
manner.
    We recognize that we cannot ``fireproof'' our forests. But we can 
reduce the effects of wildfires by reducing the amount of fuel loading 
within our forests. Our principles are simple--open the canopy of the 
forest by thinning and reduce the potential for the most devastating of 
fires, crown fires. On areas nears roads and ridges where we logically 
fight fire, our fuel reduction efforts remove the largest amount of 
vegetation and trees. This allows fire fighting forces a chance to 
control the fire, improve the effectiveness of air attack and fire 
retardant applications and control ``backfires'' when they are 
necessary for wildfire control. As we move beyond these obvious defense 
zones, we thin our forests and leave more trees to achieve a balanced 
goal of reducing the potential for crown fires while maintaining 
adequate growth rates on our thinned stands.
    We can only do so much on our own lands. The greatest threat comes 
from the fact that our ownership, like so many other private forest 
landowners, is interspersed with federal lands which are in need of 
fuels reduction. I have attached a map showing ownership patterns in 
California--specifically, the private lands owned by our company and 
the neighboring federal lands. You will note that these two ownerships, 
as is common throughout the Western United States, are intertwined and 
intermingled. Private forest products companies, like ours, as well as 
non-industrial forest landowners have aggressively tried to reduce the 
risks for catastrophic wildfires on their own holdings for many years, 
largely through the use of thinning. However, these efforts cannot be 
effective without the cooperation of our federal neighbors, since 
wildfires do not recognize property boundaries.
    According to the Forest Service, most of the 72 million acres of 
National Forest System lands at risk of uncharacteristic wildfire are 
not in the wildland-urban interface.\4\ However, because of limited 
resources, hazardous fuel reduction in many of these areas will be 
deferred for years. Accumulation of fine ground fuels and encroachment 
of shrubs and other vegetation beneath dominant canopies will continue. 
As a result, the likelihood of severe fire behavior in these areas will 
escalate. The forest industry is very worried about this situation, 
since these areas are precisely where our property is adjacent or 
intermingled.
---------------------------------------------------------------------------
    \4\ Lyle Laverty, USDA Forest Service National Fire Plan 
Coordinator, Statement before the House Subcommittee on Forests and 
Forest Health, March 8, 2001.
---------------------------------------------------------------------------
    The number of acres of public land that require hazardous fuel 
reductions far exceeds the number of acres treated by the federal land 
management agencies. The Forest Service's and Department of the 
Interior's hazardous fuel reduction efforts have not kept pace with the 
steady increase in over-accumulation of vegetation, outbreaks of insect 
infestations and disease, and accumulation of fine fuels even though 
these efforts have steadily increased over the past decade. The Forest 
Service estimates that 72 million acres of the land it manages is at 
risk of catastrophic wildfires and at the current pace of treatment, it 
will take more than 30 years to treat the existing areas.
    About $120 million of the Fiscal Year 2001 Interior Appropriations 
was directed to alleviate immediate threats to urban-wildland interface 
areas. To help stretch appropriations for hazardous fuel reduction 
work, efforts will be made to ``match, where possible, joint projects 
with state cooperators.'' \5\ However, as one representative of the 
National Interagency Fire Center noted, community representatives are 
concerned there is no guarantee the federal government will continue to 
provide needed funding for their projects and, thus, communities worry 
they will be left to pay the entire cost of hazardous fuels reduction 
work.
---------------------------------------------------------------------------
    \5\ USDA Forest Service National Fire Plan: Action and Financial 
Plan--Title IV Funding, http://www/na.fs.fed.us/nfp/pa/financial--plan/
overview.htm, Accessed 2/22/01.
---------------------------------------------------------------------------
    Throughout the West, private landowners, state fire experts, and 
rural communities are poised and ready to implement management 
activities that will reduce the potential risks of devastating 
wildfires like we witnessed last summer in Montana and Idaho. A good 
example of this is the State of California's program to implement Fire 
Safe Councils in rural counties. The forest products industry strongly 
supports these efforts. To help achieve their goals, all of the major 
forest landowners in the Sierra Nevada region signed a memorandum of 
understanding to implement a series of interconnected defensible space 
to fight fires last year. We believe that this type of partnership 
between private forest landowners, the State, and local county 
officials is the most effective way to combat the inherent dangers to 
the 72 million acres now at risk within our National Forest System 
lands. But this cannot, and will not, occur without the key player at 
the table--the federal land managers.
    Reversal of fuel conditions cannot occur overnight. Clearly, 
however, there is an urgent need to prevent fuel conditions from 
advancing at their current pace. It is not enough to provide funding 
for additional fire fighters and equipment. SPI and the associations 
would request increased appropriations in the next several fiscal years 
for hazardous fuel reduction efforts in areas at high risk of 
catastrophic wildfires. Additionally, we respectively request that the 
appropriation language recognize and emphasize funding collaborative 
partnerships with owners of in-holdings, state foresters, and other 
entities who have established strong programs to reduce the threats of 
catastrophic wildfires and are pursuing long-term fuels treatment 
strategies.
Issue #3: Hurdles To The Implementation Of The National Fire Plan
    The National Fire Plan's fuels reduction efforts are no different 
than other land management projects considered by the Forest Service 
and Department of Interior--they must first go through a lengthy and 
sometimes cumbersome environmental analysis process as required by the 
National Environmental Policy Act (NEPA). Given the complexity of the 
ecosystems involved, there is no argument that a professional, 
scientific-based analysis must take place to assure that the proposed 
fuels treatment project will meet the needed objectives and not 
adversely affect the environment.
    But what we have seen over the decades is a NEPA process that is 
driven more by bureaucracy than the ultimate objectives and decisions 
on the ground. As a result, the project planning process takes years, 
tends to be very redundant, with little or no innovative thinking. The 
NEPA process has become an impediment to professionally planned and 
executed land management projects and the entire NEPA process, as well 
as individual agency regulations and policies, must be re-examined.
    In today's reality, very few land management projects, especially 
if they involve the cutting of trees, are implemented without first 
going through an administrative appeals process or litigation. Appeals 
and lawsuits take an enormous amount of time and effort, and often 
delay the implementation of a project for years. In most cases, a 
successful challenge can be traced to simple procedural mistakes and 
not the merits of the final decision. Often agency managers report that 
the NEPA process discourages innovation and professional decision-
making because it focuses on procedures and not the substance of 
decisions.
    Given the critical forest health situation facing millions of acres 
of our western forests, special rules or exemptions must be authorized 
so that the land management agencies can quickly treat these 
overstocked and fire prone forests. The environmental consequences of 
not treating these areas in a timely fashion, resulting in the 
destruction of thousands of acres due to an uncontrolled wildfire, must 
be part of the environmental assessment and decision-making process.
    The NEPA process is complicated by the jurisdiction of the 
President's Council on Environmental Quality (CEQ) over the underlying 
NEPA procedures of agencies. CEQ must examine its rules and the 
agencies must examine their procedures and policies to ensure they are 
part of the solution to the wildfire crisis, and do not remain a 
significant part of the problem. Regardless of whether the CEQ and the 
agencies revise the regulations or policies, there needs to be better 
utilization of categorical exclusions, emergency stay or appeal 
exemptions, and expedited procedures. There must be recognition of the 
fact that a ``no action'' alternative does indeed have serious and 
significant effects. Without these changes, more money will be spent in 
planning and assessing a project than will be realized by the land 
management activity on the ground.
    In many areas in the west, due to the number of endangered species 
listings, Endangered Species Act (ESA) Section 7 consultation on land 
management projects, including fuels reduction activities, has become a 
real bottleneck. Since the existing Section 7 regulations were put in 
place in 1986, the National Marine Fisheries Service (NMFS) and U.S. 
Fish & Wildlife Service (FWS) have been asked to conduct nearly 300,000 
consultations, with a dramatic increase in the numbers in the last 
several years. The first cause of this bottleneck has been a shortage 
of personnel to perform the consultations. A special appropriation this 
year to supplement the agencies'' budgets for National Fire Plan 
support should help, but it is like buying more fire trucks, it treats 
the symptoms and not the cause.
    One real fix is to address the Section 7 consultation problem, 
which is shifting more of the assessment responsibility to the land 
management agencies. A review of the Section 7 consultations finds that 
less than 1 percent resulted in a jeopardy opinion by either NMFS or 
FWS. Given this extremely low risk, changing the threshold at which the 
land management agencies are required to enter into formal consultation 
from a ``may affect'' to a ``likely to affect'' threshold would seem 
like a logical proposal. This would free up personnel in both the land 
management and regulatory agencies for review of activities with the 
much higher risks to listed species and would also allow them to get 
out of the office and focus on efforts to protect and enhance the 
species at risk.
    Another fix could be to reorganize responsibilities for ESA between 
NMFS and FWS. Currently in the West, it is common for land management 
agencies to consult with both NMFS and FWS on the same project, 
involving the same stream segment, but involving different species--
anadromous and resident fishes. One proposal is to have the 
responsibility for ESA compliance for anadromous fish shift from NMFS 
to FWS when they are present in fresh water. Admittedly, this is a 
complex proposal and would require legislation.
    Existing regional land management plans and policies can also be 
impediments to the implementation of the National Fire Plan. Whether it 
is the Northwest Forest Plan affecting 24 million acres in Washington, 
Oregon and Northern California or the Sierra Framework Plan affecting 
the remaining national forests in California, regional land management 
plans lack flexibility for project planning to address actual on-the-
ground circumstances. Allocating areas to ``no treatment'' with the 
objectives of providing habitat for listed species ignores the reality 
that the listed species are at great risk of losing critical habitat to 
a catastrophic wildfire. In fact, the Sierra Framework's selected 
alternative actually places more old growth forests at risk than other 
alternatives, which aggressively treat the dense, overstocked forests 
currently at risk.
    The PACFISH, INFISH and Eastside Screen interim land management 
policies also directly affect the ability to the land management 
agencies to treat excessive fuel buildups and suppress wildfires. These 
interim policies limit the size, number and location of trees that can 
be cut without allowing site-specific professional determinations based 
on the specific ecosystem conditions. It also appears that guidelines 
of the PACFISH and INFISH management policies severely restrict 
firefighting personnel from dropping fire retardant within 300 feet of 
(and dipping water from) streams that are inhabited by listed fish 
species. These short sighted guidelines have resulted in wildfires 
growing larger than necessary, and in some cases totally destroying the 
fish habitat they were intended to protect.
    The ultimate solution to addressing the hurdles affecting the 
implementation of the National Fire Plan is for the Administration to 
designate a senior official to coordinate its implementation. We feel 
that CEQ is the best place for this leader to be located. As I have 
described, CEQ has the responsibility for overseeing NEPA and could be 
empowered to facilitate coordination between departments and agencies. 
Without this kind of leadership, agencies will continue to operate 
under their own visions and directives. Clearly CEQ could address the 
problems with NEPA and facilitate the use of categorical exclusions, 
emergency stay or appeal exemptions, and expedited procedures. The 
Council could also provided the leadership and coordination for dealing 
with challenges to fuels reduction projects. They could also facilitate 
a more workable Section 7 consultation process and coordinate 
consistent and timely products from NMFS and FWS. Finally, CEQ could 
coordinate changes to regional land management plans and policies that 
would result in professional, science-based decisions at the project 
level that address the conditions present on the ground. SPI and the 
associations believe that the failure to have this kind of leadership 
will result in more acres burned by catastrophic wildfires, destroying 
not only productive forests, but also wildlife and fisheries habitat, 
and rural communities.
Issue #4: Utilizing Fuels Reduction Material To Produce Electrical 
        Energy
    For years now, forest product manufacturers and others have been 
generating electricity from wood waste, or biomass. While the 
operations have been small, limited in their geographic distribution 
and most cases for internal use, the technology is clearly available 
and proven. Northern California has twenty (20) operating biomass-
fueled electrical generation facilities with the ability to produce 
over 375 megawatts of power per hour for sale into the California 
electrical market, and several additional facilities currently shut 
down but capable of being re-started. SPI operates six (6) such 
facilities as part of our integrated operations with the ability to 
produce approximately fifty (50) megawatts of power per hour available 
for sale.
    Given the fact that millions of acres are in dire need of treatment 
to reduce unnatural accumulations of small trees and that much of this 
is too small to be utilized in the manufacturing of lumber products, 
there is a perfect opportunity to utilize this material to generate 
electricity. Currently, over two-thirds of the biomass-fueled electric 
power is generated from forest-related activities, which includes: 
slash, brush & tops associated with timber harvesting activities; bark, 
chips and sawdust from forest products manufacturing processes; and 
small diameter material derived from thinning overly-dense forests 
identified as being at great risk to wildfire. Some have commented that 
there could be a biomass power plant associated with each ranger 
district on our western national forests.
    Let's now focus our attention on the opportunity to meld our 
National Fire Plan with the National Energy Policy. Assume that just 
half of the 72 million acres of national forest lands at risk to 
catastrophic wildfires are available to be managed and that these acres 
have the potential of producing approximately 50 tons of biomass per 
acre. With some simple and conservative assumptions, this material 
could generate enough electricity to supply over 8,000,000 homes per 
year with power. This doesn't include other potential biomass fuel 
sources from private lands, state lands, tribal trust lands, lumber 
manufacturing residuals, and other sources still to be identified.
    Promoting biomass electric power generation is not only fiscally 
sound, but also environmentally and socially beneficial. In 1999, the 
Department of Energy published an independent research report entitled 
``The Value of the Benefits of U.S. Biomass Power,'' which compared the 
impacts of biomass energy production with the most probable alternative 
fate of the residuals described above. The report also looked at the 
values of non-energy benefits resulting from biomass power production 
such as: air pollutants; greenhouse gas emissions; landfill use; forest 
and watershed improvement; rural employment and economic development; 
and energy diversification and security.
    Some specific societal benefits from the utilization of biomass for 
power generation includes:

  <bullet> Alternative To Open Burning--Without the biomass energy 
        sector, large amounts of woody biomass were consumed by either 
        wildfires, prescribed fires or field burning. While an 
        alternative market exists for this material, millions of tons 
        of this waste are consumed in power generation facilities 
        equipped with sophisticated emissions control devices (rather 
        than burned in the open with uncontrolled air emissions).
  <bullet> Greenhouse Gas Emissions--Healthy forests have the ability 
        to actively store a major greenhouse gas--carbon dioxide. The 
        biomass retrieved from forest thinning operations not only 
        improves forest health (and therefore carbon sequestration) but 
        also represents a power generation alternative to the burning 
        of fossil fuels for power. Furthermore, the alternative (open 
        burning of this material described above) produces large 
        amounts of CO<SUP>2</SUP> emissions.
  <bullet> Rural Jobs--Employment associated with biomass energy plants 
        is significant, especially in rural areas where these plants 
        are typically sited. Activities such as harvesting, collecting, 
        processing and transporting wood waste to the power plants 
        requires skilled workers who earn relatively high wages. Highly 
        skilled technicians are required to operate and maintain the 
        power plants. The plants also contribute to the local economy 
        through payment of property taxes.
  <bullet> Community Protection--Communities located in forested 
        regions, especially those adjacent to national forest system 
        lands, are at significant risk due to the unnatural 
        accumulation of forest fuels and for that reason the National 
        Fire Plan's priority is to treat those areas first. When 
        considering the work to be accomplished under the National Fire 
        Plan, the ability to utilize biomass material could easily 
        reduce the cost of the treatment, allowing for significant 
        taxpayer savings.
  <bullet> Energy Diversification--Biomass electricity production 
        provides a renewable energy alternative to the use of non-
        renewable energy sources such as oil, gas and coal. Use of 
        renewables represents an opportunity to diversify our energy 
        portfolio.

    In a market economy, one would assume that with the great potential 
and benefits described above, that there would be an abundance of 
biomass power facilities on line or under construction. Unfortunately, 
this is not the case. This is primarily due to the fact that benefits 
of biomass as a clean, renewable energy source are extremely hard (if 
not impossible) to quantify in market terms. It is very difficult to 
assign market values to forest fuel reduction when the benefits are 
clean air, watersheds, wildlife habitat and other environmental 
benefits. Finally, much of the potential fuel supply is located on 
lands that are under public ownership and therefore, tend to operate 
outside the marketplace. For these reasons, we believe an appropriate 
role for the federal government is to make commitments and support an 
opportunity with such great net public benefits.
    Impediments--there are four categories of impediments to an 
expansion in biomass energy production that need to be addressed:

  <bullet> Fuel Supply--there must be a commitment to a long-term 
        supply of biomass (at least 10 years), through innovative 
        government contracting and congressional appropriations, so 
        that investments into facilities are worth the risk.
  <bullet> Regulatory Relief--there needs to be some relief from the 
        lengthy process of obtaining the required permits to construct 
        and operate a facility, especially clean air permits. For SPI 
        to construct additional biomass electricity power plants, we 
        must work through a horrendous maze of federal, state and local 
        regulatory processes that routinely takes several years.
  <bullet> Long Term Power Purchase Agreements--there needs to be an 
        opportunity to sell the power into local and regional 
        transmission grids at rates that encourage investment of 
        private capital in biomass energy facilities. There must also 
        be some assurances that the energy producer is paid for what 
        they produce and sell. For example, our company (SPI) was 
        caught with a significant balance due from Pacific Gas & 
        Electric last year when they filed for bankruptcy.
  <bullet> Tax Credits or Grants--there needs to be some sort of 
        upfront tax incentives or grants to construct and operate these 
        facilities in locations close to the biomass supply and in 
        rural communities lacking the needed infrastructure.

    An opportunity to marry the National Energy Policy with the 
National Fire Plan is not only good energy, forestry and fiscal policy, 
but also good environmental policy. It will take at least a decade to 
get new fossil fuel, hydroelectric and nuclear energy on line, so we 
need a bridge to close that gap. If not, history has shown us that 
mother nature will consume these excess forest fuels, leaving in her 
wake destroyed homes, wildlife habitat and forest ecosystems that will 
require millions of dollars and decades to repair. SPI and the 
associations feel that the opportunity is clear--produce clean 
affordable and renewable electricity from the nation's forests, while 
supporting economic diversification of rural communities.
                               conclusion
    Mr. Chairman, a very serious problem facing our nation's forests 
has been identified and needs our immediate attention. It affects 72 
million acres of our federal forests and places at risk millions of 
private acres and tens of thousands of rural communities. We don't need 
to authorize another study or pilot project--our forests, wildlife and 
communities can't afford any more delay. We have the science, the 
professionally trained resource managers and a workforce ready for the 
task. What we need is leadership--leadership to act. Our expectation is 
that both the Administration and Congress will provide that leadership, 
in a bipartisan fashion, to address the hurdles, provide the funding 
and meet the challenges of improving forest health, enhancing wildlife 
habitat, protecting rural communities and utilizing this excess forest 
fuel to manufacture wood products, produce paper goods and generate 
electricity that are so important to our nation's economy.
    This concludes my prepared remarks, I would be glad to answer any 
questions you or the subcommittee may have for me regarding this 
important issue.

    Senator Wyden. Thank you, Mr. Nelson.
    Mr. Woods.

     STATEMENT OF TRENT WOODS, SAVE ELK CITY, ELK CITY, ID

    Mr. Woods. Thank you, Mr. Chairman. My name is Trent Woods. 
My wife, Marilyn is with me, and I am going to ask her to put 
some slides up, or some pictures up for me. She did not count 
on doing that, so I am not sure this is going to work out very 
well.
    In my written testimony, there are a number of pictures 
that I have used to illustrate some problems that we have in 
Elk City, and Elk City is a community that is located near the 
geographical center of the Nez Perce National Forest. It is a 
forest that completely surrounds us, and it is an integral part 
of our lives. We have grown up in it, we have used it, we have 
enjoyed its boundless beauty, its pristine waters, its wildlife 
habitat, and its renewable resource production. Because of 
these things, we also try to protect it.
    In Elk City we have a nonprofit corporation called Framing 
Our Community that is a partner with the group that you 
probably are familiar with in Oregon called Sustainable 
Northwest. We share with them their motto, Healthy Forests, 
Healthy Communities, and this is our guiding light. We are 
therefore truly grateful for your genuine concern for long-term 
forest health and pledge our support to you for your endeavors 
wherever we can.
    Before I get to the pictures, I might just mention that 22 
years ago I and three others from Elk City sat in front of 
Congressman Cyberline's National Resources Committee, and this 
is where the Save Elk City button comes from, and we talked 
about a lot of these same issues, and the issues at that time 
revolved around the establishment of the Frank Church River of 
No Return Wilderness.
    That issue specifically was establishing the boundaries of 
that wilderness, and the designated areas for multiple use. We 
naively thought we had resolved the majority of these issues in 
a peaceable manner, when approximately one-half of our forest 
was placed into wilderness and one-half was excluded for 
multiple use. Had the legislative intent attached to that 
legislation been followed and enforced, I doubt that we would 
be here today.
    I want to talk about some rather local problems. You have 
heard about a lot of things in general about forests, and I 
have to be very local in my remarks, and it is a little bit 
different because our forest is predominantly lodgepole pine in 
this Elk City area and in the Red River ranger district. The 
lodgepole pine has a particular problem that is becoming 
predominant right now, and that is the mountain pine beetle, 
which normally is a vital part of the lodgepole forest in that 
it attacks the weak trees, weeds out in a natural selection 
process.
    It does this by entering into the bark of the tree, 
carrying a fungus into the sapwood called a blue fungus, which 
blocks food transport in the tree, and then feeding in the 
cambium of the tree and laying eggs, where the offspring then 
girdle the tree in the cambium layer and thus kill the tree.
    Now, what happens is that the first year that the tree is 
attacked, it stays green. We have a picture--that will work. 
That will work. The one behind you is a better one, but that 
will work right there. Here you see a group of trees that are 
already brown that were attacked last summer. All of the trees 
around that, that are green, are already dead. Essentially, 100 
percent of the trees in that area are dead trees. Now, next 
year they will all be brown.
    Now, each one of those trees with all of the dead needles 
that are supported in the top of it are almost like dynamite. 
They will burn just unstoppable.
    The question is, why are so many trees affected, and the 
answer is that since it attacks the weaker trees, it is pretty 
obvious that we have almost 100 percent weak trees here, and 
they are primarily weakened because the stands are too dense. 
We also have other things such as root rot and various other 
things that will affect this, but the density of the stands is 
the big culprit.
    In 1982, the Forest Service recognized this problem, and 
there was a special appropriation made to hire additional 
foresters on the Red River District. They built additional 
housing, and then along came packfish. Right now, that district 
is shuttered and closed. Nothing is being done, and nothing has 
been done with the exception of one thinned area, which was 
done in 1985.
    The reason to use this is to show you that in the area that 
was thinned there are no dead trees. Now, it may burn, as some 
have suggested, but it is going to be a lot later in life 
before that one burns.
    Now, fortunately, we do have some rather inexpensive ways 
to at least alleviate this problem. We have many miles of roads 
that are already in the area. The easiest thing to do is to 
remove lodgepole pine that can be reached from existing roads. 
It means almost zero environmental impact. It would create 
numerous jobs in a county that has had double-digit 
unemployment for years and years. I think that if there ever 
was a win-win situation, it is right now.
    Now, there are other issues that I have talked about in the 
presentation that you have, but the main thing that I would 
like to emphasize is that we have 150,000 acres of trees that 
next summer will be essentially dead standing timber, and it is 
amazing how much is going to be dead. You will not see a green 
tree out there, and something needs to be done right now.
    My time is up, and I will stop at that point.
    [The prepared statement of Mr. Woods follows:]
     Prepared Statement of Trent Woods, Save Elk City, Elk City, ID
    Chairman Senator Wyden and committee members, my name is Trent 
Woods and this is my wife Marilyn. We bring you greetings from the 
great State of Idaho, and more particularly, from the remote mountain 
village of Elk City. We are a community located near the geographical 
center of the Nez Perce National Forest. The forest completely 
surrounds us and is an integral part of our lives. We have grown up 
with it, we have used it, we have enjoyed it's boundless beauty, it's 
pristine waters, it's wildlife habitat, and it's renewable resource 
production. Because of these things we also try to protect it, which is 
why we are so happy to see some action in this body to become concerned 
with fires and forest health. We have been at a point where we thought 
that nobody else truly cared about whether our forest lived or died, 
and all the pristine waters along with it. The idea that we humans 
should evacuate to the urban areas and leave the forests unattended has 
been promoted in same venues. The philosophy of ``LET IT DIE, LET IT 
BURN, IT IS GOD'S PLAN'' is a terribly misguided philosophy with tragic 
consequences. We happen to think that we humans are also part of God's 
plan and that we were put here to use our brains and our brawn to 
become a useful part of the plan.
    In Elk City we have a non-profit corporation called ``FRAMING OUR 
COMMUNITY'' that is a partner with the Oregon based group known as 
``SUSTAINABLE NORTHWEST'' and share with them the motto ``Healthy 
Forests, Healthy Communities''. That is our guiding light and we are, 
therefore, truly grateful for your genuine concern for long term forest 
health and pledge our support for your endeavors wherever and whenever 
appropriate.
    Realizing that your scope is national in nature and that you will 
be receiving input from many different areas, we don't know how we 
might fit into the completed puzzle but we do know that we are 
certainly a piece of the final picture. I don't know that our 
particular problems are common to all but I suspect that to be true. We 
don't have time to go into all of our concerns but I will try to show 
you some of the most pressing, most critical problems. Let me preface 
the following remarks by telling you that 22 years ago I, and three 
others from Elk City, sat in front of Congressman Seiberling's Natural 
Resources Committee discussing these same concerns in a different 
issue. That issue was the resolution of the boundaries of the Frank 
Church River of No Return Wilderness and the designated uses of the 
areas specifically excluded from the Wilderness. We naively thought we 
had resolved the majority of the issues in a peaceable manner when 
approximately \1/2\ our forest was placed into the Wilderness and \1/2\ 
was excluded for multiple use. Had the legislative intent attached to 
that legislation been followed and enforced we would not be here today.
    I want to show you some pictures to illustrate very dramatically 
some of the problems that have resulted from the present day forest 
management practices. Practices that have cone about from many outside 
influences.
    The first picture is of a small insect known as the Mountain Pine 
Beetle. This insect is a natural component of the lodgepole pine timber 
that dominates a significant portion of our local area. Under normal 
conditions it serves a useful purpose in a natural selection process of 
ridding the forest of weak or undernourished lodgepole pine trees. It 
attacks the trees in early summer by boring into the cambium layer 
beneath the bark, infecting the vertical food paths of the sapwood with 
a blue fungus that blocks the food transport, then feeds vertically in 
the cambium, laying eggs along the way. Over the next few months, the 
offspring girdle the tree by feeding horizontally around the tree, 
destroying the cambium and killing the tree. This is a one year cycle 
so that a tree that has been ``hit'' this summer will still exhibit 
green foliage but, in fact, it is for all practical purposes already 
dead. The needles will not turn reddish brown until the following 
summer. The blaze area shows a beetle in the center and the white spots 
in the surrounding bark area are entry points for other beetles.
    This next picture shows the effects of beetle infestation from one 
year ago, as evidenced by the red needles, and the trees infested this 
summer that are still green. Next summer every tree in this picture 
will be brown.
    In both of the following pictures the mature trees are essentially 
100% dead, although many are still green, but in the foreground you 
will note a vigorous young stand of lodgepole and ponderosa pine. These 
are the results of a previous ``clearcut'' that is ostracized by so 
many but still remains a viable option in certain limited 
circumstances.
    The question arises ``Why are so many trees affected if the beetle 
is a desired part of the natural selection process?'' Since the beetle 
primarily attacks the weaker trees it becomes apparent that all of 
these trees have been weakened and the primary reason is that the 
stands are too dense. Not enough nutrients to support the wood mass 
that is present. Other conditions, such as over maturity, drought, or 
root rot, are contributing factors but stand density is the big 
culprit.
    The NPF Red River Ranger District is predominantly lodgepole pine. 
The overstock situation was recognized many years ago and in the early 
1980's a special appropriation was made to increase staffing and 
facilities to implement a major thinning and harvesting program. The 
facilities were built and the process commenced. This picture is an 
example of what resulted from one of their 1985 thinnings. Please note 
that no dead trees are evident.
    Unfortunately for our beautiful forest, along came PACFISH the 
ranger station that had been in existence since the early part of the 
century was closed, the program came to a halt, and the fuel load began 
to build for a potentially catastrophic fire. One that not only would 
destroy all the vegetation and wildlife habitat but would also destroy 
the clear flowing streams and the salmon and steelhead fisheries 
therein. The current productivity of the streams is illustrated here by 
a few of this year's salmon run that have spawned, completed their 
lifecycle, and are now feeding nutrients back to the stream where their 
life began.
    The problem of dying lodgepole is enormous, running well over 
150,000 acres in the Elk City area alone. It surrounds our community 
and has the potential of destroying our homes, our businesses, and 
economically affecting the whole State. In addition, there exists a 
serious safety hazard from falling trees to anyone entering into the 
forest. A Forest Service consultant recently told me that before 
entering a stand for survey purposes, they first determine an exit path 
in case the wind increases while they are in the timber. A little wind 
and the trees fall like dominoes. IT IS EXTREMELY CRITICAL THAT 
IMMEDIATE ACTION BE TAKEN TO ALLEVIATE THESE PROBLEMS.
    Fortunately, some actions could be initiated now with little 
effort. There are many miles of existing roads through and around the 
affected area. A large portion of these roads provide immediate access 
to thousands of acres of trees that beg to be removed. These are 
pictures alongside one such road. The removal of infected trees that 
are totally within reach of the roadway would have zero negative 
environmental impact and would be of huge benefit to the forest. These 
trees should be removed now to protect the still healthy undergrowth 
and while some commercial value still exists. Numerous jobs would be 
created in a county that has experienced multiple years of double digit 
unemployment. If ever a win/win situation occurred, it is here and now.
    Due to time constraints, many issues have not been presented here. 
This is just the tip of the iceberg but I hope it is apparent from what 
I have presented that the forest problems in our area are now, they are 
critical, and to do nothing at this point, as has been the ongoing 
practice, would be devastating to our natural resources and to our 
nation. Among other things, we must:
          1. Immediately remove fire and safety hazard timber
          2. Restore foresters to our Forest Service
          3. Restore morale in the Agency
          4. Restore common sense to the decision making process
          5. Eliminate endless appeals to every decision
          6. Demand that forest health not be further imperiled by tire 
        ESA.
          7. START NOW AND NOT TOMORROW
    I thank you for the opportunity to be here today and, for all my 
friends back home, I thank you for bringing the problems of our 
national treasures to the attention of all Americans.
    GOD BLESS AMERICA.

    Senator Wyden. Mr. Woods, thank you.
    This has been an excellent panel, and probably what you all 
have done is illustrate in a half-hour or so the primary 
challenge ahead of us, and what I really want to accomplish on 
my watch. I mean, this is my first hearing as chairman of this 
subcommittee. I have worked closely with Senator Craig for 20 
years, and I think we showed with the county payments bill that 
you could find some ways to take people from very, very 
polarized positions and come up with practical solutions, and 
Mr. Woods mentions the win-win situation.
    I am convinced, if we cannot on a bipartisan basis find 
some ways to bring this panel together, what we get is the 
lose-lose. You do not protect your treasures, nor are you 
sensitive to local economic needs, and that is just not what I 
think I got an election certificate for, and I come back to 
this summer.
    I mean, anybody who was watching the thousands of 
firefighters fight these raging fires over hundreds of 
thousands of acres has to recognize that business as usual, 
which is bad for the environment and bad for community economic 
needs, is not acceptable, and what I want to do is see if I can 
find some ways this afternoon to move you a little closer to 
some areas that we can pursue, both in the fire area and in 
terms of forestry generally, to come up with some solutions 
that will promote healthy ecosystems and forest health in 
particular.
    Let me begin with you, Mr. Lawrence, if I might. You have 
heard Mr. Woods and Mr. Nelson and in particular folks in New 
Mexico as well talk about areas that have suffered severe 
insect infestations, and Elk City, which Mr. Woods has talked 
about, or severe fires, like I mentioned the Warner Creek area 
in Oregon. What is, in your view, the appropriate way to manage 
these areas so as to be sensitive to the economic needs of 
these communities?
    Mr. Lawrence. Well, I think the starting point is to 
recognize that insect infestations present different challenges 
from the general enterprise of trying to do fire risk reduction 
in a more general forest. I think that most insect infestation 
areas have to be judged on their own merits. It is a difficult 
thing to generalize about.
    There are places where insect infestations appear to be 
truly frightening, and then 2 or 3 years later turn out not to 
have had a particularly abnormal effect. There are other places 
where insects kill in particular areas almost completely, and 
what is left behind is a whole bunch of dead trees whose fate 
ultimately is going to be burn up, and to burn up relatively 
hot, and I think as between those two polar opposites, it is 
very difficult to speculate or to generalize about what the 
appropriate approach is.
    Just a couple of general principles. You may or may not 
know that my organization is not a zero-cut organization. We do 
not oppose commercial logging on the national forests. We think 
the question is where it should be done and how, and I say that 
I think we cannot confuse restoration logging with commercial 
logging. That does not mean there should not be any commercial 
logging.
    One place for commercial logging is places where there is a 
very high percentage of beetle kill, bug kill, or in some 
cases, rare cases, pathogen-killed trees, and it is an 
appropriate thing to look at, but it is very difficult to say 
sort of, you know, a priori, let us do it, or let us not do it.
    I think another important thing to recognize is there is a 
big difference between going into an area before it burns, and 
going into an area after it burns. Areas that have burns in 
particular areas that have burned relatively hot and have 
suffered disturbance from management over the years tend to be 
very sensitive, and they have damage. What science we have 
about restoration efforts in those areas suggest logging those 
areas is very tricky, has lots of downsides.
    There is less indication to show that there are big 
problems in the wake of logging trees that have been killed but 
not burnt, so there is some reason to think about getting in 
early and making a decision early about whether to log a stand 
or not. Waiting until it burns and then rushing in to do a so-
called salvage logging operation often does not produce very 
much in the way of value for the timber companies and the 
communities, and it often produces lots of environmental harm.
    Senator Wyden. I would be very interested, and you could 
get us this for the record, to have you try to lay out in your 
view what are the appropriate management principles for those 
areas, because I think you are right, there is certainly, 
between the extremes, some differences, but could you get that 
for us, say in the next couple of weeks?
    Mr. Lawrence. I will do what I can. I want to underscore--I 
am hedging here a little bit because the first thing I am going 
to do is go talk to scientists who know the most about this. 
This is not an area I prepared for today, and I know this much, 
that it has been a couple of years since I have talked to those 
guys, so I have got to track them down and hear what they have 
to say, read their research and think about it, and not to 
dodge you, but I think a couple of weeks is an ambitious 
timetable for that, given what is on our plate.
    Senator Wyden. This is going to be an ambitious 
subcommittee.
    [Laughter.]
    Senator Wyden. Because we have got a lot of work to do, and 
it may be of some solace to you, I am going to ask the flip 
side of the question now for Mr. Nelson and Mr. Woods, because 
Mr. Nelson and Mr. Woods are saying that they want to go on in 
there and deal with dead and dying material, and insect 
infestations, and I would be curious what environmental 
safeguards you think you two gentlemen believe ought to be 
applied to this kind of timber harvest.
    Mr. Nelson. Should I go first?
    Senator Wyden. Either one.
    Mr. Nelson. Well, first of all I think you need to talk 
about why you have these insect epidemics. There are insects in 
our forests all the time. They are natural populations out 
there. The reason you have the pictures that Mr. Woods brought 
here is because we have forest health conditions where we have 
trees under an immense amount of stress.
    It is compounded by the fact that we have drought cycles, 
but in general, we have vastly overstocked conditions out there 
that puts the individual trees at stress, so that when these 
insects that are always out there get into conditions where you 
have vast acreage with trees that are growing much to close 
together, that are fighting for oxygen and nutrients, that is 
when you get insect epidemics, so I guess I would say that 
first of all an insect epidemic should be part of the fire 
plan, because it is the same cause. The overstocked, unhealthy 
forest conditions are going to produce both fires and insect 
epidemics.
    The second point I think I would make is that this is truly 
a win-win situation, and what I heard you say, Senator, I agree 
with. In that vein, I do not see where we need to make a 
distinction between restoration and commercial logging. if we 
have a good, balanced program with commercial logging that 
takes out the fuel, we can generate electricity with it instead 
of making dirty, polluted air when the fires come in. We can 
also take out saw logs and make boards, and keep these rural 
communities in jobs. That is a win-win situation, so I do not 
quite understand the distinction between restoration and 
commercial logging.
    Senator Wyden. Mr. Woods.
    Mr. Woods. I agree with what he said, and the thing that I 
would like to talk a little bit about, you mentioned the 
environmental protections that we have, and number 1, in our 
area--and I will just talk about our area particularly--we have 
a rather healthy undergrowth of Ponderosa pine, of firs, and 
some other species in the lodgepole, which everybody recognizes 
needs to be protected. I doubt that anybody is more concerned 
with the environment than we are in Elk City on the long term.
    What I talked about also was being able to establish at 
least some fire breaks to take out some of these things from 
existing roads, so we do not create any additional 
environmental damage. Our biggest problem, quite frankly, is in 
the Forest Service, and it is not that we do not have good 
people in the Forest Service, but their hands have been 
completely tied. There are mountains of paperwork that face 
them, and they sit in their offices with glazed eyes, quite 
frankly, and I think that is one of the reasons why the morale 
is so low. They have impossible jobs. They cannot get anything 
done. If they do anything, it is appealed. It is appealed and 
appealed and appealed, and I know that you gentlemen are more 
than familiar with that story.
    But there is a way to immediately attack this problem in 
our area, and it does need to be done immediately, through a 
categorical exclusion, where these dead trees and dead pine 
trees that are within reach of the roads could be placed in a 
category that would not go through an appeals process and some 
removal could be established right now, and during this period 
of time, when you are getting part of this out, you can work on 
the rest of the problem.
    Senator Wyden. I am going to ask you two to do the same 
thing that I asked Mr. Lawrence to do. See if in the next 
couple of weeks you can get me a statement of how you would 
apply environmental safeguards to the harvest that you want to 
have, because I want to take those two statements, I want to 
take what Mr. Lawrence has said with respect to his concerns 
about how you deal with it from an environmental standpoint, 
and his desire to talk to scientists, which is plenty 
legitimate in my view, with what you are saying, because I have 
made it clear I want to get that dead and dying material off 
the forestland.
    But I want this panel to understand, there is not going to 
be a salvage rider on my watch. We are not going to go back to 
those kinds of polarizing days that bring you a lose-lose 
situation. They are bad for the environment and bad for the 
economic needs of the community. We are not going back to that. 
We are going to stay at it until we find some ways to bring 
folks together, and you mentioned doing more of it at the local 
level. Senator Craig and I are very proud of that county 
payments bill, because it gets more of the decisionmaking out 
of Washington, D.C. It gets it out at the local level, and that 
is where the county projects portion was so important in terms 
of getting the legislation done.
    So I asked the question in the way that I did for a reason, 
and that is that I am very hopeful that we are going to be able 
to figure out, like we did with the county payments 
legislation, a bipartisan coalition of sensible people from the 
scientific community and local communities around this country, 
and industry and environmental leaders, and make some more 
progress here in an area that is absolutely key to reducing 
fire, which we are all interested in doing.
    The last question would be for all the panelists. Maybe we 
can start right down the row with you, Mr. Hubbard. I actually 
will have a couple of other questions, but after this I want to 
recognize my colleague.
    Mr. Hubbard and our other panelists, last year the Congress 
instructed the agencies to focus their efforts to reduce 
hazardous fuels in their communities that were at high risk 
from wildfire. Now, we have gotten reports that only a small 
portion of all the projects are being implemented in the 
wildland urban interface near communities. I would be curious 
whether that is your experience, and whether you think Federal 
agencies can be doing more to carry out what has been an 
important priority.
    Mr. Hubbard.
    Mr. Hubbard. The States were asked to produce a list for 
the Federal Register of communities that were threatened by 
wildfire and forest condition. They produced 22,000 communities 
for that list. The process was that each State, through its own 
system, determined how to assess that risk, and provided that 
list of communities.
    The Federal land management agencies were then asked to 
respond in field treatment projects that corresponded to 
protecting those communities that were at risk. In 2001, not 
much of that happened. We were dealing with projects that 
already had environmental clearance that had started through 
the process prior to that list being produced.
    We accepted that. We coordinated with those agencies on how 
we could apply the resources spent on the private lands best 
with what was coming forward in the future on the Federal 
lands, but after the Federal agencies got finished with the 
preparedness implementation that achieved the most efficient 
level, they then turned their attention to fuel treatment 
projects and the joint planning of those projects, 
collaborative with the State and local communities. That is 
very much underway, and I think in 2003, when we get through 
the environmental clearance process, you will see good results.
    Senator Wyden. All right.
    Mr. Lawrence.
    Mr. Lawrence. Yes, the answer is they can do a lot more to 
identify priority communities and priority projects in 
community areas, and not only for the reasons that Mr. Hubbard 
points to, but also because the whole business of identifying 
where priority treatment priorities are going to lie is kind of 
a hot potato. It is not surprising that they have not made a 
great deal of progression it.
    One critical element in doing that, I think, is going to be 
to work with community leaders to work on a program, and to 
integrate with a program of bringing fire resistant materials 
to the structures in question. As Mr. DeIaco said, in the Los 
Alamos fire the majority of the structures--this is not quite 
what you said. It is about what you said.
    The majority of the structures that were lost were actually 
experienced a moderate to low intensity fire, and they either 
burned up because of that low to moderate intensity fire, or 
because of spotting, firebrands that came from miles away. You 
can thin a very long way away from houses and still lose them 
and, heaven help us, every once in a while lose firefighters as 
well, if you do not make the houses more resistant to fire.
    It does not do any good to define an urban wildland 
interface as miles away from communities, and then leave the 
houses exposed, so an integral part of this is working with 
community leaders, getting that work done to make sure that 
when you do thin around communities, you have got something 
there that can be defended.
    Mr. DeIaco. Yes, I think the answer for the southern New 
Mexico area is a yes, too. The Forest Service there is a couple 
of years ahead, probably was ahead of the curve. They had stuff 
on the shelf, NEPA-ready. They have done more than 13 miles of 
the interface around the community. We pretty much have an 
intermixed community right where I come from. They have done a 
good job.
    But again, it does not do a whole lot of good if you do not 
get on the other side of the interface and get the private 
folks in there doing their stuff, because that is where the 
damage is.
    Thank you.
    Senator Wyden. And that is clearly where progress has been 
slow. All right.
    Mr. Nelson.
    Mr. Nelson. On the flip side of that, in California we have 
an infrastructure setup between the State of California 
Department of Forestry and the major private landowners as well 
as the Federal Government. It is called the Firesafe Councils. 
The one I am most familiar with is in the Quincy Library Group 
area, and in those places the private entities and the State 
have done an amazingly good job of getting fuel breaks--
thinnings--around these communities.
    The problem we have seen is that the Forest Service has not 
come to the table. It has not been their own fault in all 
cases, but they have been hampered by some of the hurdles I 
went into in my written presentation. In our case, in 
California specifically, the Sierra Nevada Framework EIS would 
not allow them to thin down anything below a 12-inch tree, for 
example. It is almost impossible to have a fuel break that is 
going to reduce the spread of fire with those kind of 
constraints on it. So in the case of the area that I am 
familiar with, the private entities and the State have done a 
very good job of trying to get at these communities, but the 
Feds have not.
    The second point is, and it was previously mentioned, you 
cannot really stop a fire of the magnitude that we are seeing 
now with a shaded fuel break. All it really allows you is a 
safe place to get firefighters in, to get the fire down out of 
the tops of the trees so that you can get people and equipment 
on it and try to stop it, so the idea that you are going to 
thin, you can argue whether it is 50 feet or 5 miles around a 
community, that is not going to stop these raging fires we are 
seeing now, so we need to get out and make it beyond that. We 
need to reduce the stockings throughout the forest.
    Senator Wyden. Mr. Woods.
    Mr. Woods. I would just like to reiterate some of the 
things I have already said, and particularly in terms of the 
immediacy of the problem. For us, we are looking at lodgepole 
pine that is mature pine, almost uniformly through the forest, 
and I said--it is a bad word to even bring up, but probably the 
best way to treat a lot of that is just absolute clear-cut. It 
is stuff that has got to come out of there. If it burns, it is 
going to be so intense that you are not going to be able to 
stop it.
    And I was reminded a couple of years ago, I think Senator 
Craig was in the area south of the Salmon River with Secretary 
Babbitt and Governor Kempthorne, in a fire in this type of 
timber, when you cannot hardly go into it because the trees are 
falling so fast and the firefighters are at extreme risk. You 
are at extreme risk in this area right now if you just go out 
and survey a stand.
    In fact, as I mentioned in my testimony, one of the 
consultants told me that they first of all, before they enter a 
stand, try to figure an escape route. If they get caught in 
that lodgepole timber when the wind comes up, there is no 
escape route, and I guess that my main thing is, now is 
imperative, and we do not have time to go through study after 
study.
    Senator Wyden. That is why I asked you both for your 
principles and how you would approach it in a couple of weeks.
    Mr. Woods. And we will have a plan to you in 2 weeks about 
environmental concerns.
    Senator Wyden. That is how we are going to have to do this, 
folks. If you all tell us how you are going to comply with the 
environment, Mr. Lawrence will tell us what he thinks the best 
science is that makes sense for handling these areas so as to 
promote sustainability, then we can do what people give us an 
election certificate for, and that is to come up with a way to 
make our forests healthier and deal with these issues.
    So it has been an excellent panel, and we will go to 
Senator Craig.
    Senator Craig. Mr. Chairman, thank you. I wanted to get 
back here to thank Trent for being here, and I see his wife in 
the audience. We have over the years worked together on a lot 
of issues. It is not unique that they wear a pin or a button 
that says, Save Elk City. For any of you who have not been 
there, it is this unique, private enclave, private property 
enclave in the middle of the Nez Perce Forest. It is a 
community whose relationship to the forest causes its 
existence, and I would like to think that the existence of the 
forest could be caused by the community itself.
    To lose the kind of infrastructure, Mr. Chairman, we are in 
the process of losing in many of our small communities, mills, 
the very tool that the Forest Service now needs to make any 
value whatsoever of a forest practice toward improving the 
forest health is really at risk here at the moment, and I think 
it is something that all of us have to face and deal with.
    I would have to take some issue with Mr. Lawrence, and the 
fact that he says there is no science that argues thinning. 
Well, we have not done enough thinning, although we have had a 
lot of pilot programs out there that would suggest that 
changing the character of the stands by removal, or replicating 
what Mother Nature would have done 100 years ago, does 
substantiate. I think what we are attempting to do here is to 
get back into our forests and try to replicate what Mother 
Nature would have done here 100 years ago before we got at the 
business of putting out fire.
    The introduction of fire into the circumstances of what we 
are talking about today is catastrophic, and we have had 2 full 
years demonstrating that now. Even in 1994 it was being 
demonstrated in a very real way, before we got into another wet 
cycle in the Great Basin regions of the West, and now we are 
back out of that and into the drought cycle.
    We are back into ever increasingly hotter and totally 
stand-destructive kinds of fires of a nature that is well 
beyond, I think, what any of us had imagined, or even some of 
our friends on the other side who are advocates of no 
management whatsoever on our public lands are beginning to 
recognize is in itself an almost indefensible position.
    Having said that, I would agree with you, there are not 
going to be any salvage riders, nor would there be any that I 
would support, but we are frustrated, tremendously frustrated 
when we suggest, or as some have suggested here that you do not 
thin in roadless areas. Then let me count the times the fire 
either started in the wilderness, roadless areas, and moved 
into the roaded areas, and then moved to the urban interface.
    I am not sure on which end you start. If it is only the 
urban interface that we are allowed to enter, then that will 
not change--it will only save the trophy homes, and some of the 
suburban areas are the urban areas that have grown out of these 
communities that were once beside the forest that are now in 
the forest. It will not save the forest.
    And clearly, public policy and this committee ought to be 
at the business of saving the forest, and changing the 
character of the stands so effectively outlined by the bug kill 
that is now so clearly evidenced in the Great Basin West, that 
is in part a combination of the uniqueness I think that Mr. 
Nelson outlined.
    We had situations in the West this past 2 years in which 
standing trees had less moisture content than had they been 
dropped, sawed, and run through a dry kiln, and when that 
happens, and the pitch comes forward in its defense of itself 
for the purpose of saving the tree against the bugs, the tree 
inevitably dies, or it weakens itself to a point where only the 
strong survive, and that is one in every 50 or 60, and we set 
ourselves up for catastrophic events that will ultimately fall 
out.
    I would hope that we have started down a road where we can 
gain public support and gain some of those who were once our 
critics, will work with us becoming cautious advocates of a way 
to save our forests to ensure their health and their watershed 
qualities and their wildlife habitat.
    Mr. Chairman, you and I have worked closely on a lot of 
these issues. There are a good many questions I could ask, but 
the reality is that you do not just start at one end of a 
problem and suggest that you solve it by messing around down at 
one end of it. Many fires, and the fires that we saw over in 
the Quincy area, that took out phenomenal habitat, did not 
start in the areas that were once treated. It started in the 
areas that were not treated, and those were the unroaded areas, 
and in some instances the wilderness areas.
    Now, we are not going to go into wilderness, and neither 
you nor I would support that, but to suggest that we do not 
even look at the unroaded areas, or that we are not allowed to 
develop a roadless policy, a new roadless policy that will 
allow us some flexibility there to regain forest health, Mr. 
Chairman, is in itself a half a solution at best, to a problem 
that will only increase as we cycle ourselves through these 
forests, and as we now bring ourselves to it.
    I want to thank the folks for traveling from Idaho, but I 
want to thank all of you for being here. As the chairman and I 
and our colleagues in the Senate work with this new 
administration and the policies that are at hand, and hopefully 
the ability to adjust those policies a little bit, and to do so 
in the bright light of the public eye and the public 
attention--these are public lands and, frankly, I do not want 
to see Idaho burn. I do not want to see any other area burn, 
but we have literally millions of acres in my state today that 
are unroaded, that are ready to torch, and if we go through 
another year or two of the kind we have experienced in the last 
two, they may well go.
    I would feel not only neglectful, but I would feel that I 
had acted in an irresponsible way, Mr. Chairman, if I had not 
tried to set in place policies that tried to save those forests 
in the name of the environment in which they now are.
    Thank you. Thank all of you very much for being here. We 
appreciate your testimony and your involvement in these issues.
    Senator Wyden. I thank my colleague for a statement that, 
as has always been our tradition, indicates that you are 
willing to meet me more than halfway in terms of trying to work 
these issues out, and I say to the panel members, what we can 
do if the people from the industry give us the essence of how 
they would approach these issues from an environmental 
standpoint. If Mr. Lawrence and his associates in the 
environmental community talk to us about land management 
practices you all will follow, Senator Craig and I will perform 
as we did on the county payments bill. We will work with 
Chairman Bingaman and the Ranking Republican, Senator Murkowski 
from Alaska, and work with you on an ongoing basis to put in 
place a new approach that will keep forests in this country 
healthier. This will allow us to have more sustainable 
forestry, and will address both environmental and economic 
needs, so that is why we put you on that tight time frame.
    It has been an excellent panel, and unless you all have 
anything you would like to add further, we will excuse you at 
this time. Does anybody have anything further they want to add?
    The hearing is adjourned.
    [Whereupon, at 5:45 p.m., the hearing was adjourned.]
                                APPENDIX

              Additional Material Submitted for the Record

                              ----------                              

                   National Association of State Foresters,
                                   Washington, DC, August 10, 2001.
Hon. Robert C. Byrd,
Chairman, Senate Interior Appropriations Subcommittee, U.S. Senate, 
        Washington, DC.
    Dear Senator Byrd: The National Association of State Foresters 
(NASF) is pleased to support and recommend implementation of the 
document titled, ``A Collaborative Approach for Reducing Wildland Fire 
Risks to Communities and the Environment: A Ten-year Comprehensive 
Strategy.''
    The NASF is a non-profit organization that represents the Directors 
of State Forestry agencies in all fifty states, eight U.S. territories, 
and the District of Columbia. The need to improve public and 
firefighter safety, reduce hazardous fuels, and restore forest 
ecosystems is of nationwide concern and affects private as well as 
public lands. Our members are committed to working collaboratively; 
across jurisdictional boundaries, to promote the health and 
sustainability of our nation's forest resources.
    The NASF appreciates the language from Congress in the FY 2001 
Interior and Related Agencies Appropriations Act (P.L. 106-291) which 
directs the Secretaries of Interior and Agriculture to work in full 
partnership with state and local governments in responding to the 
current wildland fire and hazardous fuels situation.
    We were also pleased to be included in the core group of 
stakeholders that drafted this strategy. We commend the entire drafting 
group for their dedication to the effort and for the commitment to 
partnership and collaboration reflected in the document.
    As the strategy moves forward to implementation, the NASF 
encourages both Congress and the Secretaries to maintain the emphasis 
on full state-federal partnership, to focus on local involvement, 
prioritization and decision-making, and to encourage actions that 
transcend jurisdictional and/or ownership boundaries to address 
landscape level resource needs.
    Thank you for your interest in and commitment to the sustainability 
of our nation's forests and communities. We look forward to working 
with you, as well as our federal and non-federal partners, to implement 
this strategy.
            Sincerely yours,
                                             Conrad Motyka,
                                                         President.
                                 ______
                                 
                                                   August 13, 2001.
Hon. Robert C. Byrd,
Chairman, Subcommittee on Interior and Related Agencies, Committee on 
        Appropriations, U.S. Senate, Washington, DC.
    Dear Mr. Chairman: We endorse and commend to you the enclosed 
document, A Collaborative Approach for Reducing Wildland Fire Risks to 
Communities and the Environment: A Ten-Year Comprehensive Strategy.
    In October 2000, the Congress passed and the President signed the 
FY 2001 Interior and Related Agencies Appropriations Act (P.L. 106-
291). The Conference Report accompanying P.L. 106-291 directed the 
Secretaries of the Interior and Agriculture to ``work with the 
governors on a long-term strategy to deal with tile wildland fire and 
hazardous fuels situation, as well as the needs for habitat restoration 
and rehabilitation in the nation.'' They are to ``develop a coordinated 
National 10-Year Comprehensive Strategy with the states as full 
partners in the planning, decision making, and implementation of the 
plan.'' The Conference Report also stated that a collaborative 
structure with the states and local governments as full partners, will 
be the most efficient and effective way of implementing a long-term 
program. We believe the Strategy meets these important objectives among 
others.
    A number of stakeholders, many of whom are listed in Appendix II, 
assisted the Governors in the development of this strategy. We 
appreciate the work of these individuals and all others who contributed 
to this important effort.
    Over the next nine months, we will prepare a detailed 
implementation plan for the Strategy that will seek to improve the 
integration of the wildfire management programs of the Departments of 
Agriculture and the Interior, establish consistent priorities and 
performance measures, provide timelines for accomplishments, meet 
applicable legal requirements for federal and state actions, and 
continue to build upon the collaborative approach undertaken thus far. 
We expect to complete the implementation plan by May 1, 2002.
                                   Ann M. Veneman,
                                           Secretary of Agriculture.
                                   Gale A. Norton,
                                           Secretary of the Interior.
                                   Dirk Kempthorne,
                                           Governor of Idaho,
                                           Western Governors' 
                                               Association
                                           Chairman and Lead Governor.
                                   John A. Kitzhaber, M.D.,
                                           Governor of Oregon,
                                           Western Governors' 
                                               Association
                                           Lead Governor.
                                   Jane Dee Hull,
                                           Governor of Arizona,
                                           Western Governors 
                                               Association
                                           Vice Chair.
                                 ______
                                 
                          National Association of Counties,
                                   August 13, 2001, Washington, DC.
Hon. Robert Byrd,
Chairman, Interior Subcommittee, Senate Appropriations Committee, U.S. 
        Senate, Washington, DC
    Dear Chairman Byrd: The National Association of Counties (NACo) 
endorses ``A Collaborative Approach for Reducing Wildland Fire Risks to 
Communities and the Environment: A Ten-year Comprehensive Strategy.''
    Over the last decade, county officials have witnessed the 
ecological and economic devastation wrought by increasingly severe 
wildland fires across the country. As a direct result of this firsthand 
experience, we are convinced that the approach outlined in the Strategy 
is exactly what we should be doing to protect our communities and our 
natural resources.
    NACo was heartened by the fact that Congress directed the 
Secretaries of the Interior and Agriculture to work with the states and 
local governments as ``full partners'' in developing the Strategy. We 
commend the Secretaries and Governors for the deference to local 
perspectives that permeates the Strategy, thus fulfilling both the 
spirit and the letter of the law.
    Ultimately, however, our support for the Strategy is based not on 
the process by which it was developed, but on the promise it holds for 
achieving measurable outcomes on the ground. We believe that the 
Strategy lays out a roadmap for (1) improving wildland fire prevention 
and suppression; (2) reducing hazardous fuels; (3) restoring fire 
adapted ecosystems; and (4) promoting community assistance. America's 
counties are committed to meeting each of these important goals and 
look forward to working with the Secretaries and the Governors to 
implement the Strategy.
    We thank you for your vision and look forward to working with you 
to achieve our common aims.
                                   Javier Gonzales,
                                           President, NACo,
                                           Commissioner, Santa Fe 
                                               County, NM.
                                   George Enneking,
                                           President, NACo Western 
                                               Interstate Region,
                                           Commissioner, Idaho County, 
                                               ID.
                                 ______
                                 
                                Intertribal Timber Council,
                                     Portland, OR, August 17, 2001.
Hon.  Robert Byrd,
Chairman, Appropriations Subcommittee for the Interior and Related 
        Agencies, U.S. Senate, Washington, DC.
Hon. Conrad Burns,
Ranking Member, Appropriations Subcommittee for the Interior and 
        Related Agencies, U.S. Senate, Washington, DC.
Hon. Joe Skeen,
Chairman, Appropriations Subcommittee for the Interior and Related 
        Agencies, U.S. House of Representatives, Washington, DC.
Hon. Norm Dicks,
Ranking Member, Appropriations Subcommittee for the Interior and 
        Related Agencies, U.S. House of Representatives, Washington, 
        DC.
    Dear Chairmen and Ranking Members: On Monday, August 13, 2001, the 
Western Governors Association issued ``A Collaborative Approach for 
Reducing Wildland Fire Risks to Communities and Environment,'' a ``10-
Year Comprehensive Strategy'' developed by a stakeholder group led by 
the Western Governors Association (WGA) that hopes for the Strategy's 
adoption by the Congress and U.S. Departments of Agriculture and 
Interior.
    The Intertribal Timber Council, an organization of seventy forest-
resource owning Indian tribes and Alaska Native organizations, attended 
the development sessions of the stakeholder group, and we wish to take 
this opportunity to state the Intertribal Timber Council's (ITC) 
position on the Strategy. We must also note that this statement of 
position is that of the ITC alone and is not intended to represent the 
specific views of any individual tribe.
    The Intertribal Timber Council is supportive of the Strategy, to 
the degree that tribal participation can be fulfilled within the well 
established and overarching policy of the government-to-government 
relationship directly between the United States and Indian tribes, and 
within the unique treaty and trust obligations of the United States to 
Indian tribes, our people, and our resources. With the Nation's 
forests--and their potential for wildland fire transcending ownership 
boundaries, the need for communication and collaboration among all 
involved parties is essential to comprehensively address wildland fire 
issues. We were pleased that our representative was able to take part 
in the WGA-led stakeholders group that developed the Strategy, and we 
hope we will continue to be involved in the development of the Strategy 
Implementation Plan.
    There are, however, several issues within the Strategy that are of 
concern to us.
    First, application of the Strategy's ``priority setting'' to Native 
American communities and resources must be clarified to fully recognize 
and adhere to federal trust and treaty responsibilities to tribes and 
their resources, and the tribal--federal government-to-government 
relationship.
    Currently, the Strategy's Framework for Collaboration's description 
of Local Level activities includes tribes as participants in local 
stakeholder groups that are to help ``establish priorities'' for the 
application of wildland fire assistance, raising the question of 
whether tribal participation in local stakeholder groups is to subject 
tribal wildland fire funding to the collective priority determinations 
of the local stakeholder group. The Strategy's Summary discussion of 
the Framework for Collaboration underscores that question by noting the 
Framework is to apply ``across all ownerships and jurisdictions.'' 
These raise the prospect that, within the Framework, parties other than 
the tribes and the United States could seek to become involved in 
determining the national level of funding for wildland fire activities 
on Indian trust lands, and in determining how that money is to be spent 
within Indian trust lands. That is not acceptable. Quite simply, no 
parties other than the U.S. and the tribes should have authority to 
determine how the U.S. fulfills those obligations. While tribes 
certainly are willing to work with all their neighbors in coordinating 
the most effective application of their respective funds and resources, 
it must be clear that the determinations for Indian Country remain 
solely in the hands of the U.S. and the tribes.
    Second, we are concerned that, within the Strategy's Framework for 
Collaboration, tribal governments have been deleted from participating 
at the National Level, and that only the governors are to sit as ``full 
partners'' with the Secretaries of Agriculture and Interior. Earlier 
drafts of the Strategy included tribes and local governments in 
National Level participation, but the final version issued on August 
13th unexpectedly deletes all but the governors from the National 
Level.
    While we have been assured that the Strategy is to operate within 
all existing law and regulation, and that the Strategy says ``line 
officers of the land management agencies are the principal 
decisionmakers concerning public lands'' (note: Indian trust lands are 
not ``public lands''), the Strategy also makes clear its intention that 
the governors, as ``full partners'', have a substantive role in 
national budget and policy decisions regarding wildland fire. Such 
decisions could impinge upon the availability and application of 
wildland fire resources for federal trust obligations for Indian tribes 
and Indian resources.
    Tribal governments are separate and distinct from state 
governments, and have a direct and unique relationship with the United 
States founded in treaties and fiduciary obligations. Given such 
interests, it is altogether appropriate that tribal governments also 
have a seat at the federal table. Tribes may be willing to participate 
in the coordinative efforts of the Framework for Collaboration, but in 
no way does that mean representation of tribal interests at the federal 
level on this issue is to depend upon agents of state government. 
Accordingly, the ITC asks that, in any Congressional or Executive 
adaptation of the Strategy, tribal governments be provided a tribal 
representative in National Level forums on wildland fire issues.
    As mentioned before, the ITC is pleased to have taken part in 
developing a comprehensive collaborative and cooperative Strategy for 
all aspects of wildland fire and communities at risk. The ITC 
understands the need for and is supportive of such plans, and we hope 
to participate in developing the Strategy Implementation Plan, where we 
may have an opportunity to pursue the necessary and appropriate 
clarification of tribal roles in ``priority setting.'' We also hope to 
work with the WGA on assuring appropriate tribal participation in 
National Level decision-making on wildland fire issues. But ultimately, 
we ask that the U.S. Congress and the Executive Branch fully recognize 
and exercise your unique federal trust and treaty responsibilities to 
protect tribal governments, our communities, and our resources.
            Sincerely,
                                   Nolan C. Colegrove, Sr.,
                                                         President.
                                 ______
                                 
                            Western Governors' Association,
                                                September 11, 2001.
Hon. Robert C. Byrd,
Senator of West Virginia, U.S. Senate, Washington, DC.
    Dear Senator Byrd: We seek your continued support for substantial 
funding for wildland fire management activities. Based on the agreement 
with the previous Administration and with the Bush Administration under 
the recently endorsed 10-year Comprehensive Strategy, ``A Collaborative 
Approach for Reducing Wildland Fire Risks to Communities and the 
Environment: 10-Year Comprehensive Strategy,'' the Western Governors' 
Association (WGA) fully supports substantial funding in the areas of 
fire preparedness, rehabilitation and restoration, hazardous fuel 
reduction and community assistance.
    WGA believes that the reduction of fuel loads on public lands and 
in those areas adjacent to communities in the wildland-urban interface 
is critical for protecting the health of the nation's resources and 
ensuring public safety. We support hazardous fuel mitigation through 
increased prescribed fire, thinning and the restoration of degraded 
watersheds. Active management and restoration treatments will require 
not only investment by the federal government if the forest health and 
reforestation goals are to be achieved in a timely manner, but will 
also require partnerships with the states and implementation at the 
local level on all land ownerships as called for by the Congress in the 
committee report for the FY 2001 Interior and Related Agencies 
Appropriations Act (P.L. 106-291). In fact, the report calls for states 
to be ``full partners in the planning; decision-making, and 
implementation'' of the 10-year Comprehensive Strategy. This same 
language, along with the associated language addressing the 10-year 
Comprehensive Strategy should be incorporated in the conference report 
of the FY 2002 Interior and Related Agencies Appropriations Act.
    Wildland fire threats, impacts and consequences across the nation 
are real and substantial. Our states are again feeling the impact this 
summer. In 2000, over 8 million acres burned in the United States, and 
suppression costs alone reached a record $1.6 billion. At least 3 
million acres have burned so far this year. We can significantly reduce 
these figures in the future with up front investments to improve the 
health of these lands. Accordingly, we urge your support for the 
provisions of the Senate and House marks as detailed in the attachment.

                                   John A. Kitzhaber, M.D.,
                                           Governor of Oregon.
                                   William J. Janklow,
                                           Governor of South Dakota.
                                   Rick Perry,
                                           Governor of Texas.
                                   Michael O. Leavitt,
                                           Governor of Utah.
                                   Gary Locke,
                                           Governor of Washington.
                                   Jim Geringer,
                                           Governor of Wyoming.
[Attachment.]
  Western Governors' Association (WGA), FY 2002 Interior and Related 
      Agencies Appropriations Act, Wildland Fire Management Needs
    Western governors are committed to accelerating restoration of 
unhealthy forests and watersheds, working in partnership with 
stakeholders, and federal and local partners.
Restoration Rehabilitation, Fuels Treatment and Suppression
    WGA supports the House mark regarding funding of restoration and 
rehabilitation work and accompanying language allowing for the funds 
for fuels and rehabilitation in the National Fire Plan of the Forest 
Service to be used for projects on adjacent non-federal lands in the 
wildland urban interface. We also support the fire suppression and 
hazardous fuel reduction funding in the House mark for the Forest 
Service account.
Emergency Appropriations and Volunteer/Rural Fire Assistance Programs
    WGA supports the emergency appropriations designation for the 
Department of the Interior under wildland fire operations in the Senate 
mark. We commend both the House and Senate on its continued funding of 
the state and volunteer fire assistance programs of the Forest Service 
and we support continued funding of the rural fire assistance program 
for the Department of the Interior. Rural fire departments are a 
critical link for fire preparedness throughout the West.
Community and Private Land Assistance
    WGA supports continued funding of the community and private land 
fire assistance account under State and Private Forestry of the Forest 
Service that was established in last year's appropriations bill. This 
account enabled federal and state partners to more directly engage 
private landowners and communities to recover from and respond to 
severe wildfire. For FY 2002, neither the House nor Senate marks 
provide funding in this account. We would strongly encourage agreement 
during conferencing to provide continued assistance through this 
account.
Forest Resource Information and Analysis (FIA)
    WGA supports the FIA work of the Forest Service with the states and 
supports the four-year ramp up of forest inventory and analysis funding 
according to the FIA business plan developed via direction from the 
1998 Farm Bill Research Title. States cannot accurately and effectively 
plan and respond to wildfire without the timely and thorough 
information provided by the FIA program.
                  Oregon Natural Resources Council,
                                      Western Field Office,
                                       Eugene, OR, October 5, 2001.
Subcommittee on Public Lands and Forests,
Senate Committee on Energy and Natural Resources, Dirksen Building, 
        Washington, DC.
Subject: Written testimony for the Sept. 25, 2001 hearing on the 
National Fire Plan

    Dear Senator Wyden and Members of the Committee: Please accept the 
following written testimony from Oregon Natural Resources Council Fund 
(ONRC) concerning the effectiveness of the National Fire Plan, 
including fuel reduction efforts, and the 10-Year Comprehensive 
Strategy for Reducing Wildland Fire Risks to Communities and the 
Environment that was recently agreed to by the Western Governors' 
Association, Secretary of the Interior Gale Norton and Secretary of 
Agriculture Ann Veneman.
    We'd like to supplement the record with the follow principles 
relating to wildland fires and fuel management:
    1. Let's stop doing things that exacerbate the fire/fuels problem, 
e.g., inappropriate fire suppression, timber harvest that removes large 
wood and leaves small fuels, livestock grazing that shifts vegetative 
composition and structure, etc. If the lack of fire management plans 
are an impediment to letting fires burn, by all means let us make it a 
high priority to prepare these plans.
    2. Fire suppression must be radically rethought. When conditions 
warrant, we must learn to let fires burn. Fire suppression is what got 
us in this situation. We should now view most fires as our friend. 
Aggressive fire suppression should be the exception rather than the 
rule.
    3. Fuel reduction and fire suppression efforts should be focussed 
on the urban interface where human lives and infrastructure is most at 
risk. Wild unroaded forests and rangelands should be the last place we 
spend precious fire plan dollars.
    4. Fuel reduction should focus on landscapes and forest types that 
were naturally visited by frequent fire. Many areas of the west, such 
as north slopes and high elevation areas, naturally had high vegetation 
density.
    5. Use prescribed fire to implement fuel management objectives when 
ever possible. Prescribed fire (appropriately used) is much lighter on 
the land than logging. Whenever logging or heavy equipment is proposed, 
the land management agencies should be required to first analyze 
prescribed fire as an alternative management tool.
    6. We must be mindful that fuel management efforts may increase our 
ability to control low intensity fires while doing nothing to help us 
control the high-intensity fires. The irony here is that most Americans 
probably want and expect us to control the high-intensity fires that we 
can't realistically do much about, while control will be exerted over 
low-intensity fires that we should let burn in the interests of 
restoring ecosystem processes.
    7. Fuel reduction efforts should focus on removing only the 
material that has accumulated since fire suppression has become 
prevalent, i.e., big old trees are not the problem and should not be 
cut in the name of fuel management.
    8. Post-fire salvage is virtually irrelevant to reducing fire 
risks. We must learn to leave these fragile landscapes to heal without 
human intervention. First, the high risk fine fuels are mostly consumed 
while the large wood that remains is not highly inflammable. Second, 
the post-fire landscape will be severely harmed by salvage logging. 
Soils, water quality, and wildlife are all vulnerable to disturbance 
and logging will almost universally retard recovery of the ecosystem.
    9. We should support studies to better understand fire recovery 
under natural conditions. To that end, the Forest Service should 
designate a system of representative burned but unlogged areas such as 
the Warner Fire Recovery Area on the Willamette National Forest as 
Research Natural Areas.
    Please review Oregon Natural Resources Council's attached policy 
statement on wild and prescribed fire in the Intermountain west.
            Sincerely,
                                               Doug Heiken,
                               Western Oregon Field Representative.
[Attachment.]
         [Oregon Natural Resources Council Policy Statement] *
     Wild and Prescribed Fire in Forests of the Intermountain West
    Over a hundred years of logging, grazing, fire suppression, road-
building, and development have resulted in widespread fragmentation and 
degradation of the magnificent coniferous forests of the Intermountain 
West. Many of these forests are recognized by the scientific community 
as being critically destabilized. Still, significant areas, including 
wilderness, roadless areas, and moist forests, remain relatively 
unchanged.
---------------------------------------------------------------------------
    * Statement was peer-reviewed by noted fire and forest ecologists 
of the Intermountain West.
---------------------------------------------------------------------------
    Originally, most ponderosa pine and mixed-conifer forests of the 
Intermountain West were open and park-like, with large, majestic trees 
underlain by dense grass swards. These low- and mid-elevation forests 
were shaped by millennia of recurrent forest fire, which helped 
maintain the forests' ecological integrity by reducing tree densities, 
controlling forest pests, and releasing a steady supply of nutrients 
into the soil. Many of the plant and wildlife species in these arid 
western forests evolved with fire-return intervals as short as 7-30 
years and are dependent on the conditions created by fire for 
regeneration, rapid growth, food, and shelter.
    Due to nearly a century of active fire prevention, fire-fighting, 
and livestock grazing, which eliminates the fine fuels necessary to 
carry low-intensity surface fire, ever greater numbers of tree 
seedlings and saplings have survived to maturity. Forests that were 
once open and park-like due to periodic thinning by low-intensity 
ground fire now develop into dense thickets. During dry seasons and 
prolonged drought, these trees become stressed, limbs fall to the 
ground, and trees die. Consequently, dead woody debris accumulates and 
forests become increasingly prone to intense fire. Without periodic 
fire to reduce this fuel load and limit tree numbers, species 
composition of the forests changes from dominance by fire-tolerant, 
sunlight-loving species such as ponderosa pine and western larch, to 
dominance by fire-sensitive, shade-tolerant species such as Douglas-fir 
and true firs. These changes, in combination with selective logging of 
large, fire-tolerant trees, have created conditions in which many of 
the original park-like forests have been converted into dense, fire-
prone, and increasingly disease- and insect-prone stands.
    Nevertheless, many forests in the region have not been 
significantly affected by recent changes in the fire regime. Riparian 
forests and wetter forests on north-facing slopes and at higher 
elevations traditionally experienced fewer fires. And forest types such 
as high-elevation lodgepole pine and Engelmann spruce-subalpine fir 
have always developed into dense flammable forests, which were 
periodically consumed by stand-replacing fires.
    Because of drought, selective logging, high tree densities, high 
fuel loads, and the loss of a mosaic of burned and unburned forest 
stands, low-elevation forests and those on south-facing slopes are now 
more vulnerable to destructive fire, insects, and disease than they 
were formerly. ONRC advocates that land managers initiate measures that 
mimic nature in reducing fuel loads, so as to return forests to their 
pre-EuroAmerican-settlement densities and fire regimes. These 
activities (see next page) include prescribed burning, thinning of 
small fire-sensitive trees, removal of livestock, a let-burn policy in 
some areas, and less destructive fire-fighting techniques. Salvage 
logging, as currently practiced, should be prohibited since it damages 
already disturbed soils, watersheds, and wildlife habitat. Despite 
pronouncements by the timber industry, commercial thinning and post-
fire logging may not reduce the frequency of fire. In fact, these 
activities often increase the intensity and rate of spread of fire 
because of increased fuel loads from logging debris left on the ground. 
Consequently, salvage logging is incompatible with ecosystem-based 
management.
                            prescribed fire
    The long-range goal of fire management policy should be to restore 
forest types, fire cycles, and habitat mosaics to those found before 
EuroAmerican settlement. For some areas, this is best achieved by 
manually igniting fires, which thin the understory and remove excess 
fuels.
    A region-wide, long-term plan for restoring intermountain forests 
needs to be developed. The plan should include a 30-year schedule of 
prescribed fire to reduce fuels, as well as district-by-district maps 
delineating areas targeted for a let-burn policy, fire prevention, or 
fire suppression.
    Priority for prescribed burning should be given to forests near 
developed areas (the urban/wildland interface), low-elevation or south-
facing forests most transformed by past fire suppression, and areas 
with unnaturally high fuel loads.
    Where absolutely necessary to reduce ladder fuels that carry fire 
into canopies, small noncommercial trees may be thinned, lower limbs 
pruned, and litter raked away from large tree trunks and snags.
                            fire prevention
    Fire prevention should not be a goal of forest management in the 
Intermountain West except when human life and extraordinary ecological 
values are at stake. Since fire is an inevitable and ecologically 
essential component of forest ecosystems, managers should focus on 
restoring historical fire regimes.
    Artificial firebreaks should be constructed only where proven 
effective, and not at all in wilderness, wild and scenic rivers, 
roadless regions, municipal watersheds, or ecologically sensitive 
areas.
    Livestock grazing should be eliminated from public forests and wild 
ungulates maintained within their year-round carrying capacities so 
that dry grasses can once again fuel low-intensity surface fires.
    Private property owners should be required to take measures to 
``fire proof'' their property by clearing flammable vegetation, adding 
fire-resistant roofs and shutters, and taking other reasonable 
precautions. By choosing to live in or adjacent to wildlands, 
homeowners must assume the risk of protecting or replacing their 
property rather than relying on taxpayers through their funding of 
firefighting agencies.
                            fire suppression
    Fire suppression activities should be conducted only when 
absolutely necessary and with utmost care for the long-term integrity 
of the ecosystem. Low-impact fire-fighting techniques should be used.
    Fire suppression should be conducted only where human life, 
developed property, or irreplaceable ecological values (e.g. rare 
forest types or a major portion of the population of an endangered 
species) are at stake, or in areas that should be protected until 
prescribed burning can reduce excess fuels.
    Fire suppression should not be allowed in wilderness, wild and 
scenic rivers, and roadless regions, unless these areas have 
irreplaceable natural values and are scheduled for prescribed burning.
    Fires should not be actively fought where nearby natural fire 
barriers such as bodies of water or rocky ridges are likely to 
extinguish the fire.
    Due to the risk of de-watering, surface water should not be taken 
from small streams and lakes for fire suppression. Fire-fighting 
retardants and foams, which are toxic to fish and other aquatic 
organisms, should never be used near streams.
    Bulldozing and other forms of disturbance should be prohibited in 
stream channels, riparian areas, wetlands, and on sensitive soils and 
steep slopes.
    As much funding should be available for restoring natural forest 
ecosystems as for fire suppression.
                          post-fire activities
    ``Restoration'' activities such as salvage logging, grass seeding, 
bulldozing, and stream clearing may be as damaging to forests as fire 
suppression and should be prohibited unless proven effective and 
beneficial.
    Note: Municipal watersheds should be evaluated for non-commercial 
thinning, prescribed fire, and fire suppression on an individual basis. 
These activities are appropriate for some, but not all, watersheds.
                                 ______
                                 
                                      Yakima, WA, October 15, 2001.
Hon. Chairman Wyden,
Forest and Public Lands Committee, U.S. Senate.
    I am Kathie Fitzpatrick, the mother of Karen Lee Fitzpatrick. 
Karen, at only 18 years old, died working on the 30-Mile Fire on July 
10, 2001. She had only worked for the U.S. Forest Service for about 
three weeks. Karen had completed a 40 hour training course, and was 
supposed to be working as a ``Forestry Aid,'' which could include 
firefighting. But Rookies are supposed to be kept at the ``hind end'' 
of a fire mopping up, and working under the protection, supervision and 
direction of more experienced firefighting staff. But after only three 
weeks, and on only her third fire, suddenly she was an ``Initial Attack 
Firefighter,'' on the 30-Mile Fire. That's what it reads on the bronze 
plaque that will be inset on her gravestone.
    Karen was excited to be working for the U.S. Forest Service over 
the Summer to earn money to use for College in the Fall. She was going 
to start courses toward her Associate of Science degree in Fire Science 
at Yakima Community College, and eventually wanted to become a bi-
lingual EMT for the City Of Yakima Fire Department, she hoped. Now that 
dream will never be realized. How many people may she have helped in 
her future? She was very athletic, and talented; a 4.0 student and a 
member of the National Honor Society at West Valley High School. Karen 
was a young woman who could always seem to rise out of a difficult 
situation, and win. She was like the clever, quick cat who always 
seemed to land on her feet, seldom caught by surprise or defeat. But 
Karen didn't know that she would report to a fire on July 9th, 2001, 
and be dead by the early evening July 10th because her Incident 
Commanders, whom she entrusted with her very life, would disregard 
every safety rule she, and all other firefighters had just learned in 
fire training school. Karen didn't know that the ``experienced men'' 
who would lead them around that death-trap canyon, would not even 
regard the most common sense danger-reaction to this fire. She was too 
young to know that things like this can, and do happen. She and her 
other three colleagues. Tom, Jessica, and Devin didn't know they might 
as well have signed up for a suicide mission. They all loved life way 
too much for that!
    This fire was no ``Sudden Surprise.'' This fire, which started out 
small, grew at a steady rate, always leaping far ahead of them. There 
was no reason to believe it would ever be contained by a 21-man crew! 
The Entiat Hot Shot Crew who came in originally to work on the fire, 
late in the night of July 9th, later ordered a helicopter at 2 AM to 
drop water on the fire early the next morning. Because of the 
distraction of the South Libby Fire, some 40 miles south, no 
helicopter, no fire retardant, and no water came. In the words of the 
Entiat Hot Shot crew still present about 9 AM, ``You'd better get out 
of here or you're gonna die!''
    Since when should a crew be expected to fight a fire with only a 
pulaski?
    This is pretty ridiculous! Some water was pumped from the creek, 
but this proved to be too feeble of an attempt to put this fire out. 
Other delays had to do with questioning whether or not to dip water out 
of the Cheweuch River, as it was home to endangered fish! Meanwhile, 
this fire was spreading at a dangerously fast rate. A fairly accurate 
summary from the investigative report dated September 2nd, done by the 
Yakima Herald Republic, chronicles the day from the log, and also 
describes how fast the fire was spreading. These unfortunate young 
people were put in a dead end canyon without adequate escape routes, 
and the only road out, which was also the only road in--was eventually 
cut off, causing a fatal entrapment for four of the firefighters. Their 
Commanders led them into a frontal assault on a fire that brought them 
squarely into an entrapment! Not very smart.
    The summary of the day at the fire site plainly demonstrated that 
the Incident Commanders overlooked every danger signal, and every 
warning sign that should have obviously lead them to dis-engage their 
crew from the fire. Where did common sense go that day? Where did a 
respect for the fire go? Was somebody drunk, insane, or a little too 
seduced by the fire? Were egos raging out of control? Yes, the fire 
blew up. But this happened late in the day about 5 PM. The crew had 
already been kept there all day at highly unreasonable risk. The U.S. 
Forest Service wants to retort, ``Firefighting is dangerous work.'' 
Yes, sometimes. But so is crossing the train tracks when the light is 
flashing, and the whistle is blowing. You can walk across the tracks 
safely, by using good judgment--or you can lie down and wait for the 
train to come and run over you! What happened at the firesite of the 
30-Mile fire on July 1Oth was just as extremely reckless, and the lives 
of four very talented individuals were needlessly sacrificed--for what? 
Flowers, and brush that will grow back next Spring? The Forest Service 
should have just closed the road and let it burn! It's necessary for 
the health of the forest to let it burn once in awhile to clean out 
underbrush, and diseased trees, etc. When God managed the forests, and 
lightning strikes ignited fires--this is how it used to be!
    This brings up another matter. This crew was sent into fight this 
fire because it was not a lightning strike, but was man-made--
originating from a campfire that ``got away.'' This is ridiculous. When 
a fire starts in a heavy, dense, designated research area, it needs to 
be put out as quickly as possible by the nearest fire department, or 
private agency. It ridiculous to call in young kids from 200-300 miles 
away, and two or three states out, because they need to earn their 
college money! The Cheweuch Canyon, full of dry pine needles, old, dry 
wood, full of turpentine, and heavy fuel load--had not burned in over 
200 years. It was a tinder box--a bomb waiting to happen! We stuck 
prime young people in this situation on purpose? Talk about being 
seriously violated. The Forest Service pays personnel to take the 
inventory of the fuel load up there acre by acre, so they will know 
what will happen when a flame gets into it. They had no excuse for not 
knowing what would occur up there that day! A computer print out would 
show that there were 74 private/contractors or agencies in the region 
that could have reported to that fire immediately and had it put out 
before the fire was the size of a house.
    Whether a fire starts from a lightning strike or a campfire--it 
burns the same, and it kills the same! This should never be an issue. 
Don't you think some cave men had a fire get away from them? Any fires 
in heavy, dense research areas should be put out as quickly as 
possible--or get the crew out as quickly as possible! The main 
consideration should always be: can a ground crew realistically be put 
out in a particular setting to effectively and safely put out a fire? 
Do they have the tools and resources to fight the fire? If not, they 
should by no means be there! Some fires should only be fought from the 
air with water and fire retardant, as ground crews would too easily be 
entrapped or consumed, as was the case at the 30-Mile Fire.
    Incident Commanders who put crews at an unrealistic risk, need to 
be disciplined in a way that stings . . . in a way they will definitely 
remember! They need to be liable in some way, so they will be sure to 
exercise proper caution. They need to be thinking: ``I could get in 
trouble, I could loose my job . . . I could go to jail.!'' 
Unfortunately, at the present time, nothing at all happens to them! 
Pete Kampen, and Ellreese Daniels still hold their jobs with the Forest 
Service. I understand from some of the crew, that Pete Kampen even got 
a raise, and a promotion! I consider this very strange, indeed!
    Other primary issues are: The U.S. Forest Service should not be 
allowed to investigate itself! If someone commits a crime, they don't 
get to be their own judge, jury, and set their own disciplinary action! 
No one else does.
    Fires in heavy, dense research areas should be treated with extreme 
caution. They are bombs waiting to go off! Policies prohibiting them 
from burning on their own should be lifted, regardless of their 
origination! If they are curtailed, they should be hindered and fought 
only by air attack crews, not ground crews. Crews on the ground are far 
too vulnerable.
    Any reinforcements that show up to assist in the fire, first need 
to check in with the Incident Commander on the status of the fire. At 
30 Mile--there was no communication whatsoever! The two fire engines 
from Twisp, radioed by the heli-attack, and came in from about one hour 
away, had no idea what the status of the fire was when they arrived 
about 2 PM-on July 1Oth, and they didn't ask! They arrived, unexpected 
key the ground crew. They immediately pulled crew from Tom Craven's 
group, and Tom Taylors's group, and started ordering them around to put 
out spot fires. Ellreese Daniels needed to tell them, ``We've decide to 
dis-engaged from this fire. We just need to get out of here so we don't 
die!'' This did not happen. About 4 PM, one of the fire engines 
radioed, and reported that the fire was seriously encroaching on the 
road. The fire engines pulled out, but a crew of 14 were ultimately 
trapped inside by about 4:45 PM. It is not clear why the IC's waited so 
long to try to pull everybody out. Once again, they obviously did not 
take this fire seriously!
    Rookies need more training, and time in less vulnerable and 
dangerous situations! There also needs to be more training on correctly 
deploying shelters. The manual says that rocks are a good place to 
deploy. There are not. It creates extra heat that bakes you!
    The U.S. Forest Service promised the families of the victims, after 
the tragic loss of life in the South Canyon Fire in Colorado in 1994, 
that this would never happen again.
    The policies and procedures that were developed after that tragic 
loss of 14 young firefighters in Colorado, after similar circumstances 
as the 30-Mile Fire, were supposed to have been put into effect by 1999 
(The Tri-data Study). However, they were not. These ideas also included 
stern discipline for Incident Commanders who put their crews at 
unreasonable risk. Do you think Ellreese Daniels and Pete Kampen were 
thinking about any promises made to the families of the Storm King 
victims while they were out at the firesite July 10th? I doubt it.! But 
they might remember that they themselves might be liable, or seriously 
``Get in trouble.''
    Unfortunately, IC commander Ellreese Daniels, claimed he gave a 
command to ``Come down off the rocks to the road.'' In this case, those 
who deployed their shelters on the road because they already were 
there, lived. The facts, and eye witness accounts of those present, 
proved that a command like this never happened, and exposed this to be 
a lie. This was a serious attempt by the Forest Service to put blame on 
the dead who could not testify for themselves.
    It seems like we know the answers, but will we have to lose even 
more of our brightest and best young people? How many more will die 
before something is done? Myself and the families request additional 
Senate hearings, and Congressional hearing to fully and truthfully lay 
the facts on the table. Some individuals and evidence will only be 
available through subpoena power. We hope as things in our nation 
stabilize, this will be one of the issues that will be given priority. 
As long as firefighters are going out to fight fires, and new Rookies 
continue to be trained, and put out in the fields and forests to fight 
fires, we owe it to all of them to solve these important issues. Thank 
you for your help, and support!
            Yours Truly for More Safety In Firefighting,
                                                Kathie FitzPatrick.
                                 ______
                                 
  Statement of Stephen J. Pyne, Professor, Biology & Society Program, 
                        Arizona State University
                [Wildlife Fire in America: A Commentary]
                              introduction
    Let me express, first, my regrets that I could not attend the 
hearings. The invitation came with too little time to unravel my prior 
commitments, all of which involved other people and two of which 
required travel out of town. The staff suggested that I submit instead 
a written testimony. They indicated its substance should address the 
National Fire Plan and the prospects for a repetition of the 1910 fire 
season. I'm pleased to do so.
    I am not a member of any fire agency; federal, state, or private. 
Nor do I presently receive any funds for research from any such agency. 
From 1967-1985, I worked seasonally for the National Park Service (save 
1982). I have once operated under a cooperative agreement with the 
Forest Service, 1977-81. I may become a subsidiary partner to a 
contract, now under negotiation, to write a history of fire management 
in the national parks. And, shortly, I will receive funding from the 
Canadian Forest Service to inaugurate a history of fire in that 
country. The only official connection I hold with American agencies is 
that I serve, as of last summer, on the stakeholders advisory committee 
for the Joint Fire Science Program. The good news is, I am not 
obligated to any of the parties of the National Fire Plan. The bad news 
is, I do not have detailed, current knowledge about its particulars. 
This matters because the program will triumph or collapse to the extent 
that it can produce local, site-specific projects that address the true 
hazards and opportunities for fire management.
                         a spectrum of comments
The West's fire problem
    The American West does not have a fire problem: it has many fire 
problems. Some are old, some new. Some have technical solutions, some 
must rely on cultural choices. We can keep houses from burning. We 
can't as easily determine how best to administer fire in wilderness or 
roadless areas or how to cope with wildlands that suffer poor 
ecological health, including disturbed fire regimes. These involve 
judgments, not simple engineering. The National Fire Plan will achieve 
useful goals to the extent that it splits the lumped flames that floods 
TV screens into specific problem fires. A generic solution will only 
yield a generic failure.
The intermix fire
    The most visible crisis--the intermix fire (what the agencies 
prefer to call the ``wildland/urban interface'' fire)--is a dumb 
problem to have because technical means exist to fix it. It will more 
or less disappear if we abolish wooden roofs, do some basic yardwork, 
and provide minimal on-site fire protection. Zoning and building codes 
would help enormously; so would a broader-brush manipulation of 
surrounding wildlands. The most critical reforms, however, pertain to 
the houses and their immediate environs. Such fires often spread house 
to house, particularly roof to roof, without regard to intervening 
vegetation. Conversely, some houses at Los Alamos burned from, simple 
contact with burning pine needles piled against the siding; someone 
with a whisk broom and squirt gun could have extinguished them. A 
solution requires us to imagine these settings not as wildlands but as 
exurban environments that demand, for fire protection, the same kinds 
of standards that have lessened free-burning fire in cities. This is 
something that existing fire institutions can do.
    The larger drivers behind this process, however, lie beyond the 
control of fire agencies. Rural America is, in effect, being 
recolonized. In the 19th century, colonization meant clearing, which 
heaped fuels about the land, and wooden structures, which were 
vulnerable to burning. In more recent years colonization has meant not 
clearing, which has also bloated the land with fuels, and wooden 
structures, again susceptible to fire. The current process, however, 
does not involve rural folk living off the land but rather urban 
outmigrants who bring urban values and expectations and whose 
livelihood does not require them to engage the land on which they 
reside. The agencies cannot influence the larger social and economic 
pressures behind this outflow; they can reduce the prospects that such 
sites will burn. My reading of the NFP is that it clearly identifies 
both the nature of the problem and its scope.
    Some qualifications: Not all intermixed landscapes are at risk. 
Those that are most susceptible are those with a natural disposition 
toward fire, which means they exhibit regular patterns of climatic 
wetting and drying, they have abundant combustibles, and they have 
routine ignition. Places like the American West that experience annual 
dry seasons, hold public wildlands, and know dry lightning are 
particularly vulnerable. Places like New England are not. It is also 
clear that the most critical sites are the structures themselves and 
their immediate surroundings. This argues that broadcast treatments 
have far less effect than raking and trimming adjacent to buildings. It 
means that, except where public lands abut housing developments, the 
federal agencies have only limited control over, and responsibility 
for, the necessary treatments to create a defensible space or to shield 
those houses. I believe the agencies' most powerful role is to advise, 
to set examples, to work with rural fire districts, and, where public 
and private lands meet, to render less fire-prone the public lands.
    All this will take time because it will involve intimate working 
with local communities and specific sites. A crash program of clearing 
or fuelbreaks based on global prescriptions, couched as a program of 
rural jobs, will more likely wreck rather than reform. Over the last 
century, problem fires like the intermix seem to come and go on a 
rhythm of 20 years. If that pattern holds--and I believe it does--then 
by my reckoning we are halfway through its the intermix era. The crest 
of the wave will pass over the next five years. It may be time to begin 
imagining fire's new new thing.
Fuel treatments
    This is an immense topic on which I will offer only two 
observations--on fuelbreaks and on more broadacre mechanical thinning.
    Fuelbreaks rarely succeed. They flourish best when they are built 
into a larger pattern of land use; they work least well when they are 
retrofitted, usually by simple cutting or clearing. They can help in, 
say, tree farms, where they are integrated into the planting scheme. 
But slashing swathes through dense forest is worthless. Such fuelbreaks 
fail precisely when they are most needed, during extreme conditions 
when winds carry firebrands across them. A fuelbreak around a community 
offers no more protection than a moat around a wooden stockade. It's a 
nuisance, not a barrier. Moreover, fuelbreaks demand endless 
maintenance. Typically, a decade or two after they are installed, 
labor-intensive upkeep tends to fade and the fuelbreaks vanish. This, 
in fact, is precisely what happened to the thousands of miles of 
fuelbreaks constructed by the CCC during the Roosevelt Administration.
    Fuelbreaks need to be broad, sustainable, integrated into the life 
of a community or forest. A greenbelt half a mile wide will help; a 20-
foot-wide gouge through the woods will not. The protection the latter 
offers is wholly illusory. Better to lay out a network of recreational 
trails and parklands or even a golf course. (For the record, I do not 
golf.)
    Secondly, if narrow belts are problematic, then perhaps a more 
expansive cutting program could succeed. Again, it depends. It depends 
on the kind of forest, it depends on site-specific features, it depends 
on how such a project might be conducted. For almost a decade I have 
watched the treatments proposed for ponderosa pine around Flagstaff, 
Arizona, under the direction of Dr. Wally Covington and his colleagues. 
The treatment calls for extensive thinning of small trees, for sparing 
the large trees, and for various other measures to reestablish grasses 
and forbs and some regular regimen of burning. This seems to me an 
entirely justified experiment that merits expansion. The prescriptions, 
however, are particular to ponderosa. There may or may not exist 
analogous prescriptions for other environments.
    The aggressive thinning has encouraged some observers to label it 
``logging.'' Some logging companies would like to call the practice 
logging since that might help justify the cutting of larger trees. 
Similarly, some environmental critics want to tar the practice as 
logging in order to prevent any kind of cutting. Both--in my mind--
involve deliberate distortions. A better expression would be ``woody 
weeding.'' To leave the most robust timber trees is hardly logging 
according to any conventional definition; the thinning is not conducted 
to advance specifically silvicultural ends; the outcome may very well 
expend more money than it takes in. (But we have long subsidized 
logging on the public lands anyway.)
    For the record, I dislike the expression ``restoration.'' But the 
calculated confusion sown by critics intent on smearing the technique 
as ``logging'' is a disservice. Whether adjacent to exurban 
developments or not, such treatments may well deserve support. As 
always, the devil will reside in the details. Broadcast treatments will 
almost certainly fail. Site-specific ones have a chance to yield real 
improvement.
    Would outright logging bring improvement? Not likely. Nearly every 
large fire of American history has been associated with landclearing or 
logging, and lands so cut that were not quickly converted to 
agricultural fields became highly flammable as slash and reproduction 
mingled. Not only do clearcuts burn, they tend to burn with far greater 
ferocity than uncut forests. The only strategy by which logging might 
enhance security from wildfire is if it occurs within a context of 
intensive cultivation, if logging is part of a suite of other practices 
that in effect render wildlands into tree farms.
    It is worth repeating that biomass does not equate with fuel. Large 
living trees tend to be heat sinks, not heat sources. From the 
perspective of fire, the critical vegetation is the fine stuff--the 
grasses, branchwood, slash, brush, densely-needled canopies. Large-
diameter material is not a fire hazard, save as standing snags that are 
capable of throwing sparks.
    Likewise, doing nothing does not solve the problem either with 
regard to fuel buildup or to ecological hygiene. Many of the most 
disturbed forests are, like the ponderosa pine, those that had 
experienced a long history of frequent, light, surface fires. This fire 
regime began to unravel in the 1870s throughout the West because of 
overgrazing and the removal of a major source of ignition, the American 
Indian, and then because they became permanently part of a public 
domain for which fire exclusion was a goal. Many of such sites are no 
longer ``natural'' in any meaningful sense. They are currently primed 
to burn in ways far outside their evolutionary adaptations. The fact 
is, fire can be as ecologically powerful removed as applied. There is 
no neutral position possible.
Fire suppression
    Over the past 20 years, the American fire establishment has 
decayed. It has shed experience, suffered from confusion over its 
purposes, and relied on sheer brute force--the ability to spend 
enormous sums of money--to address crises when they occur. The dollars 
are there to fight fires; they are not there to do all the unglamorous 
things a fire agency must do. It is as though the nation committed to a 
health care system in which unlimited funds were available for 
emergency medicine, but little for much else. It makes good theater--
great TV--but lousy land or fiscal management.
    The NFP addresses many of these issues. Some matters it can resolve 
quickly--a buildup of personnel, for example. Other concerns are more 
subtle and will require patient attention. The simplest approach to an 
anticipated outbreak of wildfires is to close off public lands to 
public access, to position suppression forces to detect and attack 
fires while they are small, or if they escape, to mass firefighting 
forces to beat them back. This approach can work, for a time, much as a 
declaration of martial law can quell a riot. But it is not a formula 
for governing those lands.
    What is missing is experience--not bureaucratic longevity, but on-
the-ground, bred-in-the-bone knowledge. This is tougher to acquire: it 
can't be bought. Since only so many fires occur (and many happen 
simultaneously), a larger permanent staff means, paradoxically, that 
there will be fewer fires by which to acquire that experience. Clearly, 
the agencies need better methods of training. Probably they need better 
ways to integrate firefighting and fire lighting so that real field 
knowledge can accrue, year in and year out. This will demand a more 
robust approach to the overall mission of wildland fire management, of 
what precisely one needs to know and do and of how one can acquire not 
merely those skills but the wisdom to apply them in the field.
    There will always be breakdowns in fire managment--wildfires will 
evade initial attack, prescribed fires will fizzle or escape, 
firefighters will suffer injury or even death. ``Experience'' alone is 
not sufficient insurance against such events. But I believe a good case 
can be made that the usual guidelines for fireline safety, for example, 
are simply inadequate. They are so generic that they have no meaning in 
particular circumstances. The ability to recognize how a unique set of 
environmental conditions actually expresses more global guidelines is 
something learned by doing. There must occur a great deal of systematic 
doing over the next few years if the agencies are to reacquire the 
experience they have lost.
Prescribed fire
    Many of the fire problems of the public lands have resulted from 
the loss of fire--the absence of fire as an ecological catalyst, the 
disruption of erstwhile fire regimes, the active and de facto removal 
of flame from lands that had long accommodated it. The problem is not 
simply that we have suppressed fires but that we quit setting them. It 
would seem that restoring fire must be an essential task of the 
agencies and that fire lighting could begin replacing fire fighting, 
that fire is ``natural,'' that it is an inevitable ``tool'' for land 
management.
    The best answer is, yes and no. It should be clear by now that the 
process by which fire was removed is not easily reversible. Restoring 
fire is much like restoring a lost species. It will flourish or falter 
depending on whether a suitable habitat exists. Thrusting flame into a 
site that bears little resemblance to one that existed in the distant 
past will not only fail to restore fire but possibly lead to a 
detonation. A century and a half ago Mexican grey wolves likely roamed 
through Glendale, Arizona where I now reside. But dumping a wolf into 
Arrowhead mall will restore neither the wolf nor the land. So it is 
with fire. Flame is not some kind of ecological pixie dust that one can 
sprinkle over the land and convert the ugly and dangerous into the 
beautiful and benign. Fire will synthesize its surroundings. Messed-up 
landscapes will only spark messed-up fires.
    Free-burning fire is mandatory in some places, useful but optional 
in others, and either too hazardous or too alien for still others. It 
is essential in those landscapes in which it does biological work for 
which there is no surrogate. In such places, we must create a context 
for fire, and we must expect to continue burning in perpetuity. In 
other places, fire may be cheap or useful but not necessary. It is not 
required, for example, to use fire to reduce fuel buildup. In fact, a 
first fire may yield more fuel than it consumes, and an overgrown site 
may not burn in benevolent ways but with overgrown fires. It will 
likely prove necessary to prepare the place to burn properly. If you 
want to reduce fuel, there are many ways to do so. Fire is not 
mandatory for all of them.
    The problem is not to restore fire (or to reverse suppression) but 
to oversee the right mix of fire applied and fire withheld--to manage 
the right fire regime. This requires a relatively firm conception of 
what we want the land to be. Our inability to agree on that objective 
results in confused, sloppy, contradictory, often ineffective fire 
practices.
    But is not fire a ``tool''? It is certainly a technology, though an 
odd one. A flame can sit on a candle as an axehead does on a handle. 
Here is concentrated heat and light, a tool. But much burning (in 
fields, for example) more resembles a domesticated animal. It must be 
bred, fed, trained, directed; its power derives from the larger 
landscape, also domesticated, in which it roams. In yet another sense, 
controlled fire behaves like a captured ecological process, analogous 
to an elephant taught to haul logs or a grizzly bear to dance. Its 
``wild'' properties are its strength, yet it remains ever prone to go 
feral. Its context determines its character. The image of fire as a 
``tool'' is not only inadequate: it suggests a potential degree of 
manipulation and a style of use that wildland settings cannot provide.
    Controlled burning may well--in certain landscapes--be necessary or 
helpful. But it is not intrinsically easier, cheaper, or safer than 
suppression. Many of its costs lie buried in the infrastructure 
provided by fire suppression. The agencies often trot out statistics 
showing a small number of prescribed fire failures (1-2%). I have no 
confidence in such numbers, which depend entirely on definitions. They 
do not record frequent slop-overs, only those fires that require major 
suppression campaigns to recontain them. They say nothing about fires 
that fail to do the job expected of them. In fact, the public failure 
rate from major escapes is eerily similar to that for suppression in 
which about 3% of wildfire starts account for 95% or more of the burned 
area. The failure rate, as measured by the number of fires that evade 
initial action, is almost identical. Why this means prescribed burning 
is successful and suppression a failure is not clear.
    Since the reintroduction of fire as a formal policy, some of the 
largest and most damaging fires in certain years have been prescribed 
burns that went bad. The two most costly fire campaigns in American 
history began as prescribed burns that blew up--the Yellowstone complex 
in 1988 (which commenced as ``prescribed natural fires'') and the Cerro 
Grande fire of 2000 that savaged Los Alamos. That the National Park 
Service lost two such fires in the spring of 2000 (the other forced the 
evacuation of the North Rim of Grand Canyon) suggests that there is 
some systemic bias at work in favor of burning, even when conditions 
don't warrant the risk.
    Prescribed fire's failures and costs will likely rise in the near 
future with no noticeable reduction in suppression efforts or expenses. 
A significant shift in funding will probably require 20 years, for the 
reason that prescribed burning, in order to work properly, demands that 
we fashion suitable habitats to accept the kinds of fires we want. This 
will take time, money, and ingenuity; and it will not involve a simple 
trade-off of controlled fire for wild fire. Both will co-exist for many 
years, and indeed prescribed burning may become itself a significant 
source of wildfires.
    For a number of landscapes, prescribed fire is the right choice, 
even an obligatory choice. That decision derives from biological and 
cultural values. It does mean burning will be simple, cheap, or safe. 
The choice is not between starting and stopping fires over getting the 
right fire regime for a particular place. That is not a decision that 
will likely reside within the hands of fire managers.
The limitations of policy
    The 2000 season might well suggest to someone with an open mind 
that the United States could no longer either suppress or start fires 
with anything like the outcomes its fire administrators intended. The 
National Fire Plan was one response to this reasonable perception. One 
might also question, however, to what degree the problems even reside 
within the realm of policy.
    The National Park Service installed a new policy to better balance 
fire use with fire control in 1967-68; the Forest Service modified its 
policies in 1972, and converted fully in 1978-79. The other federal 
agencies have steadily fallen into alignment, with a wholesale 
reconfiguration in December, 1995. The fact is, policy has been 
adequate to support a more pluralistic program for 25-35 years. Yet 
results have not appeared in the field commensurate with announced 
ambitions. One should not be surprised that, after less than a year, 
the National Fire Plan has also failed to create new facts on the 
ground. One might well conclude that flawed policy has not, in truth, 
been the problem and that more policy will not solve it.
    I confess to being a policy skeptic. The intermix fire problem does 
not depend on policy for a solution: it requires homeowners to better 
fire-proof their homes and lands. Since fire folks are familiar with 
``fire triangles,'' I propose a triad to replace a naive belief in 
policy. We need, along with policy, both practice and poetry.
    By ``practice,'' I mean a suite of techniques and tools that can 
actually make policy happen in the woods. I don't believe we have those 
techniques. Even current strategies for fire restoration revolve around 
simple variants of slashing and burning. We need a wider, more nuanced 
approach, more akin to integrated biological control than starting and 
stopping fires and shoving biomass around. We need crews that forage 
fire. We need more varied controlled burning techniques (current 
practices work in slash and grass, but stumble in more complex 
landscapes). We need to trail fires, to spot burn, to kindle prescribed 
crown fires. We can't treat controlled burning as fire suppression 
stood on its head. And not least, we need practices to allow new fire 
regimes to appear; that is, we need to look at air quality, endangered 
species, liability law, labor restrictions, and the rest. Fire is not a 
bureaucratic category. Fire management is not a 9-5 job. This is where 
I would put the bulk of my research dollars, where I would concentrate 
my training efforts, and where the federal agencies can best assist 
local authorities. Policy per se is mere blather until practical links 
connect it to the field.
    By ``poetry,'' I mean that we need compelling reasons to change the 
existing system, preferably wrapped in a story. The Great Fires of 1910 
bequeathed a magnificent story for fire suppression. We have no 
equivalent tale for a mixed program of fire fighting and fire lighting. 
Why should we expend billions of dollars on ecosystem health when 
public health may be starved for funds? Why should we deliberately burn 
instead of mincing the forests into woodchips or letting nature roar on 
as it chooses? Why should fire claim pride of place, if or when it 
conflicts with other environmental values? It is not enough to say that 
fire is natural. The present regimes--and, I would add, North America's 
fire regimes throughout the Holocene--have always been the outcome of 
humans and nature interacting. Nor is it enough to say, suppression is 
the problem. Fire suppression is not the problem. The problem is that 
we don't have the right fire regimes, and that requires we agree on 
what we want the land to be and why and how we can shape those regimes. 
I don't see that denouncing suppression tells a story about why we 
should, at considerable cost and risk, create a new geography of fire.
    The fire agencies have understood the general issues for some time 
and appreciate the limitations to what they can do. I do not know, 
however, that they appreciate the limitations of policy alone or of 
funding. It may be that we have to reconstitute the entire fire 
establishment. If one will pardon a military metaphor, we have the 
capability to wage extensive (if indeterminate) campaigns against large 
fires. We have the logistical capacity to fight the fire equivalent of 
the Gulf War. It is not clear we have the mixed capabilities to cope 
with more elusive, post-Cold War insurgencies or the fire equivalent of 
terrorism.
Could the 1910 season repeat itself?
    The Great Fires of 1910 remain the fire season of reference. Could 
they happen again? The answer must be, yes and no. It is extremely 
unlikely to reoccur today as it did in 1910 for the same reasons that 
the stock market crash of 1929 is unlikely to be recycled, while it is 
wholly probable that other, analogous crashes might occur (as in 1987 
and 2001). Large fire complexes can return: they did so in 2000. 
Whether similar damages could result is trickier to assess.
    The environmental conditions underlying large fires persist. 
Drought, vast quantities of combustibles, dry lightning, and 
moistureless cold fronts--all these continue. They made the 2000 season 
in the Northern Rockies an eerie echo of 1910. The heaping of fresh 
slash that helped stoke the Great Fires is far less today because of 
diminished logging and landclearing. Against that plus, however, stands 
the onslaught of wooden houses and overgrown lots, often planted amid 
forests turned into conifer-thicket jungles, that can stoke fires of 
equivalent fury. If large-scale logging were to renew and punch into 
uncut lands, these could also become points of fire infection. So while 
the fuels situation has changed, it has not been abolished to the point 
that free-burning fire will starve. Similarly, while the old settlement 
pattern of homesteaders, miners, and townfolk no longer exists, the 
contemporary swarm of tourists and exurbanites has proved just as 
vulnerable.'
    What differs are two factors. One, we can shut down the forests to 
human use, which will squeeze the number of fire starts. And two, we 
can attack fire with considerable force, particularly as new ignitions 
begin. How large fires might become during a crisis season will depend 
on our ability to fight them, especially our capacity to catch new 
starts before they scale up. For the 1910 season to truly repeat 
itself, our suppression capability would have to collapse. Could it?
    It could happen because of over-extension from multiple large fires 
or disasters; or from a loss of firefighting forces and supporting 
equipment, a falling off of funds and training because of several lax 
seasons; or from a breakdown in modern communications--a critical 
satellite or two disabled; or, more generally, from a condition of war 
that would drain attention and commitments elsewhere. Even a mass death 
of firefighters is possible. The 1985 Butte fire in southern Idaho 
entrapped 73 firefighters. Had they not had a bulldozed clearing in 
which to plant their fire shelters, they might all have perished.
    There is no reason to believe the country is exempt from fires of 
historic magnitude. Rather, our whole history of fire management on the 
public lands has, paradoxically (perhaps perversely), ensured that the 
necessary conditions have endured. In such circumstances, one either 
has to convert the landscape to something less flammable or do the 
burning oneself. Without such steps, suppression cannot forever keep 
the lid on the cauldron.
Coda
    I apologize for being both wordy and sketchy. Wildland fire is a 
complicated topic, and while some general principles exist, the subject 
is best treated in particulars. I hope you can find my observations 
useful. And I look forward to being able to testify directly at some 
time in the future.
                                 ______
                                 
Statement of Andrew O. Moore, Vice President, Public & Global Affairs, 
     National Association of Service and Conservation Corps (NASCC)
    NASCC, the national membership organization for 116 state and local 
youth service and conservation corps operating in 31 states and the 
District of Columbia, appreciates the opportunity to submit written 
testimony to the hearing record.
    NASCC has worked closely with the Federal land-managing agencies 
and Congress to ensure that the energy and conservation service 
commitment of the nation's youth and young adults is brought to bear on 
the fire prevention, education, and restoration needs of the nation. 
Language in the FY2001 appropriations bill encouraging the involvement 
of conservation and service corps as a community partner--language 
repeated in contracting guidance on paper and on the Internet--has 
helped open doors and led to several early successes. Corps 
partnerships are underway in Arizona, Colorado, Idaho, Minnesota, 
Montana, Nevada, New Mexico, Oregon, and Utah.
    Notably among those successes NASCC would point to:

  <bullet> The Fire Fuels Reduction Program of the Southwest Youth 
        Corps (profiled below) working with the National Park Service, 
        USDA Forest Service, and Bureau of Land Management in the Four 
        Corners states of New Mexico, Colorado, and Utah; and
  <bullet> The Fire Education Corps of the Student Conservation 
        Association (also profiled below), active in Idaho and Nevada.

    In two puzzling cases, efforts to further corps partnerships in 
pursuit of Fire Plan objectives have met with what are apparently 
bureaucratic slowdowns or resistance, as follows:

  <bullet> Forest Service staff informed the Washington Conservation 
        Corps-Department of Ecology that a proposal to train additional 
        corpsmembers in fire fighting and prevention could not go 
        forward--that the Forest Service could only train Forest 
        Service staff; and
  <bullet> A letter from Forest Service headquarters, informing field 
        personnel of opportunities to enter into Fire Plan partnerships 
        with state and local corps, has remained marooned at 
        headquarters for some six months.

    To get more young people involved with fire-related work, NASCC 
suggests:
          1. Continued emphasis in legislative language and guidance on 
        partnerships with corps, and consideration of setting aside 
        funds for such partnerships;
          2. Instructing Federal land-managing agencies to promote 
        corps partnerships among field personnel, and requiring the 
        agencies to report on such promotion and its results.
[Attachment.]
         Fire Prevention, Education, Fighting, & Restoration: 
                      Highlights of Corps Projects
Coconino Rural Environment Corps of Flagstaff, Arizona
    Engaged in numerous projects with Coconino, Kaibab, and Coronado 
National Forests; Grand Canyon National Park; several National 
Monuments; Coconino County Parks; and the Arizona State Land Department 
in 2001. Projects included chainsaw thinning Ponderosa pine forests, 
preparing for prescribed burns, felling and piling beetle-infested 
Englemann spruce, constructing fire lines, surveying forests with GPS, 
constructing and maintaining trails, closing forest roads, eradicating 
exotic weeds and revegetating with native species. The corps also 
specializes in thinning projects adjacent to private homes.
Minnesota Conservation Corps
    Trains all participants in wildland firefighting (S130/131/190) and 
participates in wildfire suppression, prescribed burning for habitat 
improvement and fuels reduction, as well as fire prevention. MCC has 
also assisted with fire pre-suppression related to the 1999 blow-down 
event in the Boundary Waters.
Montana Conservation Corps
    Works with the USDA-Forest Service, Montana Department of Natural 
Resources, rural volunteer fire departments, BLM, and the National Park 
Service on a wide variety of fire prevention and restoration projects.
Northwest Service Academy of Vancouver, Washington
    Received $48,000 in National Fire Plan grant funding to support the 
training, supervision, and transportation of three AmeriCorps members 
attached to local fire departments in three counties in Central Oregon. 
An Oregon Department of Forestry staff person will coordinate the 
efforts of the three as they initiate community-wide Firefree volunteer 
events and encourage hazardous fuels treatment in targeted interface 
communities in the area.
Northwest Youth Corps of Eugene, Oregon
    Deployed two 10-person youth crews for a total of three weeks this 
summer to rehabilitate wilderness trails within the confines of the 
Hash Rock Fire, using National Fire Plan Funds. Another recent project 
include removing non-native thistles introduced during suppression and 
post-fire soil stabilization efforts from hundreds of acres of burned 
forest ground. In 2000, for Oregon State Parks, NYC reconstructed an 
extensive array of stairs, boardwalks, bridges and puncheons at a park 
that had been heavily burned. NYC has also done a significant amount of 
work to reduce fuels prior to prescribed burns intended to both restore 
natural ecosystems and reduce fuels near the urban interface.
Rocky Mountain Youth Corps of Taos, New Mexico
    Has a crew thinning privately-owned forested land as part of 
National Fire Plan efforts, in a cooperative venture involving RMYC, 
Red River Fire Department, New Mexico State Forestry, and Carson 
National Forest-Questa Ranger District. This Wildland-Urban Interface 
project shows landowners how to thin the timber they own, what building 
materials to avoid, and other safety measures.
Southwest Youth Corps, Durango, Colorado
    With the assistance of three Federal agencies, SYC has mounted a 
large effort under the National Fire Plan. See attached description.
Student Conservation Association
    Supplies numerous highly educated interns to assist with community 
outreach fire education, and is increasingly involved with GIS mapping 
and fire audits as well as part of National Fire Plan. SCA interns 
worked with state and private forestry officials in Idaho and Nevada in 
2001 and will soon carry out activities in many more western states. 
See attached description.
Utah Conservation Corps, Logan, Utah
    The Utah Corps received $8,000 in National Fire Plan funding to 
underwrite four weeks' of work in the Blackrock Ranger District of the 
Bridger-Teton National Forest. Corpsmembers rehabilitated eight miles 
of trail, putting in 150 checkdams and 50 waterbars to restore 
recreational opportunities in a burned area.
Washington Conservation Corps (Dept. of Ecology) arranged for USDA 
        Forest Service training for participants. The trained 
        corpsmembers have aided the Forest Service and local agencies 
        in responding to wildfires throughout Summer 2001.
Youth Conservation Corps of the USDA Forest Service
    Placed 93 participants in the Deschutes and Ochoco National Forests 
and the Crooked River National Grasslands in Oregon to handpile 
hazardous fuels, using a mix of National Fire Plan fuels treatment 
funding and other FS recreation, wildlife, fisheries, and hydrology 
funding.
Youth Corps of Southern Arizona
    Having performed well on trails and related backlog maintenance 
projects funded by the NPS Public Lands Corps initiative at Chiricahua 
National Monument, entered into a $30,000 fuels reduction project at 
the Monument in Autumn, 2001.
           Southwest Youth Corps Fire Fuels Reduction Program
    In 2001, Southwest Youth Corps (SYC) piloted a specialized 
conservation program--the Fire Fuels Reduction Crew (FFR). This program 
was developed to help reduce the threat of wildfires and improve the 
health of forested public lands in the Four Corners Region. Primarily, 
the FFR Crew has worked with Public Land Agencies to complete priority 
fire management projects, including urban interface projects 
(protecting archeological sites and modern buildings), thinning acres 
in preparation for Management Ignited Fire, as well as thinning 
projects that are aimed at wildlife habitat protection and improvement.
The Crew
    The FFR Crew consists of two Crew Leaders (supervisors) and eight 
Corpsmembers 18-25 years of age. SYC recruits, hires, and provides the 
administrative oversight for all employees. The Crew has its own 
transportation, tools, equipment and safety gear, including chainsaws 
and extra parts, fuel, chaps, eye & ear pro, safety helmet, etc. The 
Crew also has adequate insurance coverage (workers comp, vehicle, 
general liability).
    Southwest Youth Corps is a job training program. During the first 
week of the 23-week long program, all Corpsmembers are required to 
complete and pass the USFS Power Saw Training Class (S212). 
Additionally, the FFR Crew completed the S 130/S 191 Fire Fighting 
Classes and passed the Pack Test.
    SYC completes all payroll for the crew. Crew Leaders are paid a 
weekly salary and Corpsmembers are paid $7.00/hour and earn a $2,400 
AmeriCorps Education Award upon completion of the project. The FFR Crew 
works four 10-hour days typically; however, the Crew camps near 
projects that are more than a two-hour drive from the SYC headquarters.
Project Sponsors
    During the 2001 Program Year, the FFR Crew has worked with the 
National Park Service, Bureau of Land Management, and United States 
Forest Service (specific contacts listed below):

National Park Service
El Malpais Nat'l Monument (NM)
Herschel Schultz or Mike Kessler
  (505-783-4033)
  
Mesa Verde National Park (CO)
Jim Kitchen or Scott MCDermit
  (970-562-5069)
  
USDA Forest Service
San Juan National Forest (CO)
Ken Reed (970-882-7296)
Bob Frye (970-264-2268)
  
Bureau of Land Management
San Juan Field Office (CO)
Mark Lauer (970-247-4874)
  
Southeast Utah Field Office (UT)
Brenda Zimple (435-259-2194)
  
Fannington Field Office (NM)
John Hansen (505-599-6325)
Work Projects
    The chart describes the type of projects that the FFR Crew has 
completed as well as revenue sources.

------------------------------------------------------------------------
                                              Revenue        Project
       Project sponsor         No. of weeks    source      description
------------------------------------------------------------------------
Mesa Verde National Park.....            4   75% PLC    5 miles (66 ft.
                               (1,404 hrs.)  25% Park    wide) firebreak
                                              Unit*      created around
                                                         three Pithouse
                                                         ruin sites) and
                                                         62 truck loads
                                                         of debris
                                                         loaded and
                                                         removed.
                                                        Tree type:
                                                         Pinon, Juniper,
                                                         oak brush.
                                                        Additionally,
                                                         the Crew helped
                                                         the Park Fire
                                                         Crew dig a fire
                                                         line on a
                                                         wildfire that
                                                         broke-out in
                                                         the Park. Also
                                                         cleared an old
                                                         canyon trail
                                                         that provides
                                                         access for
                                                         grazin
                                                         permittees.
------------------------------------------------------------------------
El Malpais National Monument.            3   75% PLC    8.2 miles of
                               (1,062 hrs.)  25% Park    firebreak
                                              Unit*      created (66 ft.
                                                         wide).
                                                        Tree type:
                                                         ponderosa,
                                                         pinon, juniper.
------------------------------------------------------------------------
BLM Utah.....................            1   BLM Fire   Thinned/cleared
                                 (310 hrs)    Budget*    area for
                                                         visitor center
                                                         and created
                                                         defensible
                                                         space around
                                                         three
                                                         structures.
                                                        Tree type: Pinon
                                                         & Juniper.
------------------------------------------------------------------------
USDA-FS Dolores District.....            4   Fire       Dolores Rim--
                               (1,098 hrs.)   Budget*    Thinned/treated
                                                         47 acres in
                                                         preparation for
                                                         Mgmt.
                                                        Ignited Fire
                                                         Spring 2002.
                                                         Tree type
                                                         Ponderosa Pine.
------------------------------------------------------------------------
USDA-FS/BLM..................            1   Fire       Edgemont Ranch--
                                              Budget*    Thinned/treated
                                                         7 acres to
                                                         create
                                                         defensible
                                                         space on public
                                                         lands
                                                         interphased
                                                         with private
                                                         homes.
                                                         Primarily
                                                         removed the Oak
                                                         Brush
                                                         (underbrush).
                                                         Mechanical
                                                         thinning with
                                                         Chainsaws is
                                                         less disruptive
                                                         than other
                                                         thinning
                                                         devises.
                                                        Tree type: Oak
                                                         Brush
------------------------------------------------------------------------
USDA-FS Pagosa District......            2   Fire       Thinning to
                                              Budget*    prepare for
                                                         prescribed burn
                                                         in Spring 2002.
                                                         Also, protected
                                                         snags for
                                                         wildlife
                                                         habitat in the
                                                         area. Project
                                                         currently being
                                                         completed.
                                                        Tree type:
                                                         Ponderosa Pine.
------------------------------------------------------------------------
BLM-Farmington...............            2   Fire       Thinning to
                                              Budget*    reduce risk of
                                                         wildfire.
                                                         Project
                                                         scheduled to be
                                                         completed at
                                                         the end of
                                                         Sept./beginning
                                                         of October.
                                                        Tree type: Pinon
                                                         and juniper.
------------------------------------------------------------------------
* National Fire Plan Funding directly supported the Agency Fire/Fuels
  Budget used to pay for the Services of the SYC Fire Fuels Reduction
  Crew.

Cost
    The cost of the FFR Crew operation for one week is more than 
$7,000.00 (including everything . . . wages, insurance, transportation, 
tools, supervision, administrative oversight, etc.). SYC has been 
fortunate to secure other sources of funding to offset up to 30% the 
weekly fee for Project Sponsors. Thus, Project Sponsors are required to 
pay at least 70% (or $5,000/week) for the services of the FFR Crew. In 
order to be financially sustainable, SYC strives to receive $6,000/week 
for the FFR Crew; however, as a pilot program in 2001, the $5,000 
weekly fee was accepted.
Mechanisms
    Southwest Youth Corps carried out its FFR Crew work under pre-
existing cooperative agreements and challenge cost-share agreements, 
and developed new agreements with the Bureau of Land Management to 
pursue additional projects.
         Student Conservation Association Fire Education Corps
    The SCA Fire Education Corps is a volunteer community education 
program for property owners along the wildlands interface in Idaho and 
Nevada, conducted in cooperation with numerous federal, state and local 
agencies.
    During July and August of 2001, 50 SCA college-age volunteers have 
aided 1.3 million area residents in the identification of wildfire 
risks and the adoption of proactive fire management strategies 
including the creating of defensible space around their homes.
    The project is funded through a National Fire Plan grant and 
partners include the USFS, BLM, Idaho Dept. of Public Lands, local 
Resource Conservation and Development Councils, local fire departments, 
and Home Depot.
    USFS Chief Dale Bosworth has cited the SCA Fire Education Corps as 
a national example of community education for fire prevention along the 
wildlands interface. Other supporters include Interior Undersecretary 
Dave Tenny and Idaho Gov. Dirk Kempthorne.
    The SCA Fire Education Corps methods include home fire safety 
audits, defensible space seminars, safety demonstrations with local 
fire officials, community and event presentations, and information 
stations at regional Home Depot stores.
    Plans are already underway to expand the SCA Fire Education program 
in 2002 to nine western states (CA, CO, ID, MT, NV, OR, UT, WA, WY) 
involving more than 250 volunteers.
    Founded in 1957, the Student Conservation Association (SCA) is the 
nation's leading provider of conservation service opportunities, 
outdoor education, and leadership development for youth.
    SCA volunteers annually provide more than one million hours of 
conservation service in parks, forests, refuges and urban areas in all 
50 states.
    For more information on the Student Conservation Association or the 
SCA Fire Education Corps, contact Kevin Hamilton, SCA Communications 
Director, at 603-5431700 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f29997849b9c9ab2819193df9b9c91dc9d8095">[email&#160;protected]</a> or contact Jody Handly, 
SCA Fire Education Project Leader, at 208-241-8881 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d0babfb4a990a3b3b1fdb9beb3febfa2b7">[email&#160;protected]</a>

                                    

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
